APPENDIX

1a

APPENDIX A
[J-96-2020]
IN THE SUPREME COURT OF
PENNSYLVANIA
MIDDLE DISTRICT
SAYLOR, C.J., BAER, TODD, DONOHUE,
DOUGHERTY, WECHT, MUNDY, JJ.
PENNSYLVANIA
DEMOCRATIC PARTY,
NILOFER NINA AHMAD,
DANILO BURGOS, AUSTIN
DAVIS, DWIGHT EVANS,
ISABELLA FITZGERALD,
EDWARD GAINEY,
MANUEL M. GUZMAN, JR.,
JORDAN A. HARRIS,
ARTHUR HAYWOOD,
MALCOLM KENYATTA,
PATTY H. KIM, STEPHEN
KINSEY, PETER
SCHWEYER, SHARIF
STREET, AND ANTHONY
H. WILLIAMS

v.

KATHY BOOCKVAR, IN
HER CAPACITY AS
SECRETARY OF THE

:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:

No. 133 MM 2020

SUBMITTED:
September 8,
2020

2a
COMMONWEALTH OF
PENNSYLVANIA; ADAMS
COUNTY BOARD OF
ELECTIONS; ALLEGHENY
COUNTY BOARD OF
ELECTIONS; ARMSTRONG
COUNTY BOARD OF
ELECTIONS; BEAVER
COUNTY BOARD OF
ELECTIONS; BEDFORD
COUNTY BOARD OF
ELECTIONS; BERKS
COUNTY BOARD OF
ELECTIONS; BLAIR
COUNTY BOARD OF
ELECTIONS; BRADFORD
COUNTY BOARD OF
ELECTIONS; BUCKS
COUNTY BOARD OF
ELECTIONS; BUTLER
COUNTY BOARD OF
ELECTIONS; CAMBRIA
COUNTY BOARD OF
ELECTIONS; CAMERON
COUNTY BOARD OF
ELECTIONS; CARBON
COUNTY BOARD OF
ELECTIONS; CENTRE
COUNTY BOARD OF
ELECTIONS; CHESTER
COUNTY BOARD OF
ELECTIONS; CLARION
COUNTY BOARD OF
ELECTIONS; CLEARFIELD

:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:

3a
COUNTY BOARD OF
ELECTIONS; CLINTON
COUNTY BOARD OF
ELECTIONS; COLUMBIA
COUNTY BOARD OF
ELECTIONS; CRAWFORD
COUNTY BOARD OF
ELECTIONS;
CUMBERLAND COUNTY
BOARD OF ELECTIONS;
DAUPHIN COUNTY
BOARD OF ELECTIONS;
DELAWARE COUNTY
BOARD OF ELECTIONS;
ELK COUNTY BOARD OF
ELECTIONS; ERIE
COUNTY BOARD OF
ELECTIONS; FAYETTE
COUNTY BOARD OF
ELECTIONS; FOREST
COUNTY BOARD OF
ELECTIONS; FRANKLIN
COUNTY BOARD OF
ELECTIONS; FULTON
COUNTY BOARD OF
ELECTIONS; GREENE
COUNTY BOARD OF
ELECTIONS;
HUNTINGDON COUNTY
BOARD OF ELECTIONS;
INDIANA COUNTY BOARD
OF ELECTIONS;
JEFFERSON COUNTY
BOARD OF ELECTIONS;

:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:

4a
JUNIATA COUNTY BOARD
OF ELECTIONS;
LACKAWANNA COUNTY
BOARD OF ELECTIONS;
LANCASTER COUNTY
BOARD OF ELECTIONS;
LAWRENCE COUNTY
BOARD OF ELECTIONS;
LEBANON COUNTY
BOARD OF ELECTIONS;
LEHIGH COUNTY BOARD
OF ELECTIONS; LUZERNE
COUNTY BOARD OF
ELECTIONS; LYCOMING
COUNTY BOARD OF
ELECTIONS; MCKEAN
COUNTY BOARD OF
ELECTIONS; MERCER
COUNTY BOARD OF
ELECTIONS; MIFFLIN
COUNTY BOARD OF
ELECTIONS; MONROE
COUNTY BOARD OF
ELECTIONS;
MONTGOMERY COUNTY
BOARD OF ELECTIONS;
MONTOUR COUNTY
BOARD OF ELECTIONS;
NORTHAMPTON COUNTY
BOARD OF ELECTIONS;
NORTHUMBERLAND
COUNTY BOARD OF
ELECTIONS; PERRY
COUNTY BOARD OF

:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:

5a
ELECTIONS;
PHILADELPHIA COUNTY
BOARD OF ELECTIONS;
PIKE COUNTY BOARD OF
ELECTIONS; POTTER
COUNTY BOARD OF
ELECTIONS; SCHUYLKILL
COUNTY BOARD OF
ELECTIONS; SNYDER
COUNTY BOARD OF
ELECTIONS; SOMERSET
COUNTY BOARD OF
ELECTIONS; SULLIVAN
COUNTY BOARD OF
ELECTIONS;
SUSQUEHANNA COUNTY
BOARD OF ELECTIONS;
TIOGA COUNTY BOARD
OF ELECTIONS; UNION
COUNTY BOARD OF
ELECTIONS; VENANGO
COUNTY BOARD OF
ELECTIONS; WARREN
COUNTY BOARD OF
ELECTIONS;
WASHINGTON COUNTY
BOARD OF ELECTIONS;
WAYNE COUNTY BOARD
OF ELECTIONS;
WESTMORELAND
COUNTY BOARD OF
ELECTIONS; WYOMING
COUNTY BOARD OF
ELECTIONS; AND YORK

:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:

6a
COUNTY BOARD OF
ELECTIONS
PETITION OF: KATHY
BOOCKVAR, IN HER
CAPACITY AS SECRETARY
OF THE
COMMONWEALTH OF
PENNSYLVANIA

:
:
:
:
:
:
:
:
:

OPINION
JUSTICE BAER

DECIDED: September 17, 2020

In October 2019, the General Assembly of the
Commonwealth of Pennsylvania enacted Act 77 of
2019, which, inter alia, created for the first time in
Pennsylvania the opportunity for all qualified electors
to vote by mail, without requiring the electors to
demonstrate their absence from the voting district on
Election Day, 25 P.S. §§ 3150.11–3150.17.
The
Pennsylvania Democratic Party and several
Democratic elected officials and congressional
candidates, some in their official capacity and/or as
private citizens (collectively, “Petitioner”), filed the
instant action, initially in the Commonwealth Court,
in the form of a petition for review seeking declaratory
and injunctive relief relating primarily to five issues of
statutory interpretation involving Act 77 and the
Election Code, 25 P.S. §§ 2600–3591.1 This Court
The caption reflects the Secretary of the Commonwealth
Kathy Boockvar as filing the petition before the Court based upon
her application for extraordinary review, which this Court
granted. Regardless, as noted, we now refer to the plaintiffs in

1

7a
exercised Extraordinary Jurisdiction to address these
issues and to clarify the law of this Commonwealth in
time for the 2020 General Election.2
I. FACTS AND PROCEDURAL HISTORY
On July 10, 2020, Petitioner filed its petition for
review in the Commonwealth Court against Secretary
of the Commonwealth Kathy Boockvar (“Secretary”)
and all 67 county election boards (“Boards”).3 In its
petition, Petitioner requested that the Commonwealth
Court issue declaratory and injunctive relief “so as to
protect the franchise of absentee and mail-in voters.”
Petition for Review (“Petition”), 7/10/2020, at 5.4

the underlying lawsuit as “Petitioner” and, as noted infra,
Secretary Boockvar as “Secretary.”
2

Pursuant to 42 Pa.C.S. § 726, this Court
may, on its own motion or upon petition of any party, in any
matter pending before any court or magisterial district
judge of the Commonwealth involving an issue of
immediate public importance, assume plenary jurisdiction
of such matter at any stage thereof and enter a final order
or otherwise cause right and justice to be done.

At the time Petitioner filed its petition, an action filed by
Donald J. Trump for President, Inc., the Republican National
Committee (“RNC”), and several Republican congressional
candidates and electors (collectively, “Republican Party”) against
the Secretary and the Boards was pending in the U.S. District
Court for the Western District of Pennsylvania. In that case, the
Republican Party alleged federal and state constitutional
violations stemming from the recent implementation of no excuse
mail-in voting under Act 77. The specific issues raised by the
Republican Party in the federal action are, to some extent, the
mirror image of the issues raised by Petitioner in the case sub
judice.

3

Concurrently, Petitioner filed both an Application for Special
Relief in the Nature of an Expedited Motion for Alternative

4

8a
Specifically, Petitioner raised several discrete
issues for the Commonwealth Court’s consideration,
which are discussed in more detail infra. Briefly, in
Count 1, Petitioner requested declaratory relief to
confirm that Act 77 permits Boards “to provide secure,
easily accessible locations as the Board deems
appropriate, including, where appropriate, mobile or
temporary collection sites, and/or drop-boxes for the
collection of mail-in ballots.”
Id. at 47, ¶ 165.
Additionally, Petitioner sought an injunction
requiring the Boards to “evaluate the particular facts
and circumstances in their jurisdictions and develop a
reasonable plan … to ensure the expedient return of
mail-in ballots.” Id. at ¶ 166.
In Count 2, Petitioner sought an injunction to “lift
the deadline in the Election Code across the state to
allow any ballot postmarked by 8:00 p.m. on Election
Night to be counted if it is received by the Boards” by
5:00 p.m. on Tuesday, November 10, which is the
deadline for ballots to be received under the Federal
Uniformed and Overseas Citizens Absentee Voting Act
(“UOCAVA”).5 Id. at 50, ¶ 178. In the alternative,
Petitioner posited that the Commonwealth Court
Service and an Application for an Expedited Discovery Schedule
and Evidentiary Hearing, to which several responses were filed.
On July 15, 2020, the Commonwealth Court denied Petitioner’s
request for alternative service.
On July 30, 2020, the
Commonwealth Court, inter alia, granted in part and denied in
part Petitioner’s application for an expedited discovery schedule
and evidentiary hearing. In this order, the Commonwealth Court
set forth specific deadlines for responsive pleadings.
The UOCAVA delineates, inter alia, the process and procedure
in which overseas voters and voters in the uniformed services
receive absentee ballots for federal elections. See generally 52
U.S.C. §§ 20301-20311.

5

9a
could, with a few caveats, “enjoin the Counties to
extend a more tailored ballot extension deadline to the
date that is 21 days after the particular voter’s ballot
is mailed by the county[.]” Id. at ¶ 179.
In Count 3, Petitioner highlighted that the
“procedure for mail-in ballots often leads to minor
errors, which result in many ballots being rejected and
disenfranchising voters who believe they have
exercised their right to vote.” Id. at 51, ¶ 186. In
anticipation of these expected errors, Petitioner again
sought an injunction requiring Boards that have
knowledge of an incomplete or incorrectly filled out
ballot and the elector’s contact information to contact
the elector and provide them “the opportunity to cure
the facial defect until the UOCAVA deadline.” Id. at
52, ¶ 187.
In Count 4, Petitioner requested a declaration that
there is no statutory authority to set aside an absentee
or mail-in ballot solely for failure to place it into the
official election ballot envelope (hereinafter referred to
as the “secrecy envelope”), as well as an injunction
prohibiting any “naked ballots,” which are otherwise
without error, from being invalidated.6 Id. at 54,
¶ 198–199. A “naked ballot” refers to an official mailin ballot that is not placed in the secrecy envelope
before mailing.
As explained more fully below, upon receipt of an official mailin ballot, the mail-in elector is to mark the ballot in secret, and
then fold the ballot, enclose, and securely seal the same in the
secrecy envelope provided. 25 P.S. § 3150.16(a). The secrecy
envelope “shall then be placed in the second one, on which is
printed the form of declaration of the elector, and the address of
the elector’s county board of election and the local election district
of the elector.” Id.

6

10a
Finally, in Count 5, Petitioner sought a declaration
that the “Election Code’s poll watcher residency
requirement does not violate the United States
Constitution’s First and Fourteenth Amendments, its
Equal Protection Clause, or the Equal Protection and
Free and Equal Elections Clauses of the Pennsylvania
Constitution.” Id. at 55, ¶ 207.
On August 13, 2020, the Secretary filed an Answer
and New Matter to the petition. In addition, twenty of
the named Boards filed answers with new matter,
fourteen of the Boards filed answers, and nine of the
Boards filed preliminary objections.7 Requests to
intervene were filed by Donald J. Trump for President,
Inc., the Republican Party of Pennsylvania, and the
RNC, as well as Joseph B. Scarnati III, President Pro
Tempore, and Jake Corman, Majority Leader of the
Pennsylvania Senate, in opposition to the petition.
The Common Cause Pennsylvania, The League of
Women Voters of Pennsylvania, The Black Political
Empowerment Project (“B-PEP”), Make the Road
Pennsylvania, a project of Make the Road States
(“Make the Road PA”), Patricia M. DeMarco, Danielle
Graham Robinson, and Kathleen Wise filed a joint
application to intervene as co-petitioners.
On August 16, 2020, the Secretary filed an
application
asking
this
Court
to
exercise
extraordinary jurisdiction over Petitioner’s petition for
review.8 Highlighting, inter alia, the two major
On August 27, 2020, Petitioner filed its: (1) Answer to the
Secretary’s New Matter; (2) Answer to the new matter filed by
various Boards; and (3) an omnibus memorandum of law
opposing the preliminary objections filed by several Boards.

7

In her application, the Secretary informed this Court that she
had filed a motion in the aforementioned federal action urging

8

11a
political parties’ “diametric positions” on the
interpretation of several Act 77 provisions and the
fast-approaching 2020 General Election, the Secretary
asserted that “[t]he exercise of extraordinary
jurisdiction by this Court is the only means available
to resolve these disputes without disrupting the
election.” Secretary’s Application for Extraordinary
Relief, 8/16/2020, at 14–16. On August 19, 2020,
Petitioner filed an Answer to the Secretary’s
application, noting that it had no objection to this
Court exercising its extraordinary jurisdiction.9
Faced with a national election scheduled to occur on
November 3, 2020 and substantial legal issues that
required the highest court of Pennsylvania’s analysis
the District Court to abstain from rendering a decision pursuant
to R.R. Comm’n of Tex. v. Pullman, 312 U.S. 496 (1941)
(explaining that, where appropriate, a federal court may abstain
from deciding a case to permit a state court the opportunity to
resolve a state law question). Secretary’s Application for
Extraordinary Relief, 8/16/2020, at 17. This motion was later
granted. See Trump for President, Inc., 2020 WL 4920952, at *21
(W.D. Pa. 2020).
In addition, on August 18, 2020, Bucks, Chester, Montgomery,
and Philadelphia County Boards of Election filed an Answer in
Support of the Secretary’s application.
Likewise, on
August 19, 2020, Armstrong, Bedford, Blair, Centre, Columbia,
Dauphin, Fayette, Huntingdon, Indiana, Lackawanna,
Lawrence, Lebanon, Montour, Northumberland, Venango, and
York County Boards of Election also filed an answer joining the
Secretary’s application. Several of the remaining 67 counties
filed no answer letters. On August 20, 2020, answers were filed
by the Republican proposed intervenors, as well as proposed copetitioners, The Common Cause Pennsylvania, The League of
Women Voters of Pennsylvania, B-PEP, Make the Road PA,
Patricia M. DeMarco, Danielle Graham Robinson, and Kathleen
Wise.

9

12a
and response to ensure a free and fair election, on
September 1, 2020, this Court granted the Secretary’s
Application and set forth a schedule for supplemental
briefing and filings.10 Later, on September 3, 2020,
this Court filed an order granting the motions to
intervene filed by the Republican Party of
Pennsylvania (hereinafter, “Respondent”) and Joseph
B. Scarnati III, Pennsylvania Senate President Pro
Tempore, and Jake Corman, Senate Majority Leader,
representing the Republican Senate Caucus
(hereinafter, “Caucus”). Applications to intervene
filed by Donald J. Trump for President, Inc., and the
RNC; Common Cause of Pennsylvania, the League of
Women Voters of Pennsylvania, B-PEP, Make the
Road PA, Patricia M. DeMarco, Danielle Graham
Robinson, and Kathleen Wise were denied without
The Secretary highlighted in her application for extraordinary
relief to this Court that there was insufficient time to engage in
full pre-trial proceedings and discovery before applications for
summary relief could be filed. See Secretary’s Application for
Extraordinary Relief, 8/16/2020, at 13–14. In fact, the Secretary
explained that because of all the uncertainties surrounding the
case, it was unclear “whether discovery, dispositive motions, and
a hearing were even necessary.” Id. at 14 n.3. She maintained
that Petitioner’s application to expedite discovery and a hearing
in Commonwealth Court was premature. Thus, the Secretary
sought extraordinary review of the discrete legal claims alleged
in the lawsuit as if at the summary relief stage of the case.
Cognizant of our authority when exercising extraordinary
jurisdiction, this Court granted the Secretary’s request. See
Order dated 9/1/2020. Accordingly, because of the intense time
pressure confronting this Court, we do not address the various
procedural filings in the case and, rather, address only the five
discrete legal claims before us. See 42 Pa.C.S. § 726 (this Court
may “assume plenary jurisdiction of [any matter pending before
any court] at any stage thereof and enter a final order or
otherwise cause right and justice to be done”).

10

13a
prejudice to the parties’ ability to file briefs as amicus
curiae pursuant to Pa.R.A.P. 531.11 The parties have
submitted supplemental filings in support of their
respective positions, and this matter is now ripe for
disposition of the discrete five legal issues before us.
II. RELEVANT OVERARCHING PRINCIPLES
OF LAW
Generally speaking, each of the five issues
presented by Petitioner presents a pure question of
law, over which our standard of review is de novo and
our scope of review is plenary. In re Vencil, 152 A.3d
235, 241 (Pa. 2017). Specifically, in large part,
Petitioner requests relief in the form of declarations of
law regarding Act 77 pursuant to the Declaratory
Judgments
Act,
42
Pa.C.S.
§§ 7531–7541.
Accordingly, we address the issues presented mindful
of the following.
The Declaratory Judgments Act, which is to be
liberally
construed
and
administered,
was
promulgated to “settle and to afford relief from
uncertainty and insecurity with respect to rights,
After this Court granted the Secretary’s application and set a
schedule for supplemental filings, Bryan Cutler and Kerry
Bennighoff, Speaker and Majority Leader of the Pennsylvania
House of Representatives, respectively, filed an Application to
Intervene, while State Senator Jay Costa, on behalf of the Senate
Democratic Caucus filed an Application to Intervene, which was
later amended to include State Representative Frank Dermody,
on behalf of the House Democratic Caucus. Because of the
necessary expediency of reaching a decision in this case, and
given that adequate advocacy has been provided, these
applications, submitted close to this Court’s deadline for
supplemental filings, are denied. In any case, the requests are
moot given the issuance of our decision.
11

14a
status, and other legal relations[.]”
42 Pa.C.S.
§ 7541(a). Pertinent to the instant matter, this Act
provides, in relevant part, that “[a]ny person . . . whose
rights, status, or other legal relations are affected by a
statute . . . may have determined any question of
construction or validity arising under the . . .
statute . . . and obtain a declaration of rights, status,
or other legal relations thereunder.” 42 Pa.C.S.
§ 7533.12
When presented with matters of statutory
construction, this Court is guided by Pennsylvania’s
Statutory Construction Act, 1 Pa.C.S. § 1501–1991.
Under this Act, “the object of all statutory construction
is to ascertain and effectuate the General Assembly’s
intention.” Sternlicht v. Sternlicht, 876 A.2d 904, 909
(Pa. 2005) (citing 1 Pa.C.S. § 1921(a) (“The object of all
interpretation and construction of statutes is to
ascertain and effectuate the intention of the General
Assembly”)). When the words of a statute are clear
and unambiguous, “the letter of it is not to be
disregarded under the pretext of pursuing its spirit.”
1 Pa.C.S. § 1921(b); see also Sternlicht, supra.
However, when the words of a statute are not explicit,
Notably, while Petitioner has styled its requested relief as
“injunctive” in reality it seeks declaratory relief. We will treat its
prayers for relief accordingly.
In this regard, as noted,
essentially, we are treating the matter as if it is at the summary
relief stage. See Hosp. & Healthsystem Ass’n of Pa. v. Com., 77
A.3d 587, 602 (Pa. 2013) (“An application for summary relief may
be granted if a party’s right to judgment is clear and no material
issues of fact are in dispute.”) (citation omitted). See also
Pa.R.A.P. 1532(b) (providing that “[a]t any time after the filing of
a petition for review in an appellate or original jurisdiction
matter, the court may on application enter judgment if the right
of the applicant thereto is clear.”).

12

15a
the General Assembly’s intent is to be ascertained by
consulting a comprehensive list of specific factors set
forth in 1 Pa.C.S. § 1921(c). See also Pennsylvania
Associated Builders & Contractors, Inc. v.
Commonwealth Dep’t of Gen. Servs., 932 A.2d 1271,
1278 (Pa. 2007) (recognizing that when the “words of
the statute are not explicit, the General Assembly’s
intent is to be ascertained by considering matters
other than statutory language, like the occasion and
necessity for the statute; the circumstances of its
enactment; the object it seeks to attain; the mischief to
be remedied; former laws; consequences of a particular
interpretation; contemporaneous legislative history;
and legislative and administrative interpretations”).
Moreover, we recognize that in this Commonwealth,
“[e]lections shall be free and equal; and no power, civil
or military, shall at any time interfere to prevent the
free exercise of the right of suffrage.” PA. CONST. art.
I, § 5 (hereinafter referred to as the “Free and Equal
Elections Clause”). The broad text of this specific
provision “mandates clearly and unambiguously, and
in the broadest possible terms, that all elections
conducted in this Commonwealth must be ‘free and
equal.’” League of Women Voters v. Commonwealth,
178 A.3d 737, 804 (Pa. 2018) (emphasis in original).
Stated another way, this clause was “specifically
intended to equalize the power of voters in our
Commonwealth’s election process[.]” Id. at 812.
Finally, this Court has previously observed that the
purpose and objective of the Election Code, which
contains Act 77, is “[t]o obtain freedom of choice, a fair
election and an honest election return[.]” Perles v.
Hoffman, 213 A.2d 781, 783 (Pa. 1965). To that end,
the Election Code should be liberally construed so as

16a
not to deprive, inter alia, electors of their right to elect
a candidate of their choice. Id. at 784. With these
general principles in mind, this Court will address in
turn each of the five discrete issues presented by
Petitioner.
III. ISSUES
A. COUNT I OF THE PETITION FOR REVIEW
Section 3150.16(a) of the Election Code, 25 P.S.
§ 3150.16(a), is part of Act 77 and pertinent to several
issues in this matter. That statutory provision, which
is entitled “Voting by mail-in electors,” states as
follows:
(a) General rule.--At any time after receiving
an official mail-in ballot, but on or before eight
o’clock P.M. the day of the primary or election,
the mail-in elector shall, in secret, proceed to
mark the ballot only in black lead pencil,
indelible pencil or blue, black or blue-black ink,
in fountain pen or ball point pen, and then fold
the ballot, enclose and securely seal the same in
the envelope on which is printed, stamped or
endorsed “Official Election Ballot.”
This
envelope shall then be placed in the second one,
on which is printed the form of declaration of the
elector, and the address of the elector’s county
board of election and the local election district of
the elector. The elector shall then fill out, date
and sign the declaration printed on such
envelope. Such envelope shall then be securely
sealed and the elector shall send same by mail,
postage prepaid, except where franked, or deliver
it in person to said county board of election.

17a
25 P.S. § 3150.16(a). The last sentence of this
provision is the primary focus of the first question of
law that we will address. The plain language of this
sentence allows an elector to mail her securely sealed
envelope containing the elector’s “Official Election
Ballot” to her “county board of election” or, more
relevant to this issue, “deliver it in person to said
county board of election.” Id.
In Count I of its petition for review, Petitioner seeks
a declaration that a reasonable interpretation of
Section 3150.16(a) of the Election Code permits county
boards of election to provide electors with as many
secure and easily accessible locations to deliver
personally their mail-in ballots as each board deems
appropriate.13 Petitioner suggests that these locations
can consist of mobile or temporary collection sites and
Under Count I, Petitioner also sought relief “in the form of an
affirmative injunction requiring that county Boards are required
to evaluate the particular facts and circumstances in their
jurisdictions and develop a reasonable plan reflecting the needs
of the citizens of the county to ensure the expedient return of
mail-in ballots.” Petition at 47, ¶ 166. Petitioner accurately
concedes that it must establish a clear right to this relief. Id. at
¶ 167; see Roberts v. Bd. of Directors of Sch. Dist. of City of
Scranton, 341 A.2d 475, 478 (Pa. 1975) (explaining that, “for a
mandatory injunction to issue, it is essential that a clear right to
relief in the plaintiff be established”). To the extent that
Petitioner continues to seek injunctive relief in this form, we
summarily decline the request, as there simply is no legal
authority that would allow this Court to mandate that the county
boards of election “evaluate the particular facts and
circumstances in their jurisdictions and develop a reasonable
plan reflecting the needs of the citizens of the county to ensure
the expedient return of mail-in ballots.” In other words,
Petitioner cannot establish a clear right to relief with regard to
their request for a mandatory injunction.
13

18a
that county boards of election may utilize secure dropboxes for the collection of hand-delivered mail-in
ballots.
Indeed, Petitioner contends that, by enacting
Section 3150.16(a) of the Election Code, the General
Assembly clearly and unambiguously intended to
provide the various county boards of election with the
option of accepting hand-delivered mail-in ballots at
any location controlled by the boards, not just at the
boards’ central offices. In support of this position,
Petitioner points out, inter alia, that pursuant to
Section 3151 of the Election Code, the General
Assembly empowered each county board of election to
receive “ballot boxes and returns” in their offices or “in
any such other place as has been designated by the
board.”14 25 P.S. § 3151.
The Secretary builds on Petitioner’s argument. In
so doing, the Secretary highlights that, in construing
Section 3150.16(a) of the Election Code, the Court
should consider that the General Assembly defined
“county board” or “board” as meaning “the county
board of elections of any county herein provided for.”
25 P.S. § 2602. According to the Secretary, this
definition clarifies that, for purposes of Section
3150.16(a), “county board of election” refers to a
14

Section 3151 of the Election Code states, in full, as follows:
Each county board of elections shall cause its office to
remain open, in charge of one or more members of the
board, during the entire duration of each primary and
election, and after the close of the polls, until all the ballot
boxes and returns have been received in the office of the
county elections board, or received in such other place as
has been designated by the board.

25 P.S. § 3151.

19a
municipal body, not a physical office or address. In
other words, the Secretary believes that, when this
definition is used for purposes of Section 3150.16(a),
that Section unambiguously permits voters to deliver
mail-in ballots in person to places designated by
county boards of election, other than their respective
office addresses.
In further support of this position, the Secretary
asserts that the Election Code contemplates that
county boards of election will operate out of multiple
locations. See 25 P.S. § 2645(b) (stating, inter alia,
that the “county commissioners or other appropriating
authorities of the county shall provide the county
board with suitable and adequate offices at the county
seat, property furnished for keeping its records,
holding its public sessions and otherwise performing
its public duties, and shall also provide, such branch
offices for the board in cities other than the county
seat, as may be necessary”). Echoing Petitioner’s
argument, the Secretary further suggests that the
Election Code anticipates that “ballot boxes and
returns” may be received “in the office of the county
elections board, or received in such other places as has
been designated by the board.” 25 P.S. § 3151.
The Secretary insists that the Election Code is
devoid of any language limiting county boards of
election from accepting delivery of mail-in votes solely
at their primary office addresses.
In fact, the
Secretary takes the position that to hold otherwise
would contravene the plain language of the Election
Code. However, assuming arguendo that this Court
deems the Election Code ambiguous on this point, the
Secretary advocates that a reasonable interpretation
of the Code nonetheless authorizes county boards of

20a
election to utilize multiple drop-off sites to accept
hand-delivered mail-in ballots.
In this regard, the Secretary focuses on the
statutory considerations to which this Court may refer
when construing an ambiguous statute, 1 Pa.C.S.
§ 1921(c), as described supra. More specifically, the
Secretary posits that the General Assembly enacted
Act 77 with the object of increasing the electorate’s
participation in the electoral process by making it
easier and more convenient to vote, providing all
electors with the option to mail in their ballots. The
Secretary opines that, consistent with this objective,
the General Assembly intended to allow county boards
of election to accept hand-delivered mail-in ballots at
locations besides the boards’ central office addresses.
The Secretary takes the position that, if this Court
deems reasonable the various parties’ competing
interpretations of the Election Code, then the Court
should construe the Code in favor of the right to vote.
Contrary to the contentions of the Secretary and
Petitioner, Respondent submits that the Election Code
prohibits county boards of election from designating
locations other than their established county offices
for hand delivery of mail-in ballots. Rather, according
to Respondent, Section 3150.16(a) of the Election Code
unambiguously mandates that an elector must either
mail her mail-in ballot to the office address of the
county board of election or deliver that ballot in person
to the same office address.
Stated differently,
Respondent takes the position that the Election Code
requires electors either to place their mail-in ballots,
addressed to their county boards of election, into the
United States Postal Service’s [“USPS”] system or
personally to deliver their mail-in ballot to that office.

21a
In further support of this position, Respondent
highlights the Election Code’s use of the word “office”
in the “deadline” provision for mail-in votes, Section
3150.16(c), which states that “a completed mail-in
ballot must be received in the office of the county board
of elections no later than eight o’clock P.M. on the day
of the primary or election.” 25 P.S. § 3150.16(c).
Respondent also points out that the Election Code
requires that a secure envelope containing a mail-in
ballot have printed upon it “the address of the elector’s
county board of election,” so that “the elector shall
send same by mail, postage prepaid, except where
franked, or deliver it in person to said county board of
election.” 25 P.S. § 3150.16(a). Thus, Respondent
believes that, in sum, these statutory directives clearly
indicate that the General Assembly intended that
electors either mail or personally deliver mail-in
ballots to the established office addresses of the county
boards of election.
Next, Respondent reminds us that the Secretary
and Petitioner are asking this Court to interpret the
Election Code to allow voters to deliver their mail-in
ballots to locations that will include unmanned dropboxes. Respondent contends that Petitioner and the
Secretary fail to articulate where the Election Code
mentions “drop-boxes” or “satellite locations.”
Respondent then asserts that, if this Court were to
interpret the Election Code as Petitioner and the
Secretary propose, the Court would invalidate an
alleged requirement of Act 77, i.e., the need to deliver
mail-in ballots to the established offices of county
boards of election.
In addition, Respondent suggests that the preferred
interpretation of the Election Code advocated by the

22a
Secretary and Petitioner permits the individual
counties to implement differing ballot-return regimes.
Respondent avers that this outcome would violate
principles of equal protection. In support, Respondent
quotes Pierce v. Allegheny County Bd. of Elections, 324
F.Supp.2d 684, 697 (W.D. Pa. 2003), for the
proposition that “[a] state must impose uniform
statewide standards in each county in order to protect
the legality of a citizen’s vote.
Anything less
implicates constitutional problems under the equal
protection clause of the Fourteenth Amendment.” For
these reasons, Respondent contends that the
interpretation of the Election Code posited by
Petitioner and the Secretary must fail.
The primary argument of the Caucus largely tracks
that of Respondent, particularly the contention that
the relief proposed by Petitioner and the Secretary
would create an equal protection problem. According
to the Caucus, pursuant to the solution offered by
Petitioner and the Secretary, some counties will
provide more locations for voters to deliver their mailin ballots, while other counties will allow voters to
convey their mail-in ballots solely to the office
addresses of the county boards of election. The Caucus
views this possibility as a violation of equal protection.
Notably, in an apparent break from Respondent’s
position, subject to its equal protection argument, the
Caucus seems to concede that Pennsylvania law
allows county boards of election to provide for in
person delivery of mail-in ballots at more than one
county election board office located within the county’s
borders. However, the Caucus insists that additional
offices must comply with various requirements,
including those outlined in Section 2645(b) of the

23a
Election Code. See 25 P.S. § 2645(b) (explaining that
“[t]he county commissioners or other appropriating
authorities of the county shall provide the county
board with suitable and adequate offices at the county
seat, property furnished for keeping its records,
holding its public sessions and otherwise performing
its public duties, and shall also provide, such branch
offices for the board in cities other than the county
seat, as may be necessary”). In closing, the Caucus
submits that unstaffed drop-boxes would not
constitute a branch office of a county board of election
and are otherwise not authorized by the Election Code
as a method for collecting hand-delivered mail-in
ballots.
Turning to our analysis, we observe that the
question before us consists of the following two-part
query regarding the Election Code: Does the Election
Code allow a Pennsylvania voter to deliver her mail-in
ballot in person to a location other than the
established office address of her county’s board of
election, and if so, what means can county boards of
election utilize to accept hand-delivered mail-in
ballots? For the reasons that follow, we find that the
parties’ competing interpretations of the Election Code
on this issue are reasonable, rendering the Code
ambiguous as it relates to this query. See A.S. v.
Pennsylvania State Police, 143 A.3d 896, 905–06 (Pa.
2016) (explaining that a “statute is ambiguous when
there are at least two reasonable interpretations of the
text”).
In reaching this conclusion, we observe that Section
3150.16(a) of the Election Code explicitly allows an
elector to deliver in person her securely sealed
envelope containing her mail-in ballot “to said county

24a
board of election.” 25 P.S. § 3150.16(a). The Election
Code simply defines “county board” or “board” to mean
“the county board of elections of any county herein
provided for.” 25 P.S. § 2602(c). Thus, the language
used by the Legislature regarding where a mail-in
ballot may be delivered in person is not solely limited
to the official central office of the county board of
election, and other sections of the Election Code
permit a board of election to operate outside of its
principal office. See, e.g., 25 P.S. § 2645(b) (stating,
inter alia, that the “county commissioners or other
appropriating authorities of the county shall provide
the county board with suitable and adequate offices at
the county seat, property furnished for keeping its
records, holding its public sessions and otherwise
performing its public duties, and shall also provide,
such branch offices for the board in cities other than
the county seat, as may be necessary”). Therefore, on
the one hand, these provisions tend to favor the view
of Petitioner and the Secretary that the General
Assembly did not intend to limit voters to delivering
personally their mail-in ballots solely to the
established office addresses of their county boards of
election. Rather, as these parties rationally contend,
when this definition is utilized for purposes of
construing Section 3150.16(a), that exercise suggests
that a voter can hand deliver her mail-in ballot to any
location designated by the county board of election as
a place where the board will accept these ballots.
Alternatively, we recognize that Section 3150.16(a)
of the Election Code directs that an elector may deliver
her mail-in ballot in person only to “the county board
of election.” 25 P.S. § 3150.16(a). As Respondent in
particular understandably emphasizes, neither this

25a
statutory language nor any other provision of the
Election Code explicitly empowers a county board of
election to establish satellite mail-in ballot collection
facilities or to utilize secure drop-boxes for purposes of
accepting hand-delivered mail-in ballots.
These
observations, when viewed in the totality of the
various arguments, lead us to conclude that the
parties’ competing interpretations are reasonable.
Accordingly, we turn to interpretive principles that
govern ambiguous statutes generally and election
matters specifically. In so doing, we are mindful of the
“longstanding and overriding policy in this
Commonwealth to protect the elective franchise.”
Shambach v. Bickhart, 845 A.2d 793, 798 (Pa. 2004)
(citations omitted). Moreover, it is well-settled that,
“although election laws must be strictly construed to
prevent fraud, they ordinarily will be construed
liberally in favor of the right to vote.” Id. (internal
quotation marks omitted). Indeed, “[o]ur goal must be
to enfranchise and not to disenfranchise [the
electorate].” In re Luzerne Cty. Return Bd., 290 A.2d
108, 109 (Pa. 1972). Lastly, in resolving statutory
ambiguity, we may consider, inter alia, the occasion
and necessity for, the mischief to be remedied by, and
the object to be obtained by the statute. 1 Pa.C.S.
§ 1921(c)(1), (3), and (4), respectively.
With all of that said, we need not belabor our
ultimate conclusion that the Election Code should be
interpreted to allow county boards of election to accept
hand-delivered mail-in ballots at locations other than
their office addresses including drop-boxes. This
conclusion is largely the result of the clear legislative
intent underlying Act 77, which animates much of this
case, to provide electors with options to vote outside of

26a
traditional polling places. Section 3150.16(a) of the
Election Code undeniably exemplifies this intent by
granting the Pennsylvania electorate the right to vote
by way of a mail-in ballot beyond the circumstances
that ordinarily allow this alternative, such as voter
absenteeism.
Accordingly, although both Respondent and the
Caucus offer a reasonable interpretation of Section
3150.16(a) as it operates within the Election Code,
their interpretation restricts voters’ rights, as opposed
to the reasonable interpretation tendered by
Petitioner and the Secretary. The law, therefore,
militates in favor of this Court construing the Election
Code in a manner consistent with the view of
Petitioner and the Secretary, as this construction of
the Code favors the fundamental right to vote and
enfranchises, rather than disenfranchises, the
electorate.
In light of this conclusion, we will briefly address
the equal protection argument of Respondent and the
Caucus. The premise of that argument, as detailed
supra, is that, if this Court interprets the Election
Code in a manner that is consistent with the position
of Petitioner and the Secretary, which we have, then
the county boards of election will employ myriad
systems to accept hand-delivered mail-in ballots,
which allegedly will be unconstitutionally disparate
from one another in so much as some systems will offer
more legal protections to voters than others will
provide. However, the exact manner in which each
county board of election will accept these votes is
entirely unknown at this point; thus, we have no
metric by which to measure whether any one system
offers more legal protection than another, making an

27a
equal protection analysis impossible at this time.
Accordingly, the equal protection argument of
Respondent and the Caucus does not alter our
conclusion in this matter.
Thus, for these reasons, this Court declares that the
Election Code permits county boards of election to
accept hand-delivered mail-in ballots at locations
other than their office addresses including dropboxes.15
B. COUNT II OF THE PETITION FOR REVIEW
In its second count, Petitioner presents this Court
with an as-applied challenge to the Election Code’s
deadline for receiving ballots (“received-by deadline”),
which requires mail-in and absentee ballots to be
returned to Boards no later than 8:00 p.m. on Election
Day, 25 P.S. §§ 3146.6(c), 3150.16(c). It contends that
strict enforcement of this deadline, in light of the
current COVID-19 pandemic and alleged delays in
mail delivery by the USPS, will result in extensive
voter disenfranchisement in violation of the

We note that the Secretary has issued guidelines in this regard
specifying that the Boards “may provide voters with access to a
secure ballot return receptacle.” See Secretary’s Post-Submission
Communication dated 8/24/2020, setting forth the Secretary’s
Absentee and Mail-in Ballot Return Guidance at 1.1.
Additionally, and consistent with the requirement that all votes
must be cast by Election Day, these guidelines specify that:
“Authorized personnel should be present at ballot return sites
immediately prior to 8:00 p.m. or at the time the polls should
otherwise be closed”; “At 8:00 p.m. on election night, or later if
the polling place hours have been extended, all ballot sites, and
drop-boxes must be closed and locked”; and “Staff must ensure
that no ballots are returned to ballot return sites after the close
of the polls.” Id. at 3.3.
15

28a
Pennsylvania Constitution’s Free and Equal Elections
Clause.
As noted above, the Free and Equal Elections
Clause provides that “[e]lections shall be free and
equal; and no power, civil or military, shall at any time
interfere to prevent the free exercise of the right to
suffrage.” PA. CONST. art. I, § 5. Petitioner interprets
this provision as forbidding the Boards from
interfering with the right to vote by failing to act in a
timely manner so as to allow electors to participate in
the election through mail-in voting. Petition at 49,
¶ 176.
In support of its as-applied challenge in regard to
the upcoming General Election, Petitioner recounts
this Commonwealth’s recent experience during the
June Primary.
It emphasizes that, during the
Primary, the Boards were inundated with over 1.8
million requests for mail-in ballots, rather than the
expected 80,000 – 100,000, due in large part to the
COVID-19 pandemic, which caused many voters to be
wary of congregating in polling places. Petitioner’s
Brief at 2, 51. Petitioner asserts that “[t]his crush of
applications created massive disparities in the
distribution and return of mail-in ballots.” Petition at
24, ¶ 70.
It explains that, while some Boards were able to
process the requests within the statutory
requirements established by Act 77,16 other boards,
Act 77, inter alia, requires Boards to verify an applicant’s
submitted information to determine whether the applicant is
“qualified to receive an official mail-in ballot.”
25 P.S.
§ 3150.12b(a). After approving an application, the Election Code,
as amended by Act 77, instructs that “the board shall deliver or
16

29a
especially those in areas hard-hit by the pandemic,
were unable to provide electors with ballots in time for
the electors to return their ballot in accord with the
statutory deadline. Petition at 23, ¶ 66. Indeed, it
avers that in Delaware County, thousands of ballots
were “not mailed out until the night” of the Primary,
making timely return impossible. Petition at 26, ¶ 77.
Bucks County apparently experienced similar delays.
To remedy this situation, the Election Boards of
Bucks and Delaware Counties sought relief in their
county courts.17 Recognizing that the Election Code
“implicitly granted [the courts the] authority to
provide relief when there is a natural disaster or
emergency” that threatens to deprive electors of the
opportunity to participate in the electoral process, the
Courts of Common Pleas of Bucks and Delaware
Counties extended the deadline for the return of mailin ballots for seven days, so long as the ballot was
postmarked by the date of the Primary. In re:
Extension of Time for Absentee and Mail-In Ballots to
mail official mail-in ballots to the additional electors within 48
hours.” 25 P.S. § 3150.15.
The Election Code grants courts of common pleas the authority
to address situations which arise on the day of a primary or
general election, 25 P.S. § 3046. Section 3046 entitled “Duties of
common pleas court on days of primaries and elections,” provides:
17

During such period said court shall act as a committing
magistrate for any violation of the election laws; shall settle
summarily controversies that may arise with respect to the
conduct of the election; shall issue process, if necessary, to
enforce and secure compliance with the election laws; and
shall decide such other matters pertaining to the election as
may be necessary to carry out the intent of this act.
25 P.S. § 3046.

30a
be Received By Mail and Counted in the 2020 Primary
Election, No. 2020-02322-37 (C.P. Bucks) (McMaster,
J.); see also In re: Extension of Time for Absentee and
Mail-In Ballots to be Received By Mail and Counted in
the 2020 Primary Election, No.-CV 2020-003416 (C.P.
Delaware).
Petitioner also observes that voters in six counties
received an extension to the return deadline pursuant
to an executive order issued by Governor Wolf,
invoking the Emergency Management Services Code,
35 Pa.C.S. § 7301(c).18 In Executive Order No. 202002, Governor Wolf addressed impediments to timely
ballot return arising from the pandemic as well as civil
unrest that had arisen immediately before the
Primary in the specified counties following the killing
of George Floyd by police officers. The impediments
included road closures, public transportation
disruptions, and curfews. To combat the potential
disenfranchisement of voters, especially in light of the
“unprecedented number” of mail-in ballots due to the
pandemic, the Governor extended the received-by
deadline for seven days, so long as the ballots were
postmarked by the date of the Primary. Governor
Wolf, Executive Order No. 2020-02 (June 1, 2020).
While voters in specified counties benefitted from
extensions of time to return their ballots, Petitioner
emphasizes that the Commonwealth Court rejected a
request for a statewide extension of the ballot
received-by deadline in Delisle v. Boockvar, 319 M.D.
2020 (Pa. Cmwlth. June 2, 2020) (Memorandum
Opinion), favoring instead a county-by-county remedy.
The affected counties were Allegheny, Dauphin, Delaware,
Erie, Montgomery, and Philadelphia.

18

31a
Indeed, while not mentioned by Petitioner, this Court
additionally denied relief to a petitioner seeking a
statewide extension of the ballot received-by deadline
weeks before the June Primary, where the petitioner
similarly argued for the extension based upon the
overwhelming number of mail-in ballot applications
and delays in the USPS system. Disability Rights Pa.
v. Boockvar, No. 83 MM 2020, 2020 WL 2820467 (Pa.
May 15, 2020).
In light of the lessons learned from the June
Primary, Petitioner asserts that a statewide remedy is
now necessary for the General Election. It suggests
that the lack of a statewide remedy risks an equal
protection challenge as only some voters would benefit
from the extended deadline based on their county
court’s determination. Petition at 32–33, ¶ 105.
Moreover, it emphasizes that a statewide order from
this Court early in the election process would reduce
voter confusion, as compared to the last-minute
county-by-county relief granted during the Primary to
address emergency situations. Petitioner’s Brief at
26–27 n.9.
Petitioner avers that the difficulties encountered by
Boards processing the ballot applications prior to the
June Primary will only be exacerbated in the
November General Election.
It emphasizes the
continued grip of the pandemic, and a potential second
wave of infections, which will result in more electors
seeking to exercise their right to vote by mail. Petition
at 49, ¶ 173–175. Additionally, it recognizes the
undisputed fact that heavily contested Presidential
elections involve substantially greater voter
participation than largely uncontested primaries,
further observing that “[i]t is normal in elections with

32a
significant public attention for there to be a flood of
registrations received right before deadlines.” Petition
at 26, ¶ 79. It highlights that the Secretary estimates
that 3 million electors will seek mail-in or absentee
ballots for the General Election in contrast to the 1.5
million votes cast by mail at the Primary, and the prepandemic assumption of 80,000 – 100,000 absentee
and mail-in ballots. Petitioner’s Brief at 51.
Petitioner asserts that the overwhelming demand
on the Boards will be exacerbated by delays in the
USPS mail delivery system. Petitioner observes that
historically the law presumed that a document placed
in a mail collection box would be delivered within
three days of placement, rather than the current two
to five day delivery expectation of the USPS. Id. at 50.
Petitioner avers that substantial delivery delays have
resulted from a combination of recent operational
changes at the USPS and decreased staffing caused by
the pandemic. Id. at 20–21. It emphasizes that the
USPS recently warned that there is a “significant risk”
that Pennsylvania voters who submit timely ballot
requests will not have sufficient time to complete and
return their ballot to meet the Election Code’s
received-by deadline. Id. at 2–3 (quoting USPS
General Counsel and Executive Vice President
Thomas Marshall’s July 29, 2020 letter to the
Secretary (hereinafter “USPS General Counsel’s
Letter”), discussed in detail infra).
Petitioner avers that this Court has the authority to
act to protect electors’ right to cast their ballot, as
protected by Pennsylvania’s Free and Equal Elections
Clause. It emphasizes that “‘[c]ourt[s] possess broad
authority to craft meaningful remedies’ when
‘regulations of law . . . impair the right of suffrage.’”

33a
Id. at 48–49 (quoting League of Women Voters of Pa.,
178 A.3d at 809, 822) (alterations in original). It
observes that courts have exercised that authority to
provide equitable relief to voters faced with natural
disasters that impede their right to vote. As an
example, Petitioner highlights the Commonwealth
Court’s actions in In re General Election-1985, 531
A.2d 836, 838–39 (Pa. Cmwlth. 1987), in which the
court affirmed a two-week suspension in an election
where severe flooding prevented electors from safely
voting due to “circumstances beyond their control.”
Petitioner asserts that Pennsylvania electors in the
November General Election similarly face a threat to
their ability to vote due to no fault of their own, but
instead due to a perfect storm combining the dramatic
increase in requested ballots due to the COVID-19
pandemic and the inability of the USPS to meet the
delivery standards required by the Election Code.
Accordingly, Petitioner asks this Court to grant an
injunction ordering the Respondent to “lift the
deadline in the Election Code across the state in a
uniform standard to allow any ballot postmarked by 8
p.m. on Election Night to be counted if it is received by
the deadline for ballots to be received” under the
UOCAVA, specifically by 5:00 p.m. on Tuesday,
November 10.19 Petition at 50, ¶ 178. Recognizing

19 As adopted in Pennsylvania, the UOCAVA provides that
military and overseas ballots will be counted if received by the
county board by “5:00 p.m. on the seventh day following the
election,” which this year will be November 10, 2020. 25 Pa.C.S.
§ 3511.

As an alternative remedy, Petitioner proposes that each ballot
could have an individualized deadline twenty-one days after the

34a
that the Secretary recommends a three-day extension,
as detailed below, Petitioner counters that “[a] 7-day
extension to the ballot receipt deadline is consistent
with the USPS’s recommendation to the Secretary
that voters should mail their ballots to Boards no later
than October 27, 2020,” which is seven days prior to
Election Day. Petitioner’s Brief at 53 (referencing
USPS General Counsel’s Letter at 2). While it
acknowledges that a seven-day extension could impact
other post-election deadlines as discussed infra, it
asserts that this Court has the authority to alter those
deadlines to be consistent with the relief granted in
this case. Id. at 55.
As noted, the Secretary sought extraordinary
jurisdiction to allow this Court to resolve the various
challenges to the mail-in ballot process in an orderly
and timely fashion before the impending General
Election, where she estimates more than three million
Pennsylvanians will exercise their right to vote by
mail. Secretary’s Brief at 1. The Secretary observes
that she previously advocated against a similar
request for an extension of the received-by deadline for
mail-in and absentee ballots in the Crossey case. She,
however, reassessed her position following receipt of
the USPS General Counsel’s Letter, which she
attaches to her Application. Secretary’s Application at
10, Exhibit A.
Significantly, the USPS General Counsel’s Letter
opined that “certain deadlines for requesting and
casting mail-in ballots are incongruous with the Postal
Service’s delivery standards,” providing for 2–5 day
specific ballot is mailed by the county, so long as it is received
before the UOCAVA deadline. Petition at 50, ¶ 108, 179.

35a
delivery for domestic First Class Mail and 3–10 day
delivery for domestic Marketing Mail. USPS General
Counsel’s Letter at 1. As the parties recognize, the
Election Code designates October 27, 2020, as the last
day for electors to request a mail-in ballot. 25 P.S.
§ 3150.12a(a) (“Applications for mail-in ballots shall
be processed if received not later than five o’clock P.M.
of the first Tuesday prior to the day of any primary or
election.”). Even if a county board were to process and
mail a ballot the next day by First Class Mail on
Wednesday, October 28th, according to the delivery
standards of the USPS, the voter might not receive the
ballot until five days later on Monday, November 2nd,
resulting in the impossibility of returning the ballot by
mail before Election Day, Tuesday November 3rd. The
USPS General Counsel’s Letter, instead, advised that
voters should mail their ballots no later than October
27, 2020 in order to meet the received-by deadline.
USPS General Counsel’s Letter at 2. “This mismatch
[between the USPS’s delivery standards and the
Election Code deadlines] creates a risk that ballots
requested near the deadline under state law will not
be returned by mail in time to be counted under
[Pennsylvania’s Election Code].” Id. at 1.
In light of the information contained in the USPS
General Counsel’s Letter, the Secretary concludes that
a temporary extension of the Election Code’s receivedby deadline is necessary for the upcoming General
Election to ensure a free and equal election as
protected by Article I, Section 5 of the Pennsylvania
Constitution. Secretary’s Application at 27. The
Secretary specifically asks that this Court order an
extension of the deadline to allow the counting of any
ballot postmarked by Election Day and received on or

36a
before the third day after Election Day, which is
November 6, 2020.20 Id. at 27–28. The Secretary
deems a three-day extension of the deadline, rather
than the seven-day extension sought by Petitioner, to
be sufficient to address the potential delay in mailing
while also not disrupting other elements of election
administration. Id. at 29.
The Secretary emphasizes that the remedy sought
here is not the invalidation of the Election Code’s
received-by deadline, but rather the grant of equitable
relief to extend temporarily the deadline to address
“mail-delivery delays during an on-going public health
disaster.” Secretary’s Brief at 18. As no party is
seeking the invalidation of the received-by deadline,
the Secretary rejects the suggestion of Respondent and
the Caucus that the remedy would trigger the
nonseverability provision of Act 77, reasoning that the
Court would be granting “a temporary short extension
to address the exigencies of a natural disaster” rather
than “the invalidation of a statutory deadline.” Id. at
21 (referencing Section 11 of Act 77 set forth infra).
She emphasizes that the statutory deadline would
remain unchanged for future elections.
She specifically recommends that the Court “order that ballots
mailed by voters by 8:00 p.m. on Election Day be counted if they
are otherwise valid and received by the county boards of election
by November 6, 2020. Ballots received within this period that
lack a postmark or other proof of mailing, or for which the
postmark or other proof of mailing is illegible, should enjoy a
presumption that they were mailed by Election Day.” Secretary’s
Application at 29. We observe that this proposal therefore
requires that all votes be cast by Election Day but does not
disenfranchise a voter based upon the absence or illegibility of a
USPS postmark that is beyond the control of the voter once she
places her ballot in the USPS delivery system.
20

37a
The Secretary observes that courts have previously
granted temporary equitable relief to address natural
disasters, given that neither the Election Code nor the
Constitution “provides any procedure to follow when a
natural disaster creates an emergency situation that
interferes with an election.” Id. at 19 (citing In re:
General Election-1985, 531 A.2d at 839).21 She argues
that the current pandemic is equivalent to other
natural disasters and that it necessitates the
requested extension of the Election Code’s received-by
deadline for mail-in ballots.
In contrast, Respondent contends that Petitioner
asks this Court to rewrite the plain language of Act 77
and to substitute its preferred ballot deadline for the
statutory deadline that resulted from the legislative
compromise during the bi-partisan enactment of Act
77. It emphasizes that this Court “recently reaffirmed
[that] the judiciary ‘may not usurp the province of the
legislature by rewriting [statutes].’” Respondent’s
Supplemental Brief at 16 (quoting In re Fortieth
Statewide Investigating Grand Jury, 197 A.3d 712,
721 (Pa. 2018)).
Judicial restraint, according to Respondent, is
especially necessary in regard to election law, where
this Court has long recognized that “[t]he power to
regulate elections is a legislative one, and has been
exercised by the General Assembly since the
foundation of the government.” Id. at 17 (quoting
The Secretary observes that other jurisdictions have likewise
granted temporary extensions when faced with natural disasters,
such as hurricanes. Secretary’s Application at 28 (citing Fla.
Democratic Party v. Scott, 215 F. Supp. 3d 1250, 1259 (N.D. Fla.
2016); Georgia Coalition for the Peoples’ Agenda, Inc. v. Deal, 214
F. Supp. 3d 1344, 1345 (S.D. Ga. 2016)).
21

38a
Winston v. Moore, 91 A. 520, 522 (Pa. 1914)). Indeed,
it observes that the United States Constitution
dictates that “[t]he Times, Places, and Manner of
holding Elections for Senators and Representatives,
shall be prescribed in each state by the Legislature
thereof,” subject to directives of Congress, U.S. CONST.
art. I, § 4, cl. 1, and that “[e]ach State shall appoint, in
such Manner as the Legislature thereof may direct,”
electors for President and Vice President. U.S. CONST.
art. II, § 1, cl. 2.22 Respondent highlights special
concerns
relevant
to
Presidential
elections,
emphasizing that “‘[w]ith respect to a Presidential
election,’ state courts must ‘be mindful of the
legislature’s role under Article II in choosing the
manner of appointing electors.’”
Respondent’s
Supplemental Brief at 20 (quoting Bush v. Gore, 531
U.S. 98, 114 (2000) (Rehnquist, C.J., concurring)).
Respondent additionally warns that if this Court
were to deem application of the deadline
unconstitutional and substitute a judiciallydetermined deadline, it would trigger the
nonseverability provision of Act 77, which would
invalidate the entirety of the Act, including all
provisions creating universal mail-in voting.
Specifically, Section 11 provides: “Sections 1, 2, 3, 3.2,
4, 5, 5.1, 6, 7, 8, 9 and 12 of this act are nonseverable.
If any provision of this act or its application to any
person or circumstances is held invalid, the remaining
provisions or applications of this act are void.” Act 77,
Respondent further observes that the Pennsylvania
Constitution specifically directs the Legislature to “provide a
manner in which, and the time and place at which” a qualified
elector can submit an absentee ballot. PA. CONST. art. VII,
§ 14(a).
22

39a
§ 11. It emphasizes that this Court has previously
deemed
nonseverability
provisions
to
be
constitutionally proper and additionally recognized
that nonseverability provisions are crucial to the
legislative process as they “may be essential to
securing the support necessary to enact the legislation
in the first place.” Respondent’s Supplemental Brief
at 18 (citing Stilp v. Commonwealth, 905 A.2d 918, 978
(Pa. 2006)). Respondent asserts that it is clear that
the severability provision in Act 77 “was intended to
preserve the compromise struck” in the bipartisan
enactment. Id. at 19.
On the merits, Respondent asserts that the plain
language of the Election Code setting the deadline for
submission of ballots by 8:00 p.m. on Election Day does
not violate the Free and Equal Elections Clause but
instead provides “a neutral, evenhanded rule that
applies to all Pennsylvania voters equally.”
Respondent’s Answer to the Secretary’s Application at
21. It emphasizes that numerous courts, including
this Court during the June Primary, have upheld the
application of mail-in deadlines during the COVID-19
pandemic. Respondent’s Supplemental Brief at 24
(citing, inter alia, Disability Rights Pa. v. Boockvar,
No. 83 MM 2020, 2020 WL 2820467 (Pa. May 15,
2020)).
Respondent additionally rejects the Secretary’s
assertion that the deadline should be extended based
upon the threat of mail delays. It avers that these
concerns are “speculative at best.”
Id. at 25.
Moreover, it contends that “given Pennsylvania’s
unparalleled and generous absentee and mail-in
voting period, any voter’s inability to cast a timely
ballot is not caused by the Election Day received-by

40a
deadline but instead by their own failure to take
timely steps to effect completion and return of their
ballot.” Id. at 26–27 (internal citation and quotation
marks omitted).
Respondent further supports its argument by
attaching to its Supplemental Brief a declaration of
USPS Vice President Angela Curtis, which in turn
attaches the statement provided by Postmaster
General Louis DeJoy to the Senate Committee on
Homeland Security and Governmental Affairs on
August 21, 2020 and his statement of August 24, 2020,
to the House Committee on Oversight and Reform. In
his statement, Postmaster General Louis DeJoy
addressed public accusations that the implementation
of various cost-saving reforms had allegedly resulted
in delays in mail delivery that threatened the timely
delivery of election mail.
While disputing the validity of the accusations, the
Postmaster
General
provided
the
following
commitments relating to the delivery of election mail:
[R]etail hours at Post Offices won’t be changed,
and mail processing equipment and blue
collection boxes won’t be removed during this
period. No mail processing facilities will be closed
and we have terminated the pilot program that
began in July that expedited carrier departures to
their delivery routes, without plans to extend or
expand it. To clear up any confusion, overtime
has, and will continue to be, approved as needed.
Finally, effective October 1, 2020, we will engage
standby resources in all areas of our operations,
including transportation, to satisfy any
unforeseen demand for the election.

41a
Statement of Postmaster General Louis DeJoy
provided to Senate Committee on Homeland Security
and Governmental Affairs Hearing of Aug. 21, 2020,
at 14; Statement of Postmaster General Louis DeJoy
provided to House Committee on Oversight and
Reform of Aug. 24, 2020, at 14.
Respondent
emphasizes that Postmaster General DeJoy also
asserted that the “USPS has not changed [its] delivery
standards, [its] processing, [its] rules, or [its] prices for
Election Mail[,]” and that it “can, and will, handle the
volume of Election Mail [it] receive[s].” Respondent’s
Supplemental Brief at 10.
Finally, Respondent argues that moving the
received-by deadline until after Election Day would
undermine the federal designation of a uniform
Election Day, as set forth in three federal statues,
specifically 3 U.S.C. § 1 (“The electors of President and
Vice President shall be appointed, in each State, on the
Tuesday next after the first Monday in November,
every fourth year succeeding every election of a
President and Vice President”); 2 U.S.C. § 7 (“The
Tuesday next after the 1st Monday in November, in
every even numbered year, is established as the day
for the election, in each of the States and Territories of
the United States, of Representatives and Delegates to
the Congress commencing on the 3d day of January
next thereafter.”); and 2 U.S.C. § 1 (“At the regular
election held in any State next preceding the
expiration of the term for which any Senator was
elected to represent such State in Congress is
regularly by law to be chosen, a United States Senator
from said State shall be elected by the people thereof

42a
for a term commencing on the 3d day of January next
thereafter.”).23
The Caucus also files a brief with this Court arguing
against the extension of the deadline for mail-in votes.
It asserts that “[t]here is no constitutional right to vote
by mail” and that states have broad authority to enact
regulations to ensure the integrity of its elections,
including mail-in ballots, as was done in Act 77,
including by setting a deadline for the receipt of
ballots. Caucus’s Brief at 19.
The Caucus warns that granting an extension of the
mail-in ballot received-by deadline in this case “would
have a cascading effect on other election code
deadlines, thereby causing chaos for election officials
and confusion for voters.” Id. at 26. It observes that
the Election Code requires that Boards begin
canvassing absentee and mail-in ballots within three
days of Election Day and shall continue through the
eighth day following the Election. Id. at 28 (citing 25
P.S. § 3146.8(g)(2)). Additionally, the Boards shall
submit the unofficial returns to the Secretary on the
Tuesday following the Election, and the Secretary
must determine whether a recount is required within
nine days of Election Day, citing 25 P.S. § 3154(f),
(g)(2), and the Boards must certify the final results to
the Secretary no later than twenty days after Election
Day, citing 25 P.S. § 2642(k). It additionally asserts
23 In so arguing, Respondent seemingly ignores the fact that
allowing the tabulation of ballots received after Election Day does
not undermine the existence of a federal Election Day, where the
proposal requires that ballots be cast by Election Day, similar to
the procedure under federal and state law allowing for the
tabulation of military and overseas ballots received after Election
Day.

43a
that federal law requires all state recounts and
challenges to be “resolved at least 6 days prior to the
meeting of electors,” which it asserts this year is
December 14. Caucus’s Brief at 28 n.17 (citing 3
U.S.C. §§ 1, 5). The Caucus therefore urges this Court
to refrain from altering the received-by deadline for
mail-in ballots, asserting that the “requested
injunction would override the election deadlines which
were fully debated and properly enacted by the
peoples’ representatives in the Pennsylvania General
Assembly.” Id. at 29.
Unlike other provisions of Act 77 currently before
this Court, we are not asked to interpret the statutory
language establishing the received-by deadline for
mail-in ballots.
Indeed, there is no ambiguity
regarding the deadline set by the General Assembly:
Deadline.--Except as provided under 25 Pa.C.S.
§ 3511[24] (relating to receipt of voted ballot), a
Section 3511 addresses the timeline for the return of ballots of
uniform military and oversees voters and provides for the
counting of such votes if delivered to the county board by 5 p.m.
on the seventh day after Election Day:
24

§ 3511. Receipt of voted ballot
(a) Delivery governs.--A valid military-overseas ballot
cast under section 3509 (relating to timely casting of ballot)
shall be counted if it is delivered by 5 p.m. on the seventh
day following the election to the address that the
appropriate county election board has specified.
(b) Rule regarding postmarks.--If, at the time of
completing a military-overseas ballot and balloting
materials, the voter has declared under penalty of perjury
that the ballot was timely submitted, the ballot may not be
rejected on the basis that it has a late postmark, an
unreadable postmark or no postmark.

44a
completed mail-in ballot must be received in the
office of the county board of elections no later than
eight o’clock P.M. on the day of the primary or
election.
25 P.S. § 3150.16(c). Moreover, we are not asked to
declare the language facially unconstitutional as there
is nothing constitutionally infirm about a deadline of
8:00 p.m. on Election Day for the receipt of ballots.
The parties, instead, question whether the application
of the statutory language to the facts of the current
unprecedented situation results in an as-applied
infringement of electors’ right to vote.
In considering this issue, we reiterate that the Free
and Equal Elections Clause of the Pennsylvania
Constitution requires that “all aspects of the electoral
process, to the greatest degree possible, be kept open
and unrestricted to the voters of our Commonwealth,
and, also, conducted in a manner which guarantees, to
the greatest degree possible, a voter’s right to equal
participation in the electoral process for the selection
of his or her representatives in government.” League
of Women Voters, 178 A.3d at 804. Nevertheless, we
also recognize that “the state may enact substantial
regulation containing reasonable, non-discriminatory
restrictions to ensure honest and fair elections that
proceed in an orderly and efficient manner.” Banfield
v. Cortes, 110 A.3d 155, 176–77 (Pa. 2015) (internal
citation and quotation marks omitted).
As we have recently seen, an orderly and efficient
election process can be crucial to the protection of a
voter’s participation in that process. Indeed, the
25 Pa.C.S. § 3511.

45a
struggles of our most populous counties to avoid
disenfranchising voters while processing the
overwhelming number of pandemic-fueled mail-in
ballot applications during the 2020 Primary
demonstrates that orderly and efficient election
processes are essential to safeguarding the right to
vote. An elector cannot exercise the franchise while
her ballot application is awaiting processing in a
county election board nor when her ballot is sitting in
a USPS facility after the deadline for ballots to be
received.
We are fully cognizant that a balance must be struck
between providing voters ample time to request mailin ballots, while also building enough flexibility into
the election timeline to guarantee that ballot has time
to travel through the USPS delivery system to ensure
that the completed ballot can be counted in the
election.
Moreover, we recognize that the
determination of that balance is fully enshrined
within the authority granted to the Legislature under
the United States and Pennsylvania Constitutions.
See U.S. CONST. art. I, § 4, cl. 1; id. art. II, § 1, cl. 2.
Nevertheless, we find the Commonwealth Court’s
rationale in In re: General Election-1985 germane to
the current challenge to the application of the ballot
received-by deadline.
In that case, the court
recognized that, while neither the Constitution nor the
Election Code specified “any procedure to follow when
a natural disaster creates an emergency situation that
interferes with an election,” courts could look to the
direction of 25 P.S. § 3046. In re General Election1985, 531 A.2d at 839. As noted, Section 3046 provides
courts of common pleas the power, on the day of an
election, to decide “matters pertaining to the election

46a
as may be necessary to carry out the intent” of the
Election Code, which the Commonwealth Court
properly deemed to include providing “an equal
opportunity for all eligible electors to participate in the
election process,” which in that case necessitated
delaying the election during a flood. Id.
We have no hesitation in concluding that the
ongoing COVID-19 pandemic equates to a natural
disaster. See Friends of Devito v. Wolf, 227 A.3d 872,
888 (Pa. 2020) (agreeing “that the COVID-19
pandemic qualifies as a ‘natural disaster’ under the
Emergency Code”). Moreover, the effects of the
pandemic threatened the disenfranchisement of
thousands of Pennsylvanians during the 2020
Primary, when several of the Commonwealth’s county
election boards struggled to process the flow of mail-in
ballot applications for voters who sought to avoid
exposure to the virus. See, e.g., Delaware County
Board of Elections’ Answer to Petition at 15, ¶ 77
(acknowledging that it “mailed out thousands of
ballots in the twenty-four hour period preceding the
election”). It is beyond cavil that the numbers of mailin ballot requests for the Primary will be dwarfed by
those applications filed during the upcoming highlycontested Presidential Election in the midst of the
pandemic where many voters are still wary of
congregating in crowded locations such as polling
places. We acknowledge that the Secretary has
estimated that nearly three million Pennsylvanians
will apply for mail-in applications, in contrast to the
1.5 million cast during the Primary. Secretary’s Brief
at 1.
In light of these unprecedented numbers and the
near-certain delays that will occur in Boards

47a
processing the mail-in applications, we conclude that
the timeline built into the Election Code cannot be met
by the USPS’s current delivery standards, regardless
of whether those delivery standards are due to recent
changes in the USPS’s logistical procedures or
whether the standards are consistent with what the
General Assembly expected when it enacted Act 77. In
this regard, we place stock in the USPS’s General
Counsel’s expression that his client could be unable to
meet Pennsylvania’s statutory election calendar.
General Counsel’s Letter at 2. The Legislature
enacted an extremely condensed timeline, providing
only seven days between the last date to request a
mail-in ballot and the last day to return a completed
ballot. While it may be feasible under normal
conditions, it will unquestionably fail under the strain
of COVID-19 and the 2020 Presidential Election,
resulting in the disenfranchisement of voters.
Under our Extraordinary Jurisdiction, this Court
can and should act to extend the received-by deadline
for mail-in ballots to prevent the disenfranchisement
of voters. We have previously recognized that, in
enforcing the Free and Equal Elections Clause, this
“Court possesses broad authority to craft meaningful
remedies when required.” League of Women Voters,
178 A.3d at 822 (citing PA. CONST., art. V, §§ 1, 2, 10;
42 Pa.C.S. § 726 (granting power to “enter a final order
or otherwise cause right and justice to be done”)). We
additionally conclude that voters’ rights are better
protected by addressing the impending crisis at this
point in the election cycle on a statewide basis rather
than allowing the chaos to brew, creating voter
confusion regarding whether extensions will be

48a
granted, for how long, and in what counties.25 Instead,
we act now to allow the Secretary, the county election
boards, and most importantly, the voters in
Pennsylvania to have clarity as to the timeline for the
2020 General Election mail-in ballot process.
After consideration, we adopt the Secretary’s
informed recommendation of a three-day extension of
the absentee and mail-in ballot received-by deadline to
allow for the tabulation of ballots mailed by voters via
the USPS and postmarked by 8:00 p.m. on Election
Day to reduce voter disenfranchisement resulting
from the conflict between the Election Code and the
current USPS delivery standards, given the expected
number of Pennsylvanians opting to use mail-in
ballots during the pandemic.26 We observe that this

We recognize that we rejected a very similar argument
presented in Disability Rights Pennsylvania on May 15, 2020,
weeks prior to the Primary. Disability Rights Pa. v. Boockvar,
No. 83 MM 2020, 2020 WL 2820467 (Pa. May 15, 2020). At that
time, the potential of voter disenfranchisement was speculative
as many unknowns existed relating to the magnitude of the
pandemic, the extent to which voters would seek mail-in
applications, and the ability of Boards to handle the increase.
Those uncertainties no longer exist in light of our experience in
the 2020 Primary where thousands of voters would have been
disenfranchised but for the emergency actions of the courts of
common pleas and the Governor.
25

26 We likewise incorporate the Secretary’s recommendation
addressing ballots received within this period that lack a
postmark or other proof of mailing, or for which the postmark or
other proof of mailing is illegible. Accordingly, in such cases, we
conclude that a ballot received on or before 5:00 p.m. on
November 6, 2020, will be presumed to have been mailed by
Election Day unless a preponderance of the evidence
demonstrates that it was mailed after Election Day.

49a
extension provides more time for the delivery of ballots
while also not requiring alteration of the subsequent
canvassing and reporting dates necessary for the
Secretary’s final reporting of the election results. In
so doing, we emphasize that the Pennsylvania’s
election laws currently accommodate the receipt of
certain ballots after Election Day, as it allows the
tabulation of military and overseas ballots received up
to seven days after Election Day. 25 Pa.C.S. § 3511.
We conclude that this extension of the received-by
deadline protects voters’ rights while being least at
variance with Pennsylvania’s permanent election
calendar, which we respect and do not alter lightly,
even temporarily.
C. COUNT III OF THE PETITION FOR REVIEW
In Count III of its petition, Petitioner seeks to
require that the Boards contact qualified electors
whose mail-in or absentee ballots contain minor facial
defects resulting from their failure to comply with the
statutory requirements for voting by mail, and provide
them with an opportunity to cure those defects. More
specifically, Petitioner submits that when the Boards
have knowledge of an incomplete or incorrectly
completed ballot as well as the elector’s contact
information, the Boards should be required to notify
the elector using the most expeditious means possible
and provide the elector a chance to cure the facial
We emphasize that voters utilizing the USPS must cast their
ballots prior to 8:00 p.m. on Election Day, like all voters,
including those utilizing drop boxes, as set forth supra. We
refuse, however, to disenfranchise voters for the lack or
illegibility of a postmark resulting from the USPS processing
system, which is undeniably outside the control of the individual
voter.

50a
defect up until the UOCAVA deadline of November 10,
2020, discussed supra.
Petitioner bases this claim on its assertion that the
multi-stepped process for voting by mail-in or absentee
ballot inevitably leads to what it describes as minor
errors, such as not completing the voter declaration or
using an incorrect ink color to complete the ballot. See
25 P.S. § 3146.6(a) (explaining the process for voting
by absentee ballot, which requires, inter alia, an
elector to mark the ballot using only certain writing
implements and ink; and to fill out, date, and sign the
declaration printed on the outer envelope); id.
§ 3150.16(a) (explaining the process for voting by mailin ballot, which imposes the same requirements).
According to Petitioner, these minor oversights result
in many ballots being rejected and disenfranchising
voters who believe they have exercised their right to
vote.
Petitioner submits that voters should not be
disenfranchised by technical errors or incomplete
ballots, and that the “notice and opportunity to cure”
procedure ensures that all electors who desire to cast
a ballot have the opportunity to do so, and for their
ballot to be counted. Petitioner further claims there is
no governmental interest in either: (1) requiring the
formalities for the completion of the outside of the
mailing envelope to be finalized prior to mailing as
opposed to prior to counting, or (2) rejecting the
counting of a ballot so long as ballots continue to arrive
under federal law, which is the UOCAVA deadline of
seven days after Election Day.
As legal support for its position, Petitioner relies
upon the Free and Equal Elections Clause. PA.

51a
CONST. art. I, § 5 (“Elections shall be free and equal;
and no power, civil or military, shall at any time
interfere to prevent the free exercise of the right of
suffrage.”); see also Winston, 91 A. at 523 (explaining
that elections are “free and equal” for constitutional
purposes when, inter alia, “the regulation of the right
to exercise the franchise does not deny the franchise
itself, or make it so difficult as to amount to a denial;
and when no constitutional right of the qualified
elector is subverted or denied him”). It further
emphasizes that election laws should be construed
liberally in favor of voters, and that “[t]echnicalities
should not be used to make the right of the voter
insecure.” Appeal of James, 105 A.2d 64, 65–66 (Pa.
1954). Petitioner also asserts that ballots with minor
irregularities should not be rejected, except for
compelling reasons and in rare circumstances. Id. at
66. Based on these legal principles, as well as this
Court’s “broad authority to craft meaningful remedies”
when necessary, League of Women Voters, 178 A.3d at
822, Petitioner claims that the Pennsylvania
Constitution and spirit of the Election Code require
the Boards to provide a “notice and opportunity to
cure” procedure, and that this Court has the authority
to afford the relief it seeks.
Unlike the other claims asserted herein, the
Secretary opposes Petitioner’s request for relief in this
regard. She counters that there is no statutory or
constitutional basis for requiring the Boards to contact
voters when faced with a defective ballot and afford
them an opportunity to cure defects. The Secretary
further notes that, while Petitioner relies upon the
Free and Equal Elections Clause, that Clause cannot
create statutory language that the General Assembly

52a
chose not to provide. See Winston, 91 A. at 522 (noting
that “[t]he power to regulate elections is legislative”).
The Secretary submits that so long as a voter follows
the requisite voting procedures, he or she “will have
an equally effective power to select the representative
of his or her choice.” League of Women Voters, 178
A.3d at 809. Emphasizing that Petitioner presents no
explanation as to how the Boards would notify voters
or how the voters would correct the errors, the
Secretary further claims that, while it may be good
policy to implement a procedure that entails notice of
defective ballots and an opportunity to cure them,
logistical policy decisions like the ones implicated
herein are more properly addressed by the
Legislature, not the courts.
Respondent echoes the Secretary’s opposition to
Petitioner’s request for relief.27
Specifically, it
reiterates that Petitioner has failed to assert a legal
basis to support imposing a “notice and opportunity to
cure” procedure, noting that the Free and Equal
Elections Clause does not enable courts to rewrite the
Election Code to align with a litigant’s notion of good
election policy. Respondent emphasizes that “ballot
and election laws have always been regarded as
peculiarly within the province of the legislative branch
of government,” Winston, 91 A. at 522, and that to the
extent restrictions are burdensome, relief should be
sought in the Legislature. Id. at 525.
Respondent
also
discusses
the
practical
implications of granting Petitioner’s request,
expressing concern that implementing a “notice and
The Caucus does not advance argument on the merits of this
issue.
27

53a
opportunity to cure” procedure would be a
monumental undertaking requiring the expenditure of
significant resources, particularly on the eve of an
election.
Respondent thus reiterates that the
Legislature, not this Court, is the entity best suited to
address the procedure proposed by Petitioner.
Respondent adds that the tardiness of Petitioner’s
request is alone a sufficient basis to deny it and that,
in any event, Petitioner cannot show a “plain, palpable
and clear abuse of the [legislative] power which
actually infringes on the rights of the electors” with
respect to this claim. Patterson v. Barlow, 60 Pa. 54,
75 (1869). Respondent notes that, to the contrary, a
requirement that voters follow the appropriate
procedures when filling out their ballots easily passes
constitutional muster.
Upon review, we conclude that the Boards are not
required to implement a “notice and opportunity to
cure” procedure for mail-in and absentee ballots that
voters have filled out incompletely or incorrectly. Put
simply, as argued by the parties in opposition to the
requested relief, Petitioner has cited no constitutional
or statutory basis that would countenance imposing
the procedure Petitioner seeks to require (i.e., having
the Boards contact those individuals whose ballots the
Boards have reviewed and identified as including
“minor” or “facial” defects—and for whom the Boards
have contact information—and then afford those
individuals the opportunity to cure defects until the
UOCAVA deadline).
While the Pennsylvania Constitution mandates
that elections be “free and equal,” it leaves the task of
effectuating that mandate to the Legislature.

54a
Winston, 91 A. at 522. As noted herein, although the
Election Code provides the procedures for casting and
counting a vote by mail, it does not provide for the
“notice and opportunity to cure” procedure sought by
Petitioner. To the extent that a voter is at risk for
having his or her ballot rejected due to minor errors
made in contravention of those requirements, we
agree that the decision to provide a “notice and
opportunity to cure” procedure to alleviate that risk is
one best suited for the Legislature. We express this
agreement particularly in light of the open policy
questions attendant to that decision, including what
the precise contours of the procedure would be, how
the concomitant burdens would be addressed, and how
the procedure would impact the confidentiality and
counting of ballots, all of which are best left to the
legislative branch of Pennsylvania’s government.
Thus, for the reasons stated, the Petitioner is not
entitled to the relief it seeks in Count III of its petition.
D. COUNT IV OF THE PETITION FOR REVIEW
In Count IV, Petitioner seeks a declaration that
under Act 77, the Boards must “clothe and count
naked ballots,” i.e., place ballots that were returned
without the secrecy envelope into a proper envelope
and count them, rather than invalidate them. It
further seeks a preliminary injunction prohibiting the
Boards from excluding such ballots from the canvass.
To understand the nature of a “naked ballot,” as
well as Petitioner’s claim that such ballots are valid
and should be counted, we examine the relevant
provisions of Act 77. The Act directs Boards to send to
the qualified mail-in elector an official mail-in ballot,
the list of candidates when authorized, the uniform

55a
instructions as prescribed by the Secretary, and two
envelopes to be returned to the Boards, as described in
detail infra. 25 P.S. § 3150.14(c).
Section 3150.14(a) (“Envelopes for official mail-in
ballots”) explains the nature of the envelopes sent to
the mail-in voter. This provision directs the Boards to
“provide two additional envelopes for each official
mail-in ballot of a size and shape as prescribed by the
Secretary of the Commonwealth, in order to permit the
placing of one within the other and both within the
mailing envelope” addressed to the elector.
Id.
§ 3150.14(a). On the smaller of the two envelopes to
be returned to the Boards shall be printed only the
words “Official Election Ballot.” Id. On the larger
envelope shall be printed: (1) “the form of the
declaration of the elector;” (2) the “name and address
of the county board of election of the proper county;”
and (3) “information indicating the local election
district of the mail-in voter.” Id.
As noted, Section 3150.16(a) directs the mail-in
elector to mark the ballot in secret with the
enumerated ink or lead pencil and then fold the ballot,
enclose it, and secure it in the smaller envelope on
which is printed “Official Election Ballot.” 25 P.S.
§ 3150.16(a). The statute further directs the mail-in
elector to place the smaller envelope into the second
envelope on which is printed the form of declaration of
the elector, the elector’s local election district, and the
address of the elector’s county board of election. Id.
The statute next directs the mail-in elector to fill out,
date, and sign the declaration printed on the second
envelope, and secure the ballot and send it by mail or
deliver it in person to his or her county board of
election. Id. A ballot is “naked” for purposes of this

56a
action if the mail-in elector fails to utilize the smaller
envelope on which is printed “Official Election Ballot,”
and, instead, places the official election ballot directly
into the second envelope, upon which is printed the
form of declaration of the elector and the address of
the elector’s county board of election.
Act 77 additionally sets forth the procedure by
which mail-in ballots are canvassed.
See id.
§ 3146.8(a) (providing that mail-in ballots “shall be
canvassed in accordance with subsection (g)”).
Relevant thereto, the Act directs that mail-in ballots
cast by electors who died prior to Election Day shall be
rejected and not counted.
Id. § 3146.8(d).
Additionally, the Act provides that mail-in ballots
shall be counted as long as: (1) election officials verify
the ballots by comparing the voter’s declaration with
the official voting list; and (2) the ballots are not
challenged on the ground that the voter is unqualified
to vote. Id. §§ 3146.8(g)(4); 3150.12b(a)(2). Notably,
Section 3146.8(g)(4)(ii) provides that if any of the
envelopes on which are printed “Official Election
Ballot” “contain any text, mark or symbol which
reveals the identity of the elector, the elector’s political
affiliation or the elector’s candidate preference, the
envelopes and the ballots contained therein shall be
set aside and declared void.” Id. § 3146.8(g)(4)(ii).
The crux of Petitioner’s position is that although Act
77 directs a mail-in voter to utilize the secrecy
envelope in submitting the mail-in ballot, there is no
provision in the Election Code authorizing the Boards
to discard a ballot on grounds that the voter failed to
insert the ballot into the secrecy envelope before
returning it to the Boards. Rather, Petitioner asserts,
the statute directs the Boards to reject mail-in ballots

57a
only if the mail-in elector died prior to Election Day,
id. § 3146.8(d), the ballot is unverified or challenged
on grounds that the mail-in voter was unqualified to
vote, id. § 3146.8(g)(4), or the ballot is returned in an
“Official Election Ballot” envelope that contains “any
text, mark or symbol which reveals the identity of the
elector, the elector’s political affiliation or the elector’s
candidate preference.”
Id. § 3146.8(g)(4)(ii).
Petitioner concludes that the failure to place the ballot
in a secrecy envelope does not fall within these
enumerated statutory grounds which would result in
an invalid mail-in ballot.
Moreover, Petitioner emphasizes that the General
Assembly was aware of how to invalidate ballots for
lack of a secrecy envelope, as it expressly did so in
another provision of the Election Code regarding
provisional ballots.
See id. § 3050(a.4)(5)(ii)(C)
(providing that a “provisional ballot shall not be
counted if: . . . a provisional ballot envelope does not
contain a secrecy envelope”).28 Had the General
Assembly intended to invalidate mail-in ballots on this
basis, Petitioner submits, the Legislature would have
included a similar provision in Act 77, but chose not to
do so.
Absent statutory authority directing the Boards to
invalidate a ballot based exclusively on the lack of a
secrecy envelope, Petitioner contends that the refusal
to canvass and count ballots cast without a secrecy
A provisional ballot is a ballot cast by an individual who claims
to be properly registered and eligible to vote at the election
district, but whose name does not appear on the district register
and whose registration cannot be determined.
25 P.S.
§ 3050(a.4)(1).
28

58a
envelope violates the Election Code, as well as the
rights of electors to have their vote counted under the
Free and Equal Elections Clause. It posits that rather
than disenfranchising the voter in contravention of
these edicts, the Boards could take corrective
measures to protect privacy, such as placing the naked
ballot inside a replacement secrecy envelope before
canvassing.
Accordingly, Petitioner requests a declaration that
naked ballots must be counted, as well as injunctive
relief requiring Boards to undertake reasonable
measures to protect the privacy of naked ballots cast
by mail-in electors.
The Secretary’s position aligns with Petitioner on
this issue as she agrees that the counting of naked
ballots is permitted by the Election Code and furthers
the right to vote under the Free and Equal Elections
Clause and the First and Fourteenth Amendments to
the United States Constitution.29

The Secretary’s position herein is consistent with the directive
that the Department of State distributed to the counties on
May 28, 2020, indicating that there is no statutory requirement
nor any authority for setting aside an absentee or mail-in ballot
exclusively because the voter forgot to insert it into the official
election ballot envelope. See Exhibit B to Petition, Directive of
Deputy Secretary for Elections and Commissions Jonathan M.
Marks to the county election directors, May 28, 2020. The
directive further indicated that “[t]o preserve the secrecy of such
ballots, the board of elections in its discretion may develop a
process by which the members of the pre-canvass or canvass
boards insert these ballots into empty official ballot envelopes or
privacy sleeves until such time as they are ready to be tabulated.”
Id. See also Exhibit J to Petition, Guidance for Missing Official
Election Ballot Envelopes.
29

59a
The Secretary contends that the secrecy envelope
procedure set forth in Section 3150.16(a) is merely
directory, and that this Court’s longstanding
precedents establish that ballots should not be
disqualified based upon the failure to follow directory
provisions. See Bickhart, 845 A.3d at 803 (holding that
although the Election Code provides that an elector
may cast a write-in vote for any person not printed on
the ballot, a write-in vote for a candidate whose name,
in fact, appears on the ballot is not invalid where there
is no evidence of fraud and the voter’s intent is clear);
Wieskerger Appeal, 290 A.2d 108, 109 (Pa. 1972)
(holding that the elector’s failure to mark the ballot
with the statutorily enumerated ink color does not
render the ballot invalid unless there is a clear
showing that the ink was used for the purpose of
making the ballot identifiable or otherwise indicating
fraud).
The Secretary further opines that no fraud arises
from counting naked ballots, considering that the
naked ballot remains sealed in an envelope and the
sealed ballot is certified by the elector. Accordingly,
the Secretary concludes that no voter should be
disenfranchised for failing to place his or her mail-in
ballot in the secrecy envelope before returning it to the
Boards.
In response, Respondent argues that the statutory
language of Section 3150.16(a), providing that the
mail-in elector “shall . . . enclose and securely seal the
[ballot] in the envelope on which is printed, stamped
or endorsed ‘Official Election Ballot,’” is clear and
constitutes a mandatory requisite to casting a mail-in
ballot, and having that ballot counted. It relies on In
re Canvass of Absentee Ballots of Nov. 4, 2003 Gen.

60a
Election, 843 A.2d 1223 (Pa. 2004) (“Appeal of Pierce”),
where this Court held that the use of the term “shall”
in Section 3146.6(a) of the Election Code, providing
that the elector “shall” send an absentee ballot or
deliver the ballot in person, carries a mandatory
meaning, thereby precluding third parties from handdelivering absentee ballots to county election boards,
and invalidating those ballots that were handdelivered by a third party. Respondent submits that
Section 3150.16(a) requires the same invalidation of
ballots where the mandatory statutory requisite of
enclosing the ballot in a secrecy envelope is ignored.
Respondent observes that the Election Code further
directs election officials to “set aside and declare[]
void” a ballot whose secrecy envelope contains “any
text, mark, or symbol which reveals the identity of the
elector, the elector’s political affiliation or the elector’s
candidate preference.”
25 P.S. § 3146.8(g)(4)(ii).
Citing Appeal of Weiskerger, supra, it argues that the
purpose of this provision is to prevent the disclosure of
the elector’s identity. Respondent posits that a ballot
unclothed by a secrecy envelope and placed directly in
the outer envelope also discloses the elector’s identity
because the outer envelope contains the elector’s
signed declaration.
Thus, it concludes, Section
3146.8(g)(4)(ii) requires invalidation of any ballot
contained in an envelope that reveals the identity of
the voter, regardless of whether that envelope is a
secrecy envelope or an outer envelope. To hold to the
contrary, Respondent argues, would violate Article
VII, Section 4 of the Pennsylvania Constitution, which

61a
provides, in relevant part, that “secrecy in voting shall
be preserved.” PA. CONST. art. VII, § 4.30
Respondent discounts the Secretary’s suggestion
that because there is no fraud involved in the
submission of a naked ballot, the ballot should be
counted. The secrecy envelope provision of the statute,
in Respondent’s view, advances the distinct
constitutional interest of protecting the sanctity of the
ballot by preventing the ballot from disclosing the
elector’s identity. The significance of this interest, it
submits, distinguishes this matter from cases
involving noncompliance with minor procedural
demands set forth in the Election Code, such as the
color of ink used to mark a ballot or the listing of a
write-in candidate whose name already appears on the
ballot. Accordingly, Respondent requests that we
deny Petitioner’s request for declaratory and
injunctive relief.
The Caucus reiterates all of the arguments
expressed by Respondent. It contends that in addition
to violating voter secrecy, the counting of naked ballots
raises the concern of voter fraud. It contends that
when a ballot arrives at the county election board
without the protective shield of a sealed privacy
envelope, the election official cannot guarantee that
the ballot travelled from the voter’s hand to the county
election board without compromise. It argues that
there is no way for the election official to verify that
the vote was accurately recorded, because the mere act
Article VII, Section 4 (“Method of elections; secrecy in voting”)
states, in full, that “[a]ll elections by the citizens shall be by ballot
or by such other method as may be prescribed by law: Provided,
That secrecy in voting be preserved.” PA. CONST. art. VII, § 4.
30

62a
of ascertaining the voter’s identity from the elector’s
declaration may violate the secrecy protections of
Article VII, Section 4. The Caucus concludes that the
only way to be certain that no fraud has taken place is
to reject all naked ballots.
Turning now to our analysis, we observe that, in
determining the propriety of naked ballots, we must
ascertain the General Assembly’s intention by
examining the statutory text of the secrecy envelope
provision to determine whether it is mandatory or
directory, as that will govern the consequences for
non-compliance. See JPay, Inc. v. Dep’t of Corr. &
Governor’s Office of Admin., 89 A.3d 756, 763 (Pa.
Cmwlth. 2014) (internal citation omitted) (observing
that “[w]hile both mandatory and directory provisions
of the Legislature are meant to be followed, the
difference between a mandatory and directory
provision is the consequence for non-compliance: a
failure to strictly adhere to the requirements of a
directory statute will not nullify the validity of the
action involved”).
Upon careful examination of the statutory text, we
conclude that the Legislature intended for the secrecy
envelope provision to be mandatory. We respectfully
reject the contentions of Petitioner and the Secretary
that because the General Assembly did not delineate
a remedy narrowly linked to the mail-in elector’s
failure to utilize a secrecy envelope, the language of
the Election Code is directory, and an elector’s
violation of the command inconsequential.
As noted, Section 3150.16(a) provides:
[The mail-in elector] shall, in secret, . . . enclose
and securely seal the [ballot] in the envelope on

63a
which is printed, stamped or endorsed “Official
Election Ballot.” This envelope shall then be
placed in the second one, on which is printed the
form of declaration of the elector, and the address
of the elector’s county board of election and the
local election district of the elector.
Id.
This statutory text must be read in pari materia31
with Subsection 3146.8(g)(4)(ii), which also speaks
directly to secrecy envelopes, providing:
If any of the envelopes on which are printed,
stamped or endorsed the words ‘Official Election
Ballot’ contain any text, mark or symbol which
reveals the identity of the elector, the elector’s
political affiliation or the elector’s candidate
preference, the envelopes and the ballots
contained therein shall be set aside and declared
void.
25 P.S. § 3146.8(g)(4)(ii).
These provisions make clear the General
Assembly’s intention that, during the collection and
canvassing processes, when the outer envelope in
which the ballot arrived is unsealed and the sealed
ballot removed, it should not be readily apparent who
31 Section 1932 of our Statutory Construction Act, “Statutes in
pari materia,” provides:

(a) Statutes or parts of statutes are in pari materia when
they relate to the same persons or things or to the same
class of persons or things.
(b) Statutes in pari materia shall be construed together, if
possible, as one statute.
1 Pa. C.S. § 1932.

64a
the elector is, with what party he or she affiliates, or
for whom the elector has voted. The secrecy envelope
properly unmarked and sealed ensures that result,
unless it is marked with identifying information, in
which case that goal is compromised. Whatever the
wisdom of the requirement, the command that the
mail-in elector utilize the secrecy envelope and leave
it unblemished by identifying information is neither
ambiguous nor unreasonable.
As noted cogently by Respondent, this case is
distinguishable from those cases relied upon by the
Secretary, which deemed mandatory language merely
directory and without consequence. For example, in
Bickhart, 845 A.2d at 795, the Court declined to
invalidate a write-in vote cast for a candidate who was
named on the ballot proper.
In reaching that
conclusion, the Court observed that “ballots containing
mere minor irregularities should only be stricken for
compelling reasons,” noting that marking a ballot is an
imprecise process, the focus of which is upon the
“unmistakable registration of the voter’s will in
substantial conformity to the statutory requirements.”
Bickhart, 845 A.2d at 798–99 (internal quotation
marks and citations omitted).
Similarly, in Appeal of Weiskerger, supra, this Court
declined to invalidate a ballot based upon the “minor
irregularity” that it was completed in the wrong color
of ink. The statute at issue provided: “Any ballot that
is marked in blue, black or blue-black ink . . . shall be
valid and counted.” 290 A.2d at 109 (citing 25 P.S.
§ 3063).
Thus, the only mandatory direction it
provided was for the canvassers who receive the
ballots, not the electors who prepared them. In
providing that ballots completed in the right color

65a
must be counted, the Legislature neither stated nor
implied that ballots completed in a different color
must not be counted. Neither statutory provision at
issue in Bickhart nor Weiskerger contained anything
analogous to the directive at issue in this case, which
involves secrecy in voting protected expressly by
Article VII, Section 4 of this Court’s state charter.
As posited by Respondent, most analogous to the
instant case is our decision in Appeal of Pierce. There,
we held that the Election Code’s “in-person” ballot
delivery requirement, see 25 P.S. § 3146.6, was
mandatory, and that votes delivered by third persons
must not be counted. The provision in question
unambiguously provided that “the elector shall send
[the absentee ballot] by mail, postage [prepaid], except
where franked, or deliver it in person to [said county]
board of election.” Appeal of Pierce, 843 A.2d at 1231
(quoting 25 P.S. § 3146.6(a)). The parties seeking to
ensure that votes delivered by third parties would be
counted cited Weiskerger and its flexibility with
respect to “minor irregularities.”
This Court, however, was unpersuaded and declined
the invitation to interpret “shall” as anything less than
mandatory. Moreover, the Court rejected precisely the
same reasoning for interpreting “shall” as directory
that Petitioner and the Secretary offer in this case. As
in the instant case, the provision of the Election Code
at issue in Appeal of Pierce did not expressly provide
for voiding a ballot delivered by someone other than
the voter. Nevertheless, we held that to construe the
in-person requirement “as merely directory would
render its limitation meaningless and, ultimately,
absurd.” Id. at 1232. The Court further distinguished
Weiskerger and its safe harbor for “minor

66a
irregularities,” noting that the in-person requirement
served the salutary purpose of “limit[ing] the number
of third persons who unnecessarily come in contact
with the ballot[,] . . . provid[ing] some safeguard that
the ballot was filled out by the actual voter, . . . and
that once the ballot has been marked by the actual
voter in secret, no other person has the opportunity to
tamper with it.” Id. The provision thus served the
spirit of the Code, “which requires that a voter cast his
ballot alone, and that it remain secret and inviolate.”
Id.
Petitioner and the Secretary attempt to distinguish
Appeal of Pierce by emphasizing that there was no
statutory provision in that case that was inconsistent
with the judicially inferred remedy, such as the
provisional ballot secrecy envelope provision in this
case.
They assert that here, by contrast, the
Legislature has directed the disqualification of
provisional ballots not enclosed in the secrecy
envelope, and of mail-in ballots with certain markings
on the secrecy envelope, rendering its silence with
regard to omitted secrecy envelopes for mail-in ballots
all the more conspicuous.
The clear thrust of Appeal of Pierce, however, is
that, even absent an express sanction, where
legislative intent is clear and supported by a weighty
interest like fraud prevention, it would be
unreasonable to render such a concrete provision
ineffective for want of deterrent or enforcement
mechanism. What we learn from that decision is that
violations of the mandatory statutory provisions that
pertain to integral aspects of the election process
should not be invalidated sub silentio for want of a
detailed enumeration of consequences.

67a
We must in all instances assume that the General
Assembly does not intend a statute to be interpreted
in a way that leads to an absurd or unreasonable
result. See 1 Pa.C.S. § 1922(1) (“In ascertaining the
intention of the General Assembly in the enactment of
a statute the following presumptions . . . may be used:
(1) That the General Assembly does not intend a result
that is absurd, impossible of execution or
unreasonable.”). The result proffered by Petitioner
and the Secretary is no more reasonable than that
which the Court in Appeal of Pierce found untenable.
The Court in Appeal of Pierce viewed a textual
mandate pertaining to fraud prevention and ballot
secrecy as signaling the Legislature’s intent that its
violation would require voiding the ballot,
notwithstanding no statutory provision to that effect.
To avoid an absurd result, it inferred that intent from
nothing more than the provision itself.
We reach the same result here. It is clear that the
Legislature believed that an orderly canvass of mailin ballots required the completion of two discrete steps
before critical identifying information on the ballot
could be revealed. The omission of a secrecy envelope
defeats this intention. Moreover, in providing for the
disqualification of mail-in ballots that arrive in secrecy
envelopes that bear markings identifying the elector,
the elector’s party affiliation, or the elector’s vote, all
categories of information that appear on the ballot
itself, the Legislature signaled beyond cavil that ballot
confidentiality up to a certain point in the process is so
essential as to require disqualification. Thus, we find
that our holding in Appeal of Pierce leads to the
inescapable conclusion that a mail-in ballot that is not

68a
enclosed in the statutorily-mandated secrecy envelope
must be disqualified.
Accordingly, we hold that the secrecy provision
language in Section 3150.16(a) is mandatory and the
mail-in elector’s failure to comply with such requisite
by enclosing the ballot in the secrecy envelope renders
the ballot invalid.
E. COUNT V OF THE PETITION FOR REVIEW
In Count V of its petition, Petitioner seeks a
declaration specifying that the poll watcher residency
requirement, found in Section 2687(b) of the Election
Code, 25 P.S. §2687(b), does not violate state or federal
constitutional rights.32 Petition at 55, ¶ 207. The
Secretary concurs with Petitioner in this regard.
The Election Code permits candidates and political
parties to appoint “poll watchers” to monitor the
integrity of the voting process.33 “Each watcher so
Specifically, Petitioner maintains that the poll watcher
residency requirement does not violate the United States
Constitution’s First Amendment, the Fourteenth Amendment,
the Equal Protection Clause, or the Equal Protection and Free
and Equal Elections Clauses of the Pennsylvania Constitution.
32

33

Section 2687(a) provides:
Each candidate for nomination or election at any election
shall be entitled to appoint two watchers for each election
district in which such candidate is voted for. Each political
party and each political body which had nominated
candidates in accordance with the provisions of this act,
shall be entitled to appoint three watchers at any general,
municipal or special election for each election district in
which the candidates of such party or political body are to
be voted for. Such watchers shall serve without expense to
the county.

25 P.S. § 2687(a).

69a
appointed must be a qualified registered elector of the
county in which the election district for which the
watcher was appointed is located.” 25 P.S. § 2687(b).
This provision, in full, specifies:
Each watcher so appointed must be a qualified
registered elector of the county in which the
election district for which the watcher was
appointed is located. Each watcher so appointed
shall be authorized to serve in the election district
for which the watcher was appointed and, when
the watcher is not serving in the election district
for which the watcher was appointed, in any other
election district in the county in which the
watcher is a qualified registered elector:
Provided, That only one watcher for each
candidate at primaries, or for each party or
political body at general, municipal or special
elections, shall be present in the polling place at
any one time from the time that the election
officers meet prior to the opening of the polls
under section 1208 until the time that the
counting of votes is complete and the district
register and voting check list is locked and sealed,
and all watchers in the room shall remain outside
the enclosed space. It shall not be a requirement
that a watcher be a resident of the election
district for which the watcher is appointed. After
the close of the polls and while the ballots are
being counted or voting machine canvassed, all
the watchers shall be permitted to be in the
polling place outside the enclosed space. Each
watcher shall be provided with a certificate from
the county board of elections, stating his name
and the name of the candidate, party or political

70a
body he represents. Watchers shall be required
to show their certificates when requested to do so.
Watchers allowed in the polling place under the
provisions of this act, shall be permitted to keep a
list of voters and shall be entitled to challenge any
person making application to vote and to require
proof of his qualifications, as provided by this act.
During those intervals when voters are not
present in the polling place either voting or
waiting to vote, the judge of elections shall permit
watchers, upon request, to inspect the voting
check list and either of the two numbered lists of
voters maintained by the county board: Provided,
That the watcher shall not mark upon or alter
these official election records. The judge of
elections shall supervise or delegate the
inspection of any requested documents.
25 P.S. § 2687(b) (footnote omitted).
Petitioner observes that the General Assembly
enacted the current poll watcher residency
requirement in 2004 and that no changes were made
to this requirement in Act 77. Petitioner asserts that
this provision does not suffer from any constitutional
infirmities and notes that the provision has been
upheld as constitutional by the federal District Court
for the Eastern District of Pennsylvania in Republican
Party of Pennsylvania v. Cortés, 218 F. Supp. 3d 396
(E.D. Pa. 2016), discussed further below.
The Secretary likewise maintains that the poll
watcher residency requirement is constitutional. The
Secretary notes that the United States Supreme Court
in Anderson v. Calabrezza, 460 U.S. 780 (1983),

71a
recognized the importance of States in regulating
elections. There, the Court stated,
We have recognized that, ‘as a practical matter,
there must be a substantial regulation of elections
if they are to be fair and honest and if some sort
of order, rather than chaos, is to accompany the
democratic processes.’
Id. at 788 (citing Storer v. Brown, 415 U.S. 724, 730,
(1974)). In this regard, the Secretary observes that the
Election Code provides a comprehensive scheme of
regulations for voting and elections in the
Commonwealth. The Secretary maintains that these
regulatory interests are generally considered
sufficient to justify reasonable, nondiscriminatory
restrictions on elections. Id.; see also Timmons v. Twin
Cities Area New Party, 520 U.S. 351, 358 (1997)
(specifying that “[s]tates may, and inevitably must,
enact reasonable regulations of parties, elections, and
ballots to reduce election- and campaign-related
disorder”).
Regarding the provisions in the Election Code
requiring that poll watchers be qualified registered
electors from the county in which they serve, like
Petitioner, the Secretary observes that although this
Court has not previously addressed the question of
whether this requirement is constitutional, the federal
District Court for the Eastern District of Pennsylvania
has done so and rejected a constitutional challenge to
the poll watcher residency requirement in Cortés,
supra.
Specifically, there, the District Court considered a
constitutional challenge to Section 2687(b) of the
Election Code by the respondent here. Respondent

72a
claimed that the poll watcher residency requirement
found at Section 2687(b), requiring poll watchers to
reside in the county in which they serve, is violative of
its Fourteenth Amendment rights to due process and
equal protection and their rights to free speech and
association under the First Amendment.
The District Court rejected these claims, noting
first, that the regulation does not violate due process
or equal protection. The court observed that serving
as a poll watcher does not implicate a fundamental
constitutional right, like the right to vote, but rather,
is a right conferred by statute.
Id. at 408.
Additionally, the court found that because the state’s
regulation of the qualifications of who may serve as a
poll watcher does not burden one’s voting rights or any
other constitutional right, the state imposing the
regulation need only cite a rational basis for the
regulation to be upheld. Id. (citing Donatelli v.
Mitchell, 2 F.3d 508, 514 & n.10 (3d Circ. 1993)
(declining to apply intermediate scrutiny standards
because the plaintiffs’ fundamental rights were not
burdened by state law)); and Voting for Am., Inc. v.
Andrade, 488 Fed.Appx. 890, 899 (5th Cir. 2012)
(applying rational basis review as opposed to an
intermediate balancing test because state election law
did not implicate or burden specific constitutional
rights). In this regard, the court concluded as follows:
There is a rational basis for Section 2678(b)’s
requirement that poll watchers be qualified
electors in the county in which they work. The
Secretary notes that in 1937, the General
Assembly enacted a county-based scheme to
manage elections within the state, and consistent
with that scheme the legislature endeavored to

73a
allow county election officials to oversee a
manageable portion of the state in all aspects of
the process, including in credentialing poll
watchers. In short, Pennsylvania opted to design
a county-by-county system of elections; in doing
so it ensured as much coherency in this
patchwork system as possible. To that end it
ensured that participants in the election--voters
and watchers alike--were qualified electors in the
relevant county. The legislature’s decision to
allow county election officials to credential only
poll watchers from their own county is rationally
related to the state’s interest in maintaining its
county-run election system; each county election
official is tasked with managing credentials for a
discrete part of the state’s population. As the
Secretary’s counsel noted at the hearing, the
legislature chose to ‘draw the lines’ at the county
level, something entirely rational in fashioning a
scheme for a state as large as Pennsylvania.
Cortés, 218 F.Supp. 3d at 409.
The District Court, likewise, rejected Respondent’s
claims that Section 2687 violates the First
Amendment. The court first noted that courts have
found that “poll watching is not incidental to” the right
of free association and has “no distinct First
Amendment protection.” Id. at 414 (citing Cotz v.
Mastroeni, 476 F.Supp.2d 332, 364 (S.D. N.Y. 2007);
and Dailey v. Hands, No. 14-00423, 2015 WL 1293188,
at *5 (S.D. Ala. Mar. 23, 2015) (“[P]oll watching is not
a fundamental right protected by the First
Amendment.”)). Moreover, the court found that poll
watchers do not engage in core political speech while
completing their duties. Id. at 415. Rather, the court

74a
observed that “when a poll watcher reports incidents
of violations, he is performing a public function
delegated by the state.” Id. (citing Flagg Bros., Inc. v.
Brooks, 436 U.S. 149, 158 (1978) (stating that “[w]hile
the Constitution protects private rights of association
and advocacy with regard to the election of public
officials, [the Supreme Court] cases make it clear that
the conduct of the elections themselves is an
[e]xclusively public function.”)). Thus, the District
Court found that the Commonwealth’s county poll
watcher residency requirement did not implicate poll
watchers’ private rights of association or advocacy
and, therefore, did not violate the First Amendment.
Respondent again maintains that the poll watcher
residency requirement set forth in the Election Code
is unconstitutional.34 First, Respondent maintains
that Cortés is distinguishable from this matter
because of the procedural posture and the timing of
that case. Specifically, Respondent emphasizes the
fact that in Cortés it sought a preliminary injunction
eighteen days before the general election and that on
this basis the court found the request for relief to be
untimely. Thus, it contends that the court’s further
discussion of the constitutionality of the poll watcher
residency requirement was dicta.
Additionally, Respondent argues that the court in
Cortés, like the Secretary here, gave short shrift to the
Commonwealth’s obligation to safeguard the
electorate from voter fraud, noting that “every voter in
a federal . . . election, whether he votes for a candidate
with little chance of winning or for one with little
The Caucus does not advocate in favor of finding the poll
watcher residency requirement unconstitutional.
34

75a
chance of losing, has a right under the Constitution to
have his vote fairly counted, without its being
distorted by fraudulently cast votes.” Respondent’s
Brief at 45 (citing Anderson v. United States, 417 U.S.
211, 227 (1974)). Respondent maintains that due to
the
distribution
of
voters
throughout
the
Commonwealth, the county residency requirement
makes it difficult for both political parties to identify
poll watchers in all precincts. Thus, it asserts that, in
the absence of poll watchers, “fraud can flourish.” Id.
at 46.
Respondent further argues that with
Pennsylvania moving to an entirely new election
regime under Act 77, with alleged increased
opportunities for ballot fraud and tampering, the need
for poll watchers is heightened.
Turning to the merits, initially, regarding
Respondent’s assertion that the District Court’s
discussion of the constitutionality of the poll watcher
residency requirement constitutes dicta because the
court found the claims there to be untimely, we note
that although that court pointed out that the emergent
nature of Respondent’s claims amounted to a “judicial
fire drill” based on their late filing, the court opined
further that the relief sought “would be inappropriate
for a number of reasons, not the least of which is that
at this late hour courts should not disrupt an
impending election ‘absent a powerful reason for doing
so.’” Cortés, 218 F.Supp.3d. at 405 (citation omitted).
The court then went on to analyze the merits of the
constitutional claims asserted and denied relief.
Accordingly, it appears the court made its decision on
multiple bases, including the merits as well as the
timing of the claims. Moreover, regardless of the
status of the District Court’s determination of the

76a
constitutional issues presented there, we find its
analysis persuasive and agree with its reasoning in
upholding the constitutionality of the poll watcher
residency requirement.
The “times, places and manner” of conducting
elections generally falls to the states. U.S. CONST. art.
I, § 4 (providing that “the Times, Places and Manner
of holding Elections…shall be prescribed in each State
by the Legislature thereof”).
Pennsylvania has
enacted a comprehensive code of election laws
pursuant to its authority to regulate its elections. The
General Assembly, in enacting its comprehensive
scheme, has required that any person serving as a poll
watcher for a particular candidate or party be a
resident of the county in which she serves in her
position. 25 P.S. § 2687(b).
This provision is a legislative enactment which
enjoys the presumption that the General Assembly did
not intend to violate constitutional norms, “in part
because there exists a judicial presumption that our
sister branches take seriously their constitutional
oaths.” Stilp v. Commonwealth, 905 A.2d 918, 938–39
(Pa. 2006); see also 1 Pa.C.S. § 1922(3). Accordingly, a
statute is presumed to be valid, and will be declared
unconstitutional only if it is shown to be “clearly,
palpably, and plainly [violative of] the Constitution.”
West Mifflin Area School District v. Zahorchak, 4 A.3d
1042, 1048 (Pa. 2010).
In analyzing whether a state election law violates
the constitution, courts must first examine the extent
to which a challenged regulation burdens one’s
constitutional rights. Burdick v. Takushi, 504 U.S.
428, 434 (1992). Upon determining the extent to

77a
which rights are burdened, courts can then apply the
appropriate level of scrutiny needed to examine the
propriety of the regulation. See id. (indicating that
“the rigorousness of our inquiry into the propriety of a
state election law depends upon the extent to which a
challenged regulation burdens First and Fourteenth
Amendment rights”).
Where a state election regulation imposes a “severe”
burden on a plaintiff’s right to vote, strict scrutiny
applies and requires that the regulation is “narrowly
drawn to advance a state interest of compelling
importance.” Id. When a state election law imposes
only “reasonable, nondiscriminatory restrictions,”
upon the constitutional rights of voters, an
intermediate level of scrutiny applies, and “the State’s
important regulatory interests are generally sufficient
to justify” the restrictions. See Id. (upholding
Hawaii’s ban on write-in voting in the primary where
doing so places a minimal burden on one’s voting right
and supports the state’s interest in supporting its
ballot access scheme). Where, however, the law does
not regulate a suspect classification (race, alienage, or
national origin) or burden a fundamental
constitutional right, such as the right to vote, the state
need only provide a rational basis for its imposition.
See Donatelli, 2 F.3d at 510 & 515.
In examining the constitutionality of the poll
watcher residency provision at issue here, we
conclude, as the District Court in Cortés concluded,
that it imposes no burden on one’s constitutional right
to vote and, accordingly, requires only a showing that
a rational basis exists to be upheld. In this regard, as
the District Court aptly noted, there is no individual
constitutional right to serve as a poll watcher; rather,

78a
the right to do so is conferred by statute. Cortés, 218
F.Supp.3d at 408. Additionally, courts have indicated
that “poll watching is not incidental to” the right of
free association and, thus, “has no distinct First
Amendment protection.” Cotz, 476 F.Supp.2d at 364.
Finally, poll watching does not implicate core political
speech. Cortés, 218 F.Supp.3d at 415.
As the poll watcher county residency requirement
does not burden one’s constitutional voting rights, the
regulation need only be shown to satisfy a rational
basis for its imposition. Again, as the District Court
aptly recounted, from its inception, Pennsylvania has
envisioned a county-based scheme for managing
elections within the Commonwealth.
Consistent
therewith, the Legislature has endeavored to allow
county election officials to oversee and manage their
portion of the state in all aspects of the election
process, including credentialing poll watchers. Given
that Pennsylvania’s General Assembly chose a countybased scheme for conducting elections, it is reasonable
that the Legislature would require poll watchers, who
serve within the various counties of the state, to be
residents of the counties in which they serve. Thus,
there is a clear rational basis for the county poll
watcher residency requirement, and we determine,
therefore, that this requirement should be upheld.
Respondent does not claim that poll watching
involves a fundamental constitutional right or that a
level of scrutiny other than rational basis needs to be
shown regarding the regulation of poll watcher
qualifications. Instead, Respondent claims that poll
watchers are vital to protect against voter fraud and
that because of the distribution of voters throughout
Pennsylvania, the residency requirement makes it

79a
difficult to identify poll watchers in all precincts.
While Respondent asserts the greater need for poll
watchers because of heightened election fraud
involving mail-in voting, these claims are
unsubstantiated and are specifically belied by the Act
35 report issued by the Secretary on August 1, 2020,
concerning mail in voting in the Primary Election,
finding:
[D]ata provided by the counties reinforces
numerous independent studies that conclude that
mail ballot fraud is exceedingly rare, and it
demonstrates that the errors that occurred [in the
Primary Election] accounted for a very small
fraction of the nearly 1.5 million absentee and
mail-in ballots requested and cast by voters.
Pennsylvania 2020 Primary Election Act 35 of 2020
Report at 39; Appendix to Petitioner’s Brief, Exhibit F.
Moreover, Respondent’s speculative claim that it is
“difficult” for both parties to fill poll watcher positions
in every precinct, even if true, is insufficient to
transform the Commonwealth’s uniform and
reasonable regulation requiring that poll watchers be
residents of the counties they serve into a non-rational
policy choice.
Based on the foregoing, we conclude that the poll
watcher residency requirement does not violate the
state or federal constitutions.35 Accordingly, we grant
the relief sought by Petitioner in their petition for
review and declare the poll watcher residency
Respondent has not asserted that the Pennsylvania
Constitution offers greater protection under the circumstances
presented. Thus, for purposes of our review, we treat them as coextensive.
35

80a
requirement set forth in Section 2687(b) of the
Election Code, 25 P.S. § 2687(b), to be constitutional.
IV. CONCLUSION
Based on our disposition of all of the claims set forth
above, we grant relief on the claims set forth in Counts
I, II, and V of the Democratic Party’s petition for
review as follows and hold that: (Count I) the Election
Code permits county boards of election to collect handdelivered mail-in ballots at locations other than their
office addresses including drop-boxes as indicated
herein, see supra. at 20 n. 15; (Count II) a three-day
extension of the absentee and mail-in ballot receivedby deadline is adopted such that ballots mailed by
voters via the United States Postal Service and
postmarked by 8:00 p.m. on Election Day, November
3, 2020, shall be counted if they are otherwise valid
and received by the county boards of election on or
before 5:00 p.m. on November 6, 2020; ballots received
within this period that lack a postmark or other proof
of mailing, or for which the postmark or other proof of
mailing is illegible, will be presumed to have been
mailed by Election Day unless a preponderance of the
evidence demonstrates that it was mailed after
Election Day; (Count V) the poll watcher residency
requirement set forth in Section 2687(b) of the
Election Code, 25 P.S. § 2687(b), is constitutional.
Also, for the reasons set forth herein, we deny the
relief sought in Count III and IV of the petition for
review.
Justices Todd, Dougherty, and Wecht join the
opinion.
Chief Justice Saylor and Justice Mundy join Parts
I, II, and III(C), (D) and (E) of the opinion.

81a
Justice Donohue joins Parts I, II, and III(A), III(C),
III(D) and III(E) of the opinion.
Justice Wecht files a concurring opinion.
Chief Justice Saylor files a concurring and
dissenting opinion in which Justice Mundy joins.
Justice Donohue files a concurring and dissenting
opinion in which Chief Justice Saylor and Justice
Mundy join Part II.

82a

APPENDIX B
[J-96-2020] [MO: Baer, J.]
IN THE SUPREME COURT OF
PENNSYLVANIA
MIDDLE DISTRICT
PENNSYLVANIA
DEMOCRATIC PARTY,
NILOFER NINA AHMAD,
DANILO BURGOS, AUSTIN
DAVIS, DWIGHT EVANS,
ISABELLA FITZGERALD,
EDWARD GAINEY,
MANUEL M. GUZMAN, JR.,
JORDAN A. HARRIS,
ARTHUR HAYWOOD,
MALCOLM KENYATTA,
PATTY H. KIM, STEPHEN
KINSEY, PETER
SCHWEYER, SHARIF
STREET, AND ANTHONY
H. WILLIAMS
v.
KATHY BOOCKVAR, IN
HER CAPACITY AS
SECRETARY OF THE
COMMONWEALTH OF
PENNSYLVANIA; ADAMS
COUNTY BOARD OF
ELECTIONS; ALLEGHENY

:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:

No. 133 MM 2020

SUBMITTED:
September 8,
2020

83a
COUNTY BOARD OF
ELECTIONS; ARMSTRONG
COUNTY BOARD OF
ELECTIONS; BEAVER
COUNTY BOARD OF
ELECTIONS; BEDFORD
COUNTY BOARD OF
ELECTIONS; BERKS
COUNTY BOARD OF
ELECTIONS; BLAIR
COUNTY BOARD OF
ELECTIONS; BRADFORD
COUNTY BOARD OF
ELECTIONS; BUCKS
COUNTY BOARD OF
ELECTIONS; BUTLER
COUNTY BOARD OF
ELECTIONS; CAMBRIA
COUNTY BOARD OF
ELECTIONS; CAMERON
COUNTY BOARD OF
ELECTIONS; CARBON
COUNTY BOARD OF
ELECTIONS; CENTRE
COUNTY BOARD OF
ELECTIONS; CHESTER
COUNTY BOARD OF
ELECTIONS; CLARION
COUNTY BOARD OF
ELECTIONS; CLEARFIELD
COUNTY BOARD OF
ELECTIONS; CLINTON
COUNTY BOARD OF
ELECTIONS; COLUMBIA

:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:

84a
COUNTY BOARD OF
ELECTIONS; CRAWFORD
COUNTY BOARD OF
ELECTIONS;
CUMBERLAND COUNTY
BOARD OF ELECTIONS;
DAUPHIN COUNTY
BOARD OF ELECTIONS;
DELAWARE COUNTY
BOARD OF ELECTIONS;
ELK COUNTY BOARD OF
ELECTIONS; ERIE
COUNTY BOARD OF
ELECTIONS; FAYETTE
COUNTY BOARD OF
ELECTIONS; FOREST
COUNTY BOARD OF
ELECTIONS; FRANKLIN
COUNTY BOARD OF
ELECTIONS; FULTON
COUNTY BOARD OF
ELECTIONS; GREENE
COUNTY BOARD OF
ELECTIONS;
HUNTINGDON COUNTY
BOARD OF ELECTIONS;
INDIANA COUNTY BOARD
OF ELECTIONS;
JEFFERSON COUNTY
BOARD OF ELECTIONS;
JUNIATA COUNTY BOARD
OF ELECTIONS;
LACKAWANNA COUNTY
BOARD OF ELECTIONS;

:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:

85a
LANCASTER COUNTY
BOARD OF ELECTIONS;
LAWRENCE COUNTY
BOARD OF ELECTIONS;
LEBANON COUNTY
BOARD OF ELECTIONS;
LEHIGH COUNTY BOARD
OF ELECTIONS; LUZERNE
COUNTY BOARD OF
ELECTIONS; LYCOMING
COUNTY BOARD OF
ELECTIONS; MCKEAN
COUNTY BOARD OF
ELECTIONS; MERCER
COUNTY BOARD OF
ELECTIONS; MIFFLIN
COUNTY BOARD OF
ELECTIONS; MONROE
COUNTY BOARD OF
ELECTIONS;
MONTGOMERY COUNTY
BOARD OF ELECTIONS;
MONTOUR COUNTY
BOARD OF ELECTIONS;
NORTHAMPTON COUNTY
BOARD OF ELECTIONS;
NORTHUMBERLAND
COUNTY BOARD OF
ELECTIONS; PERRY
COUNTY BOARD OF
ELECTIONS;
PHILADELPHIA COUNTY
BOARD OF ELECTIONS;
PIKE COUNTY BOARD OF

:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:

86a
ELECTIONS; POTTER
COUNTY BOARD OF
ELECTIONS; SCHUYLKILL
COUNTY BOARD OF
ELECTIONS; SNYDER
COUNTY BOARD OF
ELECTIONS; SOMERSET
COUNTY BOARD OF
ELECTIONS; SULLIVAN
COUNTY BOARD OF
ELECTIONS;
SUSQUEHANNA COUNTY
BOARD OF ELECTIONS;
TIOGA COUNTY BOARD
OF ELECTIONS; UNION
COUNTY BOARD OF
ELECTIONS; VENANGO
COUNTY BOARD OF
ELECTIONS; WARREN
COUNTY BOARD OF
ELECTIONS;
WASHINGTON COUNTY
BOARD OF ELECTIONS;
WAYNE COUNTY BOARD
OF ELECTIONS;
WESTMORELAND
COUNTY BOARD OF
ELECTIONS; WYOMING
COUNTY BOARD OF
ELECTIONS; AND YORK
COUNTY BOARD OF
ELECTIONS

:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:

87a
PETITION OF: KATHY
BOOCKVAR, IN HER
CAPACITY AS SECRETARY
OF THE
COMMONWEALTH OF
PENNSYLVANIA

:
:
:
:
:

CONCURRING OPINION
JUSTICE WECHT

DECIDED:
September 17, 2020

I join the learned Majority’s Opinion in full. “No
right is more precious in a free country than that of
having a voice in the election of those who make the
laws under which, as good citizens, we must live.
Other rights, even the most basic, are illusory if the
right to vote is undermined.”1 As the Supreme Court
of the United States has explained, the right to vote
comprises not just “the right of qualified voters within
a state to cast their ballots,” but also the right “to have
their ballots counted.”2 In our Commonwealth, the
franchise is guaranteed by the Free and Equal
Elections Clause of the Pennsylvania Constitution,
which commands: “Elections shall be free and equal;
and no power, civil or military, shall at any time
interfere to prevent the free exercise of the right of
suffrage.”3 The history of that clause, which predates
the United States Constitution and has no federal
1

Wesberry v. Sanders, 376 U.S. 1, 17 (1964).

United States v. Classic, 313 U.S. 299, 314, 315 (1941); accord
United States v. Mosley, 238 U.S. 383, 386 (1915).

2

3

PA. CONST. art. I, § V.

88a
counterpart, evinces the intent of its framers that it be
given “the broadest interpretation, one which governs
all aspects of the electoral process.”4
Expounding upon the contours of the guarantee of
free and equal suffrage contained within the
Constitution of Kentucky, which was modeled on our
own organic charter, the Kentucky Supreme Court
observed that, “when any substantial number of legal
voters are, from any cause, denied the right to vote,
the election is not free and equal, in the meaning of the
Constitution.”5
[T]his constitutional provision admits of no
evasions or exceptions. No amount of good
intention or good faith can be allowed to defeat its
purpose or its meaning. When the question
arises, the single inquiry will be: Was the election
free and equal, in the sense that no substantial
number of persons entitled to vote and who
offered to vote were denied the privilege?6
Although the conditions that might infringe the
franchise are too manifold to enumerate, when we are
satisfied that a violation of the right has occurred or is
likely to occur, “our Court possesses broad authority to
craft meaningful remedies when required.”7

4 League of Women Voters of Pa. v. Pa., 178 A.3d 737, 809 (Pa.
2018); see Winston v. Moore, 91 A. 520, 523 (Pa. 1914).
5

Wallbrecht v. Ingram, 175 S.W. 1022, 1026 (Ky. 1915).

6

Id. at 1027.

League of Women Voters, 178 A.3d at 822 (citing PA. CONST.
art. V, §§ 1, 2, 10); see Reynolds v. Sims, 377 U.S. 533, 566 (1964)
(“[A] denial of constitutionally protected rights demands judicial
protection; our oath and our office require no less of us.”).
7

89a
“Confidence in the integrity of our electoral
processes is essential to the functioning of our
participatory democracy.”8 To that end, we recognized
in League of Women Voters that “[a] broad and robust
interpretation” of the Free and Equal Elections Clause
could restore the public’s confidence in the
redistricting process by “guard[ing] against the risk of
unfairly rendering votes nugatory.”9 The same easily
could be said of an election scheduled in the wake—or
midst—of a natural disaster, civil unrest, or other
emergency, where systemic disruptions in basic
government services like mail delivery—upon which
the machinery of our election system relies more than
ever with the advent of broad mail-in voting—can be
demonstrated or reasonably anticipated.10 Indeed, the
“adverse consequences” occasioned by a dysfunctional
electoral process that threatens to disenfranchise a
broad swath of the electorate are no less pernicious
than those of partisan gerrymandering.
Left
unabated, each threatens to “discourag[e] voters from
participating in the electoral process because they
have come to believe” that their vote will not count
through no fault of their own.11
8

Purcell v. Gonzalez, 549 U.S. 1, 4 (2006) (per curiam).

9

League of Women Voters, 178 A.3d at 814.

10 See In re General Election-1985, 531 A.2d 836, 839 (Pa.
Cmwlth. 1987) (“To permit an election to be conducted where
members of the electorate could be deprived of their opportunity
to participate because of circumstances beyond their control . . .
would be inconsistent with the purpose of the election laws.”).

League of Women Voters, 178 A.3d at 814; cf. Working Families
Party v. Commonwealth, 209 A.3d 270, 306–07 (Pa. 2019) (Wecht,
J., concurring and dissenting) (“The Free and Equal Elections
Clause is compromised where the regulatory approach adopted

11

90a
In determining whether present systemic
disruptions in government services are welldocumented in this Commonwealth, we need look no
further than the recent Congressional testimony of
Postmaster General Louis DeJoy. Appearing before
committees of the United States House and Senate,
DeJoy acknowledged that “[a] substantial portion of
[mail] delays are related to COVID.”12 Highlighting
the acute effects of the pandemic on mail delays within
Pennsylvania, DeJoy explained:
As the coronavirus cases throughout the country
have expanded it has had an impact on our
employee availability. And in the urban areas
that are hotspots—the averages don’t play out
what the real picture is like in areas like
Philadelphia, where employee availability is
significantly below normal run rates.13
Lacking any materially contradictory evidence, we
have no reason to doubt the accuracy of DeJoy’s
testimony on these points. While the Postal Service
may be able to prioritize election mail to mitigate these
concerns, they cannot alter the laws of time and space.
The extraordinary circumstances under which this
year’s quadrennial presidential election must be
by the legislature has the well-documented effect of . . .
depressing voter enthusiasm and participation.”).
12 Examining the Finances and Operations of the United States
Postal Service During COVID-19 and Upcoming Elections:
Hearing Before the S. Homeland Security Comm., 116th Cong.
(Aug. 21, 2020).

Protecting the Timely Delivery of Mail, Medicine, and Mail-in
Ballots: Hearing Before the H. Oversight & Gov’t Reform Comm.,
116th Cong. (Aug. 24, 2020).
13

91a
contested manifestly justify an equitable remedy
modifying the received-by deadline for absentee and
mail-in ballots to account for these exigencies and to
ensure that no unnecessary impediments to each
citizen’s exercise of the franchise be interposed that
reasonably can be avoided. Having determined that
the convergence of a once-in-a-century pandemic and
unprecedented operational delays in United States
Postal Service delivery capacity threatens to
undermine the integrity of our general election, this
force majeure necessitates relief.
I endorse the Majority’s narrowly-tailored remedy,
which extends the received-by deadline by just three
days to compensate for projected mail-delivery delays
of similar duration.
Extrapolating from the
Department of State’s primary election data, that
timeframe should capture the vast majority of latearriving ballots that were deposited with the Postal
Service on or in the few days before Election Day. That
approach also will minimize the number of voters
denied the franchise simply for mailing their votes
based upon long-trusted, but presently unrealistic
expectations about the speed of the post, while
minimizing any subsequent delay in the tallying of
votes and avoiding any material disruption to the
sequence of events that follow in the weeks following
a national election.
While I join the Majority’s resolution of Count III, I
do so subject to the belief that it is limited to the
particular concerns litigated and the lack of any
proposal regarding a practicable manner of relieving
the problem alleged. In my view, today’s ruling should
be understood to extend no farther than to ballot
defects that are capable of objective assessment

92a
pursuant to uniform standards14—a qualification that
captures all of the defects Petitioners seek the
opportunity to cure in this case.
For example, the failure to “fill out, date and sign
the declaration printed on” the ballot return envelope,
as required by 25 P.S. § 3150.16(a), is a deficiency that
can be readily observed. Absent some proof that the
enforcement of such a uniform, neutrally applicable
election regulation will result in a constitutionally
intolerable ratio of rejected ballots, I detect no offense
to the Free and Equal Elections Clause. Moreover,
Petitioners propose only an amorphous standard that
would permit electors to cure “minor” defects and
omissions; they supply no judicially manageable
criteria for distinguishing “minor” defects from
“major” ones that could be adopted on a statewide
basis, nor do they propose a process to facilitate the
opportunity to cure that they seek that can be
implemented and fairly administered in every voting
district in the Commonwealth in the weeks between
now and the general election. So long as the Secretary
and the county boards of elections provide electors
with adequate instructions for completing the
declaration of the elector—including conspicuous
warnings regarding the consequences for failing
strictly to adhere—pre-deprivation notice is
unnecessary.
14 See PA. CONST. art. VII, § 6 (“All laws regulating the holding
of elections by the citizens . . . shall be uniform throughout the
State.”); Kuznik v. Westmoreland Cty. Bd. of Comm’rs, 902 A.2d
476, 490 (Pa. 2006) (“We have held that ‘to be uniform in the
constitutional sense . . . a law [regulating the holding of elections]
must treat all persons in the same circumstances alike.’”)
(quoting Kerns v. Kane, 69 A.2d 383, 393 (Pa. 1949)).

93a
But I view these issues as distinct from
circumstances in which a ballot’s validity turns on
subjective assessments, such as signature mismatches
assessed by poll workers with no training or expertise
in matching signatures. The enforcement of such
requirements presents risks of inconsistency and
arbitrariness that may implicate constitutional
guarantees not raised in this case, including due
process and equal protection principles. Signature
comparison is a process fraught with the risk of error
and inconsistent application, especially when
conducted by lay people.15 While this case offers no
challenge to such inherently subjective bases for
disqualifying ballots, I do not view today’s Opinion as
foreclosing the possibility of relief in a future case
seeking the opportunity to address circumstances in
which a subjective, lay assessment of voter
requirements as to which reasonable minds might
differ stands between the elector and the tabulating
machine.
We would not write on a blank slate in this regard.
These concerns have been recognized by numerous
tribunals in recent years, and various courts have
granted relief on similar grounds, including three
federal courts in the last few weeks alone.16 Those
Cf. United States v. Starzecpyzel, 880 F.Supp. 1027, 1046
(S.D.N.Y. 1995) (noting the risk of “natural variations” in
handwriting and citing factors such as “disease, intoxication and
the passage of time,” and citing a putative handwriting expert as
observing that “[s]ome people have a lot of individuality present
in their writing and other people do not”).

15

See, e.g., Ariz. Dem. Party v. Hobbs, CV-20-01143-PHX-DLR (D.
Ariz. Sept. 10, 2020); Richardson v. Tex. Sec. of State, SA-19-cv00963-OLG (W.D. Tex. Sept. 8, 2020); Frederick v. Lawson, 1:1916

94a
courts have found that the administrative burden of a
notice-and-cure remedy is outweighed by the threat to
the fundamental rights of voters whose ballots
otherwise would not be counted.
While one might hope that the General Assembly
would revisit the issue and consider furnishing such a
procedure on its own initiative, this Court has the
prerogative to address this problem if it proves worthy
upon closer examination. As a “state court with the

cv-01959-SEB-MDJ, ___ F. Supp. 3d ___, 2020 WL 4882696 (S.D.
Ind. Aug. 20, 2020); see also League of Un. Latin Am. Citizens of
Iowa v. Pate, Polk Cty. CVCV056403, 2018 WL 3946147, at *1
(Iowa Aug. 10, 2018) (enjoining use of signature-matching
provisions in Iowa’s Election Code); Martin v. Kemp, 341 F. Supp.
3d 1326 (N.D. Ga. 2018) (enjoining enforcement of Georgia
statute permitting rejection of absentee ballots and ballot
applications due to alleged signature mismatch), emergency
motion for stay of injunction pending appeal denied, Georgia
Muslim Voter Project v. Kemp, 918 F.3d 1262 (11th Cir. 2019);
Saucedo v. Gardner, 335 F. Supp. 3d 202, 222 (D. N.H. 2018)
(holding that New Hampshire’s signature-match requirement for
absentee ballots was facially unconstitutional under the
Fourteenth Amendment); Florida Dem. Party v. Detzner,
4:16cv607-MW/CAS, 2016 WL 6090943, at *9 (N.D. Fla. Oct. 16,
2016) (striking down Florida’s mail-in ballot signature match law
as violative of the Fourteenth Amendment); Zessar v. Helander,
05 C 1917, 2006 WL 642646, at *10 (N.D. Ill. 2006) (finding that
the Illinois Election Code provisions requiring signature
comparisons on absentee ballots violated voters’ due process
rights); La Follette v. Padilla, CPF-17-515931, 2018 WL 3953766,
at *3 (Cal. Super. Ct. Mar. 5, 2018) (holding that California
Election Code ballot signature-mismatch provision facially
violates due process); cf. Susie Armitage, Handwriting Disputes
Cause Headaches for Some Absentee Voters, ProPublica (Nov. 5,
2018), www.propublica.org/article/handwriting-disputes-causeheadaches-for-some-absentee-voters (discussing legal challenges
to signature-match laws).

95a
power to assure uniformity,” we have the authority,
and indeed the obligation, to direct the canvassing of
absentee and mail-in ballots in a manner that satisfies
“the rudimentary requirements of equal treatment
and fundamental fairness” when we find a palpable
failure to meet those constitutional thresholds.17
Regardless, Petitioners do not bring a discrete
challenge to the Commonwealth’s prescribed
processes for examining the validity of signatures on
ballot envelopes, so resolution of that question must
wait.18
Turning finally to Count IV, I agree wholeheartedly
with the Majority’s analysis. I write separately to
underscore that this case illustrates most
consequentially the potential for mischief, albeit wellmeaning, when we are called upon to question the
“true” meaning of the General Assembly’s contextually
ambiguous use of the word “shall.” In my view, there
are times when this Court has done so gratuitously.
But far more frequently, this unfortunate
circumstance is foisted upon us by the choices made by

17

Bush v. Gore, 531 U.S. 98, 109 (2000) (per curiam).

18 During the pendency of this appeal, Secretary Boockvar issued
a guidance document that, in furtherance of “consistency across
the 67 counties,” instructs election officials that “[t]he
Pennsylvania Election Code does not authorize the county board
of elections to set aside returned absentee or mail-in ballots based
solely on signature analysis by the county board of elections.”
Guidance Concerning Examination of Absentee and Mail-In
Ballot
Return
Envelopes
at
3
(Sept.
11,
2020)
www.dos.pa.gov/VotingElections/OtherServicesEvents/Documen
ts/Examination%20of%20Absentee%20and%20Mail-In%20Ballo
t%20Return%20Envelopes.pdf.

96a
the General Assembly during the often tortuous
drafting process,
The difficulty inherent in that enterprise, and
concomitantly the risk that we will misconstrue
legislative intent, is clear. In searching for methods to
remove the guesswork from such situations,
Pennsylvania courts have labored mightily but in vain
to fashion a coherent organizing principle for
determining when the legislature meant “you may”
when it said “you must.”
For example, the Superior Court once suggested
that the distinction inheres in “the effect of noncompliance . . . . A provision is mandatory when failure
to follow it renders the proceedings to which it relates
illegal and void; it is directory when the failure to
follow it does not invalidate the proceedings.”19 But
where the court considers the consequences of a failure
to perform a task stated in mandatory language, this
distinction is nonsensical: we cannot gauge the effect
of non-compliance simply by asking what the effect of
non-compliance is. In Bell v. Powell, we proposed an
equally confounding alternative:
[Shall] may be construed to mean ‘may’ when no
right or benefit to any one depends on its
imperative use, when no advantage is lost, when
no right is destroyed, when no benefit is
sacrificed, either to the public or to any
individual, by giving it that construction, or when
it is absolutely necessary to prevent irreparable
mischief, or to construe a direction so that it shall
not interfere with vested rights, or conflict with
Borough of Pleasant Hills v. Carroll, 125 A.2d 466, 469 (Pa.
Super. 1956) (en banc) (emphasis in original).

19

97a
the proper exercise of power by either of the
fundamental branches of government. . . .20
This impenetrable passage suggests nothing to me so
much as that we are free to do whatever we want only
when what we do does not matter.
To be sure, there may be value in legislating in both
mandatory and directory terms. But no benefit is
served by, nor is there any excuse for, rendering the
distinction opaque with critical omissions, such as the
failure to specify a specific consequence for failing to
adhere to a particular mandate—especially where, as
in the case of naked ballots, the legislature did so for
closely related, if not constructively identical,
correlative statutory provisions.
The General
Assembly must endeavor always to distinguish
between what it intends to be mandatory and what
directory, in its words or by clear and necessary
inference. When it fails to do so, courts are left to bend
unclear texts toward whatever ends that they believe
to be consonant with legislative intent, but with little
or no contemporaneous insight into whether they have
done so successfully. When the General Assembly
does not choose its words carefully according to their
intended effect, it leaves courts with no choice but to
sharpen what the drafters made dull.
For this Court’s part, if we are to maintain a
principled approach to statutory interpretation that
comports with the mandate of our Statutory
Construction Act, if we are to maximize the likelihood
that we interpret statutes faithfully to the drafters’
intended effect, we must read mandatory language as
Commonwealth ex rel. Bell v. Powell, 94 A. 746, 748 (Pa. 1915)
(cleaned up).

20

98a
it appears, and we must recognize that a mandate
without consequence is no mandate at all. If the
result, at times, is that the Court imposes a more
doctrinaire result than the legislature intended, that
body has the tools at its disposal to ensure that the
same mistake does not recur.

99a

APPENDIX C
[J-96-2020] [MO: Baer, J.]
IN THE SUPREME COURT OF
PENNSYLVANIA
MIDDLE DISTRICT
PENNSYLVANIA
DEMOCRATIC PARTY,
NILOFER NINA AHMAD,
DANILO BURGOS, AUSTIN
DAVIS, DWIGHT EVANS,
ISABELLA FITZGERALD,
EDWARD GAINEY,
MANUEL M. GUZMAN, JR.,
JORDAN A. HARRIS,
ARTHUR HAYWOOD,
MALCOLM KENYATTA,
PATTY H. KIM, STEPHEN
KINSEY, PETER
SCHWEYER, SHARIF
STREET, AND ANTHONY
H. WILLIAMS
v.
KATHY BOOCKVAR, IN
HER CAPACITY AS
SECRETARY OF THE
COMMONWEALTH OF
PENNSYLVANIA; ADAMS
COUNTY BOARD OF
ELECTIONS; ALLEGHENY

:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:

No. 133 MM 2020

SUBMITTED:
September 8,
2020

100a
COUNTY BOARD OF
ELECTIONS; ARMSTRONG
COUNTY BOARD OF
ELECTIONS; BEAVER
COUNTY BOARD OF
ELECTIONS; BEDFORD
COUNTY BOARD OF
ELECTIONS; BERKS
COUNTY BOARD OF
ELECTIONS; BLAIR
COUNTY BOARD OF
ELECTIONS; BRADFORD
COUNTY BOARD OF
ELECTIONS; BUCKS
COUNTY BOARD OF
ELECTIONS; BUTLER
COUNTY BOARD OF
ELECTIONS; CAMBRIA
COUNTY BOARD OF
ELECTIONS; CAMERON
COUNTY BOARD OF
ELECTIONS; CARBON
COUNTY BOARD OF
ELECTIONS; CENTRE
COUNTY BOARD OF
ELECTIONS; CHESTER
COUNTY BOARD OF
ELECTIONS; CLARION
COUNTY BOARD OF
ELECTIONS; CLEARFIELD
COUNTY BOARD OF
ELECTIONS; CLINTON
COUNTY BOARD OF
ELECTIONS; COLUMBIA

:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:

101a
COUNTY BOARD OF
ELECTIONS; CRAWFORD
COUNTY BOARD OF
ELECTIONS;
CUMBERLAND COUNTY
BOARD OF ELECTIONS;
DAUPHIN COUNTY
BOARD OF ELECTIONS;
DELAWARE COUNTY
BOARD OF ELECTIONS;
ELK COUNTY BOARD OF
ELECTIONS; ERIE
COUNTY BOARD OF
ELECTIONS; FAYETTE
COUNTY BOARD OF
ELECTIONS; FOREST
COUNTY BOARD OF
ELECTIONS; FRANKLIN
COUNTY BOARD OF
ELECTIONS; FULTON
COUNTY BOARD OF
ELECTIONS; GREENE
COUNTY BOARD OF
ELECTIONS;
HUNTINGDON COUNTY
BOARD OF ELECTIONS;
INDIANA COUNTY BOARD
OF ELECTIONS;
JEFFERSON COUNTY
BOARD OF ELECTIONS;
JUNIATA COUNTY BOARD
OF ELECTIONS;
LACKAWANNA COUNTY
BOARD OF ELECTIONS;

:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:

102a
LANCASTER COUNTY
BOARD OF ELECTIONS;
LAWRENCE COUNTY
BOARD OF ELECTIONS;
LEBANON COUNTY
BOARD OF ELECTIONS;
LEHIGH COUNTY BOARD
OF ELECTIONS; LUZERNE
COUNTY BOARD OF
ELECTIONS; LYCOMING
COUNTY BOARD OF
ELECTIONS; MCKEAN
COUNTY BOARD OF
ELECTIONS; MERCER
COUNTY BOARD OF
ELECTIONS; MIFFLIN
COUNTY BOARD OF
ELECTIONS; MONROE
COUNTY BOARD OF
ELECTIONS;
MONTGOMERY COUNTY
BOARD OF ELECTIONS;
MONTOUR COUNTY
BOARD OF ELECTIONS;
NORTHAMPTON COUNTY
BOARD OF ELECTIONS;
NORTHUMBERLAND
COUNTY BOARD OF
ELECTIONS; PERRY
COUNTY BOARD OF
ELECTIONS;
PHILADELPHIA COUNTY
BOARD OF ELECTIONS;
PIKE COUNTY BOARD OF

:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:

103a
ELECTIONS; POTTER
COUNTY BOARD OF
ELECTIONS; SCHUYLKILL
COUNTY BOARD OF
ELECTIONS; SNYDER
COUNTY BOARD OF
ELECTIONS; SOMERSET
COUNTY BOARD OF
ELECTIONS; SULLIVAN
COUNTY BOARD OF
ELECTIONS;
SUSQUEHANNA COUNTY
BOARD OF ELECTIONS;
TIOGA COUNTY BOARD
OF ELECTIONS; UNION
COUNTY BOARD OF
ELECTIONS; VENANGO
COUNTY BOARD OF
ELECTIONS; WARREN
COUNTY BOARD OF
ELECTIONS;
WASHINGTON COUNTY
BOARD OF ELECTIONS;
WAYNE COUNTY BOARD
OF ELECTIONS;
WESTMORELAND
COUNTY BOARD OF
ELECTIONS; WYOMING
COUNTY BOARD OF
ELECTIONS; AND YORK
COUNTY BOARD OF
ELECTIONS

:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:

104a
PETITION OF: KATHY
BOOCKVAR, IN HER
CAPACITY AS SECRETARY
OF THE
COMMONWEALTH OF
PENNSYLVANIA

:
:
:
:
:
:

CONCURRING AND DISSENTING OPINION
JUSTICE DONOHUE

DECIDED:
September 17, 2020
I.

I join the Majority’s opinion as to Parts I, II, and
III(A), III(C), III(D) and III(E).
II.
With respect to Part III(B), I agree that Petitioners
are entitled to relief, but I distance myself from the
Majority’s analysis to reach this conclusion as well as
the specific relief granted. Petitioners base their
request for relief on the infringement of the rights
afforded by Article 1, Section 5 of the Pennsylvania
Constitution, our Free and Equal Elections Clause.1
In my mind, the issue must be framed as an as-applied
challenge, during the duration of the COVID-19 public
health crisis and current USPS service standards, to
the constitutionality of Sections 3150.12a(a) and
3150.16(c) of Act 77, which respectively set the last
Article I, Section 5 of the Pennsylvania Constitution provides
as follows:

1

Elections shall be free and equal; and no power,
civil or military, shall at any time interfere to
prevent the free exercise of the right of suffrage.
Pa. Const., art. 1, § 5.

105a
date on which voters may request mail-in ballots and
the deadline for when ballots must be received by
county boards of elections. With deference to my
learned colleagues, I believe that this issue should
have been decided in a case in this Court’s original
jurisdiction under Act 77, Michael Crossey et al, v.
Kathy Bookckvar, et al., No. 108 MM 2020, where the
claims likewise were based on the Free and Equal
Elections clause and in which this Court ordered the
creation of a complete evidentiary record to determine
whether the petitioners there had met their high
burden to prove the existence of a constitutional injury
entitling them to relief.
Despite invoking an as-applied constitutional
challenge in the present case, Petitioners and the
Secretary (as in Crossey) seek equitable relief in the
form of an order permitting non-compliance with the
received-by provision in Act 77 (Section 3150.16(c))
during the COVID-19 pandemic.
I am not as
comfortable as the Majority with the ability of this
Court to exercise equitable powers in election
matters.2 Because they are inherently political,
Section 3046 of the Election Code provides courts of common
pleas with authority, with some latitude, to make rulings on
Election Day to secure compliance with the election laws. 25 P.S.
§ 6046. Specifically, a judge or judges from each county will
remain in session on Election Day to “act as a committing
magistrate for any violation of the election laws; shall settle
summarily controversies that may arise with respect to the
conduct of the election; shall issue process, if necessary, to enforce
and secure compliance with the election laws; and shall decide
such other matters pertaining to the election as may be necessary
to carry out the intent of this act.” Id. The Commonwealth Court
relied on Section 3046 in deciding In re General Election-1985,
531 A.2d 836 (Pa. Commw. 1987) (in light of a flood occurring on

2

106a
elections are appropriately regulated by the political
branch. In re Guzzardi, 99 A.3d 381, 385 (Pa. 2014).
As such, out of respect for legislatures and for the sake
of regularity and orderliness in the election process,
the supreme courts of our sister states have routinely
held that courts cannot exercise equitable powers to
mitigate harsh results in derogation of legislative
requirements for strict compliance with electionrelated deadlines. Butts v. Bysiewicz, 5 A.3d 932, 947
(Conn. 2010) (“Equity only applies in the absence of a
specific statutory mandate.”); see also Martin v.
Secretary of State, 755 N.W.2d 153, 154 (Mich. 2008);
Smith v. Kiffmeyer, 721 N.W.2d 912, 914–15 (Minn.
2006); Andrews v. Secretary of State, 200 A.2d 650, 651
(Md. 1964). Following the leads of these courts, in
2014, this Court denied equitable relief to a litigant in
an election case, holding as follows:
[T]he judiciary should act with restraint, in the
election arena, subordinate to express statutory
directives. Subject to constitutional limitations,
the Pennsylvania General Assembly may require
such practices and procedures as it may deem
necessary to the orderly, fair, and efficient
administration
of
public
elections
in
Pennsylvania. At least where the Legislature has
attached specific consequences to particular
actions or omissions, Pennsylvania courts may

election day, the court of common pleas had the authority to
suspend voting in certain districts until the emergency was over),
appeal denied, 544 A.2d 963 (Pa. 1988).
The Majority relies on In re General Election-1985 to support our
broad equitable powers to act in this case despite the limitations
in Section 3046.

107a
not mitigate the legislatively prescribed outcome
through recourse to equity.
Guzzardi, 99 A.3d at 385.
The Court recently
reaffirmed our decision in Guzzardi. Reuther v.
Delaware Cty. Bureau of Elections, 205 A.3d 302, 308–
09 (Pa. 2019).
Without the availability of equitable relief, it is my
view that Petitioners are entitled to relief only in the
context of an as-applied constitutional challenge.
Specifically, Petitioners must prove that in light of the
existing circumstances, the short seven-day timeframe
established by Sections 3150.12a(a) and 3150.16(c) of
Act 77 provides insufficient time for a voter to request
a mail-in ballot (by October 27, 2020) and return it to
a county board of elections by the statutorily set
received-by date (8:00 p.m. on Election Day, November
3, 2020), so that the vote is counted. Such a
constitutional challenge requires a plain showing of
injury. “There is a presumption that lawfully enacted
legislation
is
constitutional.
Should
the
constitutionality of legislation be challenged, the
challenger must meet the burden of rebutting the
presumption of constitutionality by a clear, palpable
and plain demonstration that the statute violates a
constitutional provision.” Yocum v. Commw. of
Pennsylvania Gaming Control Bd., 161 A.3d 228, 238
(Pa. 2017).
In Crossey, the petitioners produced sufficient
evidence to meet this high “clear, palpable and plain”
burden of proof. Given the deadlines set for the
request of and subsequent return of ballots, considered
in light of the pandemic and current lagging USPS
service standards (which are highly unlikely to

108a
improve significantly before Election Day), the
evidence in Crossey established that there is a strong
likelihood that voters who wait until the last day to
apply for a mail-in or absentee ballot will be
disenfranchised, as their mail-in ballots will not be
delivered by Election Day and thus will not be counted.
Thus, the short seven-day window set forth in Sections
3150.12a(a) and 3150.16(c) of Act 77 constitutes an
interference with the free exercise of the right to vote
as guaranteed by our Free and Equal Elections
Clause. The evidentiary linchpin for establishing the
unconstitutionality of the seven-day time frame was
correspondence from Thomas J. Marshall, General
Counsel and Executive Vice President for the USPS,
to Secretary Boockvar dated July 29, 2020 advising
that the current service standards for delivery of First
Class Mail is two to five days, and cautioning that
Pennsylvania’s application and return deadlines for
mail-in ballots are such that despite prompt actions by
voters, the ballots may “not be returned in time to be
counted.” The letter was accepted into evidence in
Crossey and was further supported by the testimony of
the Deputy Postmaster at the time the correspondence
was crafted.
The existence of the constitutional injury suffered
by virtue of adherence to the statutory deadlines for
request and return of ballots is illustrated in the
following chart, which incorporates the fact of receipt
by the board of elections of an application on the
statutory deadline of October 27, 2020. It also
assumes that the application is immediately processed
and a ballot mailed to the voter within forty-eight

109a
hours of receipt of the application.3 I further take into
account that mail is processed by USPS but not
delivered on Sundays. All computations are based on
the use of First-Class Mail:

In this regard, we note that 25 P.S. § 3150.15 provides that
county boards of elections must deliver the ballots to the voters
within forty-eight hours after approval of the application. See 25
P.S. § 3150.15 (“As additional applications are received and
approved, the board shall deliver or mail official mail-in ballots
to the additional electors within 48 hours.”).

3

110a

DATE
BALLOT
MAILED
BY
BOARD

DELIVERY
TIME (in
days)

DATE
BALLOT IS
RECEIVED
BY VOTER

DATE
BALLOT
IS
MAILED
BACK BY
VOTER
Saturday,
10/31/2020

Thursday,
10/29/2020

2

Saturday,
10/31/2020

Saturday,
10/31/2020

Monday,
11/2/2020

DELIVERY
TIME (in
days)

DATE
BALLOT IS
RECEIVED
BY
BOARD

BALLOT
RECEIVED
IN TIME
TO BE
COUNTED?

2

Monday,
11/2/2020

YES

3

Tuesday,
11/3/2020

YES

4

Wednesday,
11/4/2020

NO

5

Thursday,
11/5/2020

NO

2

Wednesday,
11/4/2020

NO

3

Thursday,
11/5/2020

NO

4

Friday,
11/6/2020

NO

111a

Monday,
11/2/2020

3–4

Monday,
11/2/2020

Monday,
11/2/2020

5

Tuesday,
11/3/2020

Monday,
11/2/2020

5

Saturday,
11/7/2020

NO

2

Wednesday,
11/4/2020

NO

3

Thursday,
11/5/2020

NO

4

Friday,
11/6/2020

NO

5

Saturday,
11/7/2020

NO

2–5

(After
Election
Day)

NO

2–5

(After
Election
Day)

NO

2–5

(After
Election
Day)

NO

Tuesday,
11/3/2020

Wednesday,
11/4/2020

112a
The only way the current statutory framework
works is if the ballot is delivered by USPS in two days,
the voter immediately returns the ballot, and it is
received by the board of elections within three days.
All other voters who comply with the statutory
framework are disenfranchised, even though they
complied with the statute.
The role of the judiciary when a meritorious
constitutional challenge is brought “includes the
obligation to vindicate” the constitutional rights at
issue, and in doing so courts have wide latitude to craft
an appropriate remedy.” Robinson Twp. v.
Commonwealth, 83 A.3d 901, 953 (Pa. 2013); see also
League of Women Voters of Pa. v. Commonwealth, 178
A.3d 737, 793 (Pa. 2018) (“The Court possesses broad
authority to craft meaningful remedies [for
constitutional violations] when required.”). Where, as
here, “a legislatively unforeseen constitutional
problem requires modification of a statutory provision
as applied,” the United States Supreme Court has
admonished courts to look to legislative intent when
devising a remedy. See United States v. Booker, 543
U.S. 220, 246–47 (2005) (after ruling that federal
sentencing statute that made guidelines mandatory
was unconstitutional, the Court made an effort to
determine what “‘Congress would have intended’ in
light of the Court’s constitutional holding.” Id. at 246–
47.
In Crossey (and in the present case), Petitioners
recommend that the “received by” date be moved from
Election Day to seven days after Election Day, so long
as the mailing is postmarked by Election Day. In
Crossey (and here), Secretary Boockvar believes that
moving the received-by day forward by three days is

113a
sufficient, and that Petitioners’ longer time period
would in fact interfere with other important functions
that must take place after Election Day. In crafting a
remedy for an as-applied constitutional violation, a
court’s duty is to effectuate the intent of the General
Assembly to the extent possible and to otherwise not
disrupt the statutory scheme. In light of these
principles, I do not believe that either of the parties’
recommended remedies provide the appropriate
solution.
There is no reasonable reading of the statute that
would lead to the conclusion that the Tuesday before
Election Day was of any institutional importance.
Instead, the clear legislative intent was that all ballots
were to be cast by 8:00 p.m. on Election Day, the
termination of the balloting process. It cannot be
viewed as a coincidence that the closing of the polls
terminating in-person voting and the receipt of mailin ballots were designated by the statute to be the
same. The last date on which applications for ballots
would be accepted was tied to an assumption that a
timely vote could be cast before the only meaningful
milestone, Election Day. As a result, the remedy to
best effectuate the legislative intent before the
intervening circumstances is to move back, i.e., make
earlier, the final date on which applications for mailin ballots may be submitted to the county boards of
elections. I would accept Secretary Boockvar’s opinion
that three additional days will substantially correct
the problem. However, moving back by three days the
deadline for the receipt of applications by the boards
of elections would result in that deadline falling on
Saturday. Instead, to reflect normal business days,
the deadline for receipt of the application by the

114a
boards of election should be moved to Friday, October
23, 2020. The received-by date for the ballot by the
boards of elections, Election Day by 8:00 p.m., should
remain unchanged.
For comparison, the following chart illustrates the
new deadlines interfaced with current USPS delivery
standards:

115a

DATE
BALLOT
MAILED
BY
BOARD

DELIVERY
TIME (in
days)

DATE
BALLOT
RECEIVED
BY VOTER

Wednesday,
10/28/2020
Monday
10/26/2020

DATE
BALLOT IS
MAILED
BY VOTER

Wednesday,
10/28/2020

DELIVERY
TIME (in
days)

DATE
BALLOT
RECEIVED
BY
BOARD

BALLOT
RECEIVED
IN TIME
TO BE
COUNTED?

2

Friday,
10/30/2020

YES

3

Saturday,
10/31/2020

YES

4

Monday
11/2/2020

YES

5

Monday
11/2/2020

YES

2

Saturday,
10/31/2020

YES

3

Monday,
11/2/2020

YES

4

Monday,
11/2/2020

YES

2

Wednesday,
10/28/2020

3

Thursday,
10/29/2020

Thursday,
10/29/2020

116a

Thursday,
10/29/2020
Friday,
10/30/2020
Friday,
10/30/2020

5

Tuesday,
11/3/2020

YES

2

Monday,
11/2/2020

YES

3

Monday,
11/2/2020

YES

4

Tuesday,
11/3/2020

YES

5

Wednesday,
11/4/2020

NO

2

Monday,
11/2/2020

YES

3

Tuesday,
11/3/2020

YES

4

Wednesday,
11/4/2020

NO

5

Thursday,
11/5/2020

NO

4
Friday,
10/30/2020
Saturday
10/31/2020
5

Saturday,
10/31/2020

117a

Saturday,
10/31/2020

Monday,
11/2/2020

2–5

(After
Election
Day)

NO

118a
As with the previous illustration, I assume that
county boards of elections will process and send out
the ballots within forty-eight hours of receipt.
Whether this is possible, likely or impossible is
apparently immaterial, since Secretary Boockvar,
with knowledge of the capacities of the county boards
of elections, recommended a three-day extension, so I
assume that it accounted for this factor.
As required when remedying an as-applied
constitutional defect, this remedy is the least
disruptive to the enacted statutory scheme. The
problem to be remedied here is that the seven-day
period to complete the mail-in vote process has been
rendered unworkable by the current extraordinary
circumstances. I have no doubt that the statute was
intended to accommodate the realities as they existed
when Act 77 was enacted. It is unconstitutional as
applied to the November 2020 general election because
of current realities.
For these reasons, in connection with the November
2020 general election only, the deadline for requesting
a ballot should be moved to Friday, October 23, 2020.4
To the extent that the non-severability clause in Section 11 of
Act 77, 1 Pa.C.S. § 1925 is enforceable, I do not view the election
specific remedies at issue here as-applied constitutional violation
as triggering the draconian consequence. In the context of the
COVID-19 pandemic, applying the non-severability provision to
void Act 77 in its entirety would itself be unconstitutional, as it
would disenfranchise a massive number of Pennsylvanians from
the right to vote in the upcoming election.

4

More broadly, in Stilp v. Commonwealth, 905 A.2d 918, 978 (Pa.
2006), this Court declined to apply an identically worded nonseverability provision, id. at 973, refusing to allow the General
Assembly to “dictate the effect of a judicial finding that a
provision in an act is ‘invalid.’” Id. at 976. Here, as in Stilp, Act

119a
The legislative choice of Election Day at 8:00 p.m.
should remain intact.
In summary, I agree with the Majority that the
received-by date for ballot applications in light of the
deadline for submission of ballots to the county boards
of
election
is
unworkable
under
current
circumstances. I dissent from the invocation of
equitable powers to craft a remedy. In my view, this
issue should have been decided on the evidentiary
record developed in Crossey based on the analytical
framework for an as-applied challenge to the
constitutionality of the statutory provisions as
violative of Article 1, Section 5 of our Constitution,
with the remedy crafted based upon the legislative
intent in enacting the circumstantially defective
statutes.
Chief Justice Saylor and Justice Mundy join Part II
of this concurring and dissenting opinion.

77’s boilerplate non-severability provision “sets forth no standard
for measuring non-severability, but instead simply purports to
dictate to the courts how they must decide severability.” Id. at
973.

120a

APPENDIX D
[J-96-2020][M.O. - Baer, J.]
IN THE SUPREME COURT OF
PENNSYLVANIA
MIDDLE DISTRICT
PENNSYLVANIA
DEMOCRATIC PARTY,
NILOFER NINA AHMAD,
DANILO BURGOS, AUSTIN
DAVIS, DWIGHT EVANS,
ISABELLA FITZGERALD,
EDWARD GAINEY,
MANUEL M. GUZMAN, JR.,
JORDAN A. HARRIS,
ARTHUR HAYWOOD,
MALCOLM KENYATTA,
PATTY H. KIM, STEPHEN
KINSEY, PETER
SCHWEYER, SHARIF
STREET, AND ANTHONY
H. WILLIAMS
v.
KATHY BOOCKVAR, IN
HER CAPACITY AS
SECRETARY OF THE
COMMONWEALTH OF
PENNSYLVANIA; ADAMS
COUNTY BOARD OF
ELECTIONS; ALLEGHENY

:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:

No. 133 MM 2020

SUBMITTED:
September 8,
2020

121a
COUNTY BOARD OF
ELECTIONS; ARMSTRONG
COUNTY BOARD OF
ELECTIONS; BEAVER
COUNTY BOARD OF
ELECTIONS; BEDFORD
COUNTY BOARD OF
ELECTIONS; BERKS
COUNTY BOARD OF
ELECTIONS; BLAIR
COUNTY BOARD OF
ELECTIONS; BRADFORD
COUNTY BOARD OF
ELECTIONS; BUCKS
COUNTY BOARD OF
ELECTIONS; BUTLER
COUNTY BOARD OF
ELECTIONS; CAMBRIA
COUNTY BOARD OF
ELECTIONS; CAMERON
COUNTY BOARD OF
ELECTIONS; CARBON
COUNTY BOARD OF
ELECTIONS; CENTRE
COUNTY BOARD OF
ELECTIONS; CHESTER
COUNTY BOARD OF
ELECTIONS; CLARION
COUNTY BOARD OF
ELECTIONS; CLEARFIELD
COUNTY BOARD OF
ELECTIONS; CLINTON
COUNTY BOARD OF
ELECTIONS; COLUMBIA

:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:

122a
COUNTY BOARD OF
ELECTIONS; CRAWFORD
COUNTY BOARD OF
ELECTIONS;
CUMBERLAND COUNTY
BOARD OF ELECTIONS;
DAUPHIN COUNTY
BOARD OF ELECTIONS;
DELAWARE COUNTY
BOARD OF ELECTIONS;
ELK COUNTY BOARD OF
ELECTIONS; ERIE
COUNTY BOARD OF
ELECTIONS; FAYETTE
COUNTY BOARD OF
ELECTIONS; FOREST
COUNTY BOARD OF
ELECTIONS; FRANKLIN
COUNTY BOARD OF
ELECTIONS; FULTON
COUNTY BOARD OF
ELECTIONS; GREENE
COUNTY BOARD OF
ELECTIONS;
HUNTINGDON COUNTY
BOARD OF ELECTIONS;
INDIANA COUNTY BOARD
OF ELECTIONS;
JEFFERSON COUNTY
BOARD OF ELECTIONS;
JUNIATA COUNTY BOARD
OF ELECTIONS;
LACKAWANNA COUNTY
BOARD OF ELECTIONS;

:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:

123a
LANCASTER COUNTY
BOARD OF ELECTIONS;
LAWRENCE COUNTY
BOARD OF ELECTIONS;
LEBANON COUNTY
BOARD OF ELECTIONS;
LEHIGH COUNTY BOARD
OF ELECTIONS; LUZERNE
COUNTY BOARD OF
ELECTIONS; LYCOMING
COUNTY BOARD OF
ELECTIONS; MCKEAN
COUNTY BOARD OF
ELECTIONS; MERCER
COUNTY BOARD OF
ELECTIONS; MIFFLIN
COUNTY BOARD OF
ELECTIONS; MONROE
COUNTY BOARD OF
ELECTIONS;
MONTGOMERY COUNTY
BOARD OF ELECTIONS;
MONTOUR COUNTY
BOARD OF ELECTIONS;
NORTHAMPTON COUNTY
BOARD OF ELECTIONS;
NORTHUMBERLAND
COUNTY BOARD OF
ELECTIONS; PERRY
COUNTY BOARD OF
ELECTIONS;
PHILADELPHIA COUNTY
BOARD OF ELECTIONS;
PIKE COUNTY BOARD OF

:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:

124a
ELECTIONS; POTTER
COUNTY BOARD OF
ELECTIONS; SCHUYLKILL
COUNTY BOARD OF
ELECTIONS; SNYDER
COUNTY BOARD OF
ELECTIONS; SOMERSET
COUNTY BOARD OF
ELECTIONS; SULLIVAN
COUNTY BOARD OF
ELECTIONS;
SUSQUEHANNA COUNTY
BOARD OF ELECTIONS;
TIOGA COUNTY BOARD
OF ELECTIONS; UNION
COUNTY BOARD OF
ELECTIONS; VENANGO
COUNTY BOARD OF
ELECTIONS; WARREN
COUNTY BOARD OF
ELECTIONS;
WASHINGTON COUNTY
BOARD OF ELECTIONS;
WAYNE COUNTY BOARD
OF ELECTIONS;
WESTMORELAND
COUNTY BOARD OF
ELECTIONS; WYOMING
COUNTY BOARD OF
ELECTIONS; AND YORK
COUNTY BOARD OF
ELECTIONS

:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:

125a
PETITION OF: KATHY
BOOCKVAR, IN HER
CAPACITY AS SECRETARY
OF THE
COMMONWEALTH OF
PENNSYLVANIA

:
:
:
:
:

CONCURRING AND DISSENTING OPINION
CHIEF JUSTICE SAYLOR

DECIDED:
September 17, 2020

I join Parts I, II, and III(C), (D) and (E) of the
majority opinion, and I respectfully dissent relative to
Parts III(A) and (B), concerning the approval of
unmanned drop boxes and the extension of the
deadline for receiving mail-in ballots.
With regard to drop boxes, I agree with Respondent
and the Caucus that the statutory option for a voter to
deliver a mail-in ballot “in person to said county board
of election” contemplates in-person delivery to a
manned, office location. 25 P.S. §3150.16(a). Although
another provision of the Election Code contemplates
receipt of “ballot boxes and returns . . . in such other
place as has been designated by the board” on Election
Day, id. §3151, no analogous provision applies to the
submission by voters of individual ballots. Moreover,
the legislative policy to restrain aggregated handling
of mail-in ballots by third parties is manifest, see, e.g.,
id. §3150.16(a) (requiring the elector to mail or deliver
a ballot), and the enforceability of this policy is
weakened by the use of non-statutory, unmanned drop
boxes. This, to me, this suggests against a permissive
interpretation of the Election Code.

126a
Relative to the deadline for receiving mail-in ballots,
I join Part II of Justice Donohue’s concurring and
dissenting opinion, as this most closely hews to the
express legislative intent that the election be
concluded by 8:00 p.m. on election night.
Finally, although the majority decision appears to
be designed to accommodate only ballots actually
mailed on Election Day or before, the majority does not
so much as require a postmark. Particularly in
combination with the allowance of drop boxes, this
substantially increases the likelihood of confusion, as
well as the possibility that votes will be cast after 8:00
p.m. on Election Day, thus greatly undermining a
pervading objective of the General Assembly.
Justice Mundy joins this concurring and dissenting
opinion.

127a

APPENDIX E
[J-96-2020]
IN THE SUPREME COURT OF
PENNSYLVANIA
MIDDLE DISTRICT
PENNSYLVANIA
DEMOCRATIC PARTY,
NILOFER NINA AHMAD,
DANILO BURGOS, AUSTIN
DAVIS, DWIGHT EVANS,
ISABELLA FITZGERALD,
EDWARD GAINEY,
MANUEL M. GUZMAN, JR.,
JORDAN A. HARRIS,
ARTHUR HAYWOOD,
MALCOLM KENYATTA,
PATTY H. KIM, STEPHEN
KINSEY, PETER
SCHWEYER, SHARIF
STREET, AND ANTHONY
H. WILLIAMS
v.
KATHY BOOCKVAR, IN
HER CAPACITY AS
SECRETARY OF THE
COMMONWEALTH OF
PENNSYLVANIA; ADAMS
COUNTY BOARD OF
ELECTIONS; ALLEGHENY

:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:

No. 133 MM 2020
Emergency
Applications for
Stay

128a
COUNTY BOARD OF
ELECTIONS; ARMSTRONG
COUNTY BOARD OF
ELECTIONS; BEAVER
COUNTY BOARD OF
ELECTIONS; BEDFORD
COUNTY BOARD OF
ELECTIONS; BERKS
COUNTY BOARD OF
ELECTIONS; BLAIR
COUNTY BOARD OF
ELECTIONS; BRADFORD
COUNTY BOARD OF
ELECTIONS; BUCKS
COUNTY BOARD OF
ELECTIONS; BUTLER
COUNTY BOARD OF
ELECTIONS; CAMBRIA
COUNTY BOARD OF
ELECTIONS; CAMERON
COUNTY BOARD OF
ELECTIONS; CARBON
COUNTY BOARD OF
ELECTIONS; CENTRE
COUNTY BOARD OF
ELECTIONS; CHESTER
COUNTY BOARD OF
ELECTIONS; CLARION
COUNTY BOARD OF
ELECTIONS; CLEARFIELD
COUNTY BOARD OF
ELECTIONS; CLINTON
COUNTY BOARD OF
ELECTIONS; COLUMBIA

:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:

129a
COUNTY BOARD OF
ELECTIONS; CRAWFORD
COUNTY BOARD OF
ELECTIONS;
CUMBERLAND COUNTY
BOARD OF ELECTIONS;
DAUPHIN COUNTY
BOARD OF ELECTIONS;
DELAWARE COUNTY
BOARD OF ELECTIONS;
ELK COUNTY BOARD OF
ELECTIONS; ERIE
COUNTY BOARD OF
ELECTIONS; FAYETTE
COUNTY BOARD OF
ELECTIONS; FOREST
COUNTY BOARD OF
ELECTIONS; FRANKLIN
COUNTY BOARD OF
ELECTIONS; FULTON
COUNTY BOARD OF
ELECTIONS; GREENE
COUNTY BOARD OF
ELECTIONS;
HUNTINGDON COUNTY
BOARD OF ELECTIONS;
INDIANA COUNTY BOARD
OF ELECTIONS;
JEFFERSON COUNTY
BOARD OF ELECTIONS;
JUNIATA COUNTY BOARD
OF ELECTIONS;
LACKAWANNA COUNTY
BOARD OF ELECTIONS;

:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:

130a
LANCASTER COUNTY
BOARD OF ELECTIONS;
LAWRENCE COUNTY
BOARD OF ELECTIONS;
LEBANON COUNTY
BOARD OF ELECTIONS;
LEHIGH COUNTY BOARD
OF ELECTIONS; LUZERNE
COUNTY BOARD OF
ELECTIONS; LYCOMING
COUNTY BOARD OF
ELECTIONS; MCKEAN
COUNTY BOARD OF
ELECTIONS; MERCER
COUNTY BOARD OF
ELECTIONS; MIFFLIN
COUNTY BOARD OF
ELECTIONS; MONROE
COUNTY BOARD OF
ELECTIONS;
MONTGOMERY COUNTY
BOARD OF ELECTIONS;
MONTOUR COUNTY
BOARD OF ELECTIONS;
NORTHAMPTON COUNTY
BOARD OF ELECTIONS;
NORTHUMBERLAND
COUNTY BOARD OF
ELECTIONS; PERRY
COUNTY BOARD OF
ELECTIONS;
PHILADELPHIA COUNTY
BOARD OF ELECTIONS;
PIKE COUNTY BOARD OF

:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:

131a
ELECTIONS; POTTER
COUNTY BOARD OF
ELECTIONS; SCHUYLKILL
COUNTY BOARD OF
ELECTIONS; SNYDER
COUNTY BOARD OF
ELECTIONS; SOMERSET
COUNTY BOARD OF
ELECTIONS; SULLIVAN
COUNTY BOARD OF
ELECTIONS;
SUSQUEHANNA COUNTY
BOARD OF ELECTIONS;
TIOGA COUNTY BOARD
OF ELECTIONS; UNION
COUNTY BOARD OF
ELECTIONS; VENANGO
COUNTY BOARD OF
ELECTIONS; WARREN
COUNTY BOARD OF
ELECTIONS;
WASHINGTON COUNTY
BOARD OF ELECTIONS;
WAYNE COUNTY BOARD
OF ELECTIONS;
WESTMORELAND
COUNTY BOARD OF
ELECTIONS; WYOMING
COUNTY BOARD OF
ELECTIONS; AND YORK
COUNTY BOARD OF
ELECTIONS

:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:

132a
PETITION OF: KATHY
BOOCKVAR, IN HER
CAPACITY AS SECRETARY
OF THE
COMMONWEALTH OF
PENNSYLVANIA
ORDER
PER CURIAM
AND NOW, this 24th day of September, 2020, the
Applications for Stay submitted in the above captioned
case are DENIED.
Justice Mundy files a dissenting statement.

133a

APPENDIX F
[J-96-2020]
IN THE SUPREME COURT OF
PENNSYLVANIA
MIDDLE DISTRICT
PENNSYLVANIA
DEMOCRATIC PARTY,
NILOFER NINA AHMAD,
DANILO BURGOS, AUSTIN
DAVIS, DWIGHT EVANS,
ISABELLA FITZGERALD,
EDWARD GAINEY,
MANUEL M. GUZMAN, JR.,
JORDAN A. HARRIS,
ARTHUR HAYWOOD,
MALCOLM KENYATTA,
PATTY H. KIM, STEPHEN
KINSEY, PETER
SCHWEYER, SHARIF
STREET, AND ANTHONY
H. WILLIAMS
v.
KATHY BOOCKVAR, IN
HER CAPACITY AS
SECRETARY OF THE
COMMONWEALTH OF
PENNSYLVANIA; ADAMS
COUNTY BOARD OF
ELECTIONS; ALLEGHENY

:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:

No. 133 MM 2020
Emergency
Applications to
Stay

134a
COUNTY BOARD OF
ELECTIONS; ARMSTRONG
COUNTY BOARD OF
ELECTIONS; BEAVER
COUNTY BOARD OF
ELECTIONS; BEDFORD
COUNTY BOARD OF
ELECTIONS; BERKS
COUNTY BOARD OF
ELECTIONS; BLAIR
COUNTY BOARD OF
ELECTIONS; BRADFORD
COUNTY BOARD OF
ELECTIONS; BUCKS
COUNTY BOARD OF
ELECTIONS; BUTLER
COUNTY BOARD OF
ELECTIONS; CAMBRIA
COUNTY BOARD OF
ELECTIONS; CAMERON
COUNTY BOARD OF
ELECTIONS; CARBON
COUNTY BOARD OF
ELECTIONS; CENTRE
COUNTY BOARD OF
ELECTIONS; CHESTER
COUNTY BOARD OF
ELECTIONS; CLARION
COUNTY BOARD OF
ELECTIONS; CLEARFIELD
COUNTY BOARD OF
ELECTIONS; CLINTON
COUNTY BOARD OF
ELECTIONS; COLUMBIA

:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:

135a
COUNTY BOARD OF
ELECTIONS; CRAWFORD
COUNTY BOARD OF
ELECTIONS;
CUMBERLAND COUNTY
BOARD OF ELECTIONS;
DAUPHIN COUNTY
BOARD OF ELECTIONS;
DELAWARE COUNTY
BOARD OF ELECTIONS;
ELK COUNTY BOARD OF
ELECTIONS; ERIE
COUNTY BOARD OF
ELECTIONS; FAYETTE
COUNTY BOARD OF
ELECTIONS; FOREST
COUNTY BOARD OF
ELECTIONS; FRANKLIN
COUNTY BOARD OF
ELECTIONS; FULTON
COUNTY BOARD OF
ELECTIONS; GREENE
COUNTY BOARD OF
ELECTIONS;
HUNTINGDON COUNTY
BOARD OF ELECTIONS;
INDIANA COUNTY BOARD
OF ELECTIONS;
JEFFERSON COUNTY
BOARD OF ELECTIONS;
JUNIATA COUNTY BOARD
OF ELECTIONS;
LACKAWANNA COUNTY
BOARD OF ELECTIONS;

:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:

136a
LANCASTER COUNTY
BOARD OF ELECTIONS;
LAWRENCE COUNTY
BOARD OF ELECTIONS;
LEBANON COUNTY
BOARD OF ELECTIONS;
LEHIGH COUNTY BOARD
OF ELECTIONS; LUZERNE
COUNTY BOARD OF
ELECTIONS; LYCOMING
COUNTY BOARD OF
ELECTIONS; MCKEAN
COUNTY BOARD OF
ELECTIONS; MERCER
COUNTY BOARD OF
ELECTIONS; MIFFLIN
COUNTY BOARD OF
ELECTIONS; MONROE
COUNTY BOARD OF
ELECTIONS;
MONTGOMERY COUNTY
BOARD OF ELECTIONS;
MONTOUR COUNTY
BOARD OF ELECTIONS;
NORTHAMPTON COUNTY
BOARD OF ELECTIONS;
NORTHUMBERLAND
COUNTY BOARD OF
ELECTIONS; PERRY
COUNTY BOARD OF
ELECTIONS;
PHILADELPHIA COUNTY
BOARD OF ELECTIONS;
PIKE COUNTY BOARD OF

:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:

137a
ELECTIONS; POTTER
COUNTY BOARD OF
ELECTIONS; SCHUYLKILL
COUNTY BOARD OF
ELECTIONS; SNYDER
COUNTY BOARD OF
ELECTIONS; SOMERSET
COUNTY BOARD OF
ELECTIONS; SULLIVAN
COUNTY BOARD OF
ELECTIONS;
SUSQUEHANNA COUNTY
BOARD OF ELECTIONS;
TIOGA COUNTY BOARD
OF ELECTIONS; UNION
COUNTY BOARD OF
ELECTIONS; VENANGO
COUNTY BOARD OF
ELECTIONS; WARREN
COUNTY BOARD OF
ELECTIONS;
WASHINGTON COUNTY
BOARD OF ELECTIONS;
WAYNE COUNTY BOARD
OF ELECTIONS;
WESTMORELAND
COUNTY BOARD OF
ELECTIONS; WYOMING
COUNTY BOARD OF
ELECTIONS; AND YORK
COUNTY BOARD OF
ELECTIONS

:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:
:

138a
PETITION OF: KATHY
BOOCKVAR, IN HER
CAPACITY AS SECRETARY
OF THE
COMMONWEALTH OF
PENNSYLVANIA
DISSENTING STATEMENT
JUSTICE MUNDY

FILED: September 24, 2020

In my view, Intervenors1 make a substantial case on
the merits that this Court should stay the portion of
our opinion extending the deadline for receipt of mailin ballots past 8:00 p.m. on November 3, 2020, Election
Day.2 In Pennsylvania Democratic Party v. Boockvar,
___ A.3d ___, 2020 WL 5554644 (Pa. 2020), a majority
of this Court held that all mail-in ballots postmarked
by 8:00 on Election Day, and received by 5:00 p.m.
November 6, 2020, even those lacking a postmark or
bearing an illegible postmark, would be counted. Id.
at *37. Without further explanation, the majority
qualified that such ballots “will be presumed to have
Intervenors refers to the Republican Party of Pennsylvania
and Joseph B. Scarnati III, President Pro Tempore, Jake
Corman, Majority Leader of the Pennsylvania Senate, Bryan
Cutler, Speaker of the Pennsylvania House of Representatives,
and Kerry Benninghoff, Majority Leader of the Pennsylvania
House of Representatives.

1

A stay may be granted where Petitioners, “make a substantial
case on the merits and show that without the stay, irreparable
injury will be suffered. Additionally, before granting a request for
a stay, the court must be satisfied the issuance of the stay will
not substantially harm other interested parties in the
proceedings and will not adversely affect the public interest.”
Maritrans G.P., Inc. v. Pepper, Hamilton & Scheetz, 573 A.2d
1001, 1003 (1990).

2

139a
been mailed by Election Day unless a preponderance
of the evidence demonstrates that it was mailed after
Election Day.”
Id.
The Republican Party of
Pennsylvania Intervenors argue that virtually no
evidence exists to overcome such a presumption, and
“the Court’s presumption opens the door to illegally
and untimely cast or mailed ballots being counted in,
and tainting the results of, the imminent general
election in which millions of Pennsylvanians will
exercise their right to vote.” Republican Party of
Pennsylvania Application for Partial Stay at 4.
Intervenors assert that there is a substantial
likelihood that they will be successful on the merits of
the stay application and writ of certiorari to be filed in
the United States Supreme Court.
Citing to
Republican Nat’l Comm. v. Democratic Nat’l Comm.,
140 S. Ct. 1205 (2020), Intervenors note that the
United States Supreme Court stayed a Wisconsin
Supreme Court judgment and held that “[e]xtending
the date by which ballots may be cast by voters after
the scheduled election day fundamentally alters the
nature of the election.” Id. at 1207. It is reasonable
that the United States Supreme Court may view this
Court’s presumption regarding ballots lacking a
postmark or bearing an illegible postmark in the same
light. As a result, I would grant a stay to preserve the
public confidence in the integrity of the upcoming
election.

140a

APPENDIX G
IN THE COMMONWEALTH COURT OF
PENNSYLVANIA
Michael Crossey, Dwayne Thomas,
Irvin Weinreich, Brenda
Weinreich, and the Pennsylvania
Alliance for Retired Americans,
Petitioners
v.
Kathy Boockvar, Secretary of the
Commonwealth, and Jessica
Mathis Director of the Bureau of
Election Services and Notaries,
Respondents

:
:
:
:
:
:
: 266 M.D. 2020
:
:
:
:
:

RECOMMENDED FINDINGS OF FACT
AND CONCLUSIONS OF LAW
I. Introduction
On April 22, 2020, the Pennsylvania Alliance for
Retired Americans and four individuals, two of whom
are members of the Alliance (collectively, Petitioners),
filed a Petition for Declaratory and Injunctive Relief
(Petition) against the Secretary of the Commonwealth,
Kathy Boockvar, and the Director of the Bureau of
Election Services and Notaries, Jessica Mathis
(collectively, Secretary) in this Court. Anticipating
disruptions to the June 2, 2020, primary election from
the COVID-19 pandemic, the Petition raised, inter
alia, constitutional claims about provisions of the

141a
Pennsylvania Election Code (Election Code)1 related
to mail-in ballots, which is a method of voting that the
General Assembly added to the Election Code by the
Act of October 31, 2019, P.L. 552, No. 77 (Act 77).
Petitioners filed a May 8, 2020, Emergency
Application for Special Relief in the Nature of a
Preliminary Injunction and for Expedited Review
(Preliminary Injunction Application).
This Court held a pre-hearing telephone conference
call on the Preliminary Injunction Application, during
which the Secretary confirmed her intention to
challenge this Court’s jurisdiction over the Petition in
her preliminary objections. The parties agreed to
bifurcate the issue of jurisdiction over the Preliminary
Injunction Application from the merits. After briefing
by the parties and intervenors,2 this Court denied the
Preliminary Injunction Application on May 28, 2020,
on the basis that Petitioners were not likely to prevail
on the issue of this Court’s jurisdiction.

Act of June 3, 1937, P.L. 1333, as amended, 25 P.S. §§2600–
3591.

1

After this Court transferred the matter to the Supreme Court,
the Supreme Court granted the applications for leave to
intervene filed on behalf of President Pro Tempore Joseph B.
Scarnati, III, and Majority Leader of the Senate Jake Corman
(collectively, Senate Intervenors) and on behalf of the Speaker of
the House of Representatives Bryan Cutler and House Majority
Leader Kerry Benninghoff (House Intervenors). See Crossey v.
Boockvar (Pa., No. 108 MM 2020, filed August 21, 2020).

2

The Supreme Court denied the application for leave to
intervene filed by the Republican Party of Pennsylvania, the
Republican National Committee, and the National Republican
Congressional Committee. Id.

142a
On June 17, 2020, this Court issued an opinion and
order transferring the matter to the Supreme Court of
Pennsylvania. This Court agreed with the Secretary
that the Petition’s claims fell within the Supreme
Court’s exclusive jurisdiction over constitutional
challenges to Act 77 under Section 13(b) of Act 77.3
Crossey v. Boockvar (Pa. Cmwlth., No. 266 M.D. 2020,
filed June 17, 2020).
The Supreme Court accepted the transfer at 108
MM 2020 and granted Petitioners’ Application for
Leave to File an Amended Petition by July 13, 2020.
The Amended Petition for Review (Amended Petition)
sets forth constitutional claims arising from the
Secretary’s failure (1) to allow the return of absentee
and mail-in ballots after the 8:00 p.m. Election Day
deadline, because of alleged backlogs in the
application process and delays by the United States
Postal Service (USPS) in mail delivery; (2) to provide
prepaid postage on mail-in ballots; and (3) to allow
voters to obtain third-party assistance in the return of
mail-in ballots. The Amended Petition alleges that the
Secretary’s failure to implement such procedures

Specifically, this Court concluded that the Petition challenged
Sections 1306 and 1306-D of the Election Code. These sections
relate to the date, time, and manner by which absentee or mailin ballots must be returned to the county boards of elections.
They are listed in Section 13(b) of Act 77 as sections over which
the Supreme Court had exclusive jurisdiction if a challenge was
brought within 180 days of Act 77’s effective date.

3

143a
violates Article I, Sections 1,4 5,5 and 266 of the
Pennsylvania Constitution. Petitioners request the
Supreme Court to declare that the above-listed
barriers to voting by mail violate their constitutionally
protected right to free access to a free and equal
election during the pandemic. Petitioners request the
Supreme Court to order the Secretary to implement
additional safeguards for the November 3, 2020,
general election and any other election held during the
pandemic. These proposed safeguards include
providing prepaid postage on all absentee and mail-in
ballots; counting ballots delivered after the statutory
deadline of 8:00 p.m. Election Day; and authorizing
third-party assistance in the collection and submission
of absentee and mail-in ballots to the extent the latter
two measures do not trigger Act 77’s non-severability
provisions.

Article I, Section 5 of the Pennsylvania Constitution provides:
“All men are born equally free and independent, and have certain
inherent and indefeasible rights, among which are those of
enjoying and defending life and liberty, of acquiring, possessing
and protecting property and reputation, and of pursuing their
own happiness.” PA. CONST. art. I, §1.
4

5 Article I, Section 5 of the Pennsylvania Constitution provides:
“Elections shall be free and equal; and no power, civil or military,
shall at any time interfere to prevent the free exercise of the right
of suffrage.” PA. CONST. art. I, §5.

Article I, Section 26 of the Pennsylvania Constitution
provides:
“Neither the Commonwealth nor any political
subdivision thereof shall deny to any person the enjoyment of any
civil right, nor discriminate against any person in the exercise of
any civil right.” PA. CONST. art. I, §26.

6

144a
The Secretary and Intervenors filed preliminary
objections to the Amended Petition.7
Prior to
disposition thereof, the Supreme Court issued an
August 26, 2020, order appointing the undersigned as
Special Master and directing the Court “to create an
evidentiary record on claims raised in this case
including the ability of the United States Postal
Service to comply with deadlines for the November 3,
2020 general election.” Crossey v. Boockvar (Pa., No.
108 MM 2020, filed August 26, 2020). The Supreme
Court directed this Court to file with the Prothonotary
of the Supreme Court its proposed findings of fact and
conclusions of law and recommended disposition no
later than Friday, September 4, 2020. Id.

The Secretary objected on the basis that the Amended Petition
(1) fails to state a constitutional claim because its allegations are
hypothetical; (2) the Alliance lacks standing as an organization
and asserts claims not ripe for review; and (3) fails to join
indispensable parties, i.e., the county boards of elections. The
Secretary also objected on the basis that the Commonwealth
enjoys sovereign immunity that bars mandatory injunctive relief.

7

On August 13, 2020, the Secretary withdrew her preliminary
objections that the Amended Petition did not state a
constitutional violation and was not ripe for review.
Senate Intervenors objected on the basis of (1) lack of
jurisdiction and ripeness; (2) failure to join the county boards of
elections as indispensable parties; (3) the claims raise nonjusticiable political questions; (4) failure to conform to law; (5)
insufficient specificity of the pleadings; and (6) lack of capacity to
sue.
House Intervenors objected on the basis of (1) lack of standing
of the Alliance because it does not vote; (2) failure to state a
constitutional violation; (3) failure to present a justiciable claim;
and (4) failure to join indispensable parties.

145a
On August 27, 2020, this Court issued a case
management order that directed the parties and
intervenors to file pre-hearing statements by Friday,
August 28, 2020. It scheduled a pre-hearing telephone
conference for Saturday, August 29, 2020, and an
evidentiary hearing for August 31, 2020. It also
ordered that the parties and intervenors file and serve
proposed findings of fact and conclusions of law by
September 2, 2020, 9:00 a.m.
II. Evidentiary Hearing of August 31, 2020
The Court summarizes the hearing testimony and
documentary evidence as follows.
A. Petitioners’ Witnesses8
1. Ronald Stroman
1.

Ronald Stroman served as Deputy Postmaster
General from 2011 to June 2020. Notes of
Testimony, [Aug. 31, 2020,] 13–15 (N.T. ____).

2.

He holds a B.A. in government from
Manhattan College and a J.D. from Rutgers
University. N.T. 13.

3.

Mr. Stroman was a member of the USPS
Board of Governors, which oversees the
strategic direction of the USPS. He served on
the
Postmaster
General’s
Executive

The Court took witnesses out of order so that the testimony
relevant to each issue was addressed at the same time. The Court
further notes that the transcript of the evidentiary hearing is
incomplete. Paragraphs 16, 39, and 40 of the summary of
Mr. Stroman’s testimony is based upon the notes of the court and
staff, not the transcript. On September 4, 2020, a corrected
transcript was filed with the Court. The citations herein refer to
the transcript filed with the Court on September 1, 2020.

8

146a
Leadership Team, which implements the
directions of the Board of Governors. N.T. 15.
4.

Mr. Stroman had responsibility to improve
the communications between the USPS,
election officials and the election mail
community; to improve the internal training
for USPS employees on election mail; and to
develop a system for rapid response to election
mail issues. N.T. 17; Petitioners’ Ex. 32.

5.

The Court accepted Mr. Stroman as an expert
in the USPS’ operations and delivery
standards, and the application of those
delivery standards to voting by mail. N.T. 19,
25.

6.

Mr. Stroman testified that there are three
aspects to the USPS mail process: retail (local
post office), processing and delivery. N.T. 26.

7.

Mail is collected by carriers or at a local post
office. All mail is collected and placed with
similar types of mail (e.g., First-Class Mail,
Marketing Mail) and transported to the
processing center. At the processing center,
mail is placed in sorting machines to find the
correct zip code. If the mail remains in the
same zip code, it is taken to a truck for
transportation to a delivery unit. Carriers
and clerks sort the mail by routes, and then
the mail is placed on trucks for delivery to the
addressees. N.T. 26–27.

8.

If mail is designated for a location outside the
boundaries of the processing center, it is
transported to the appropriate processing

147a
center. Upon receipt there, the same process
is used to deliver the mail. Id.
9.

Mr. Stroman was Deputy Postmaster General
during the April 2020 Wisconsin primary, and
he testified about the investigation the USPS
conducted into its performance during that
primary. N.T. 28; Petitioners’ Ex. 4.

10. Mr. Stroman attributed the delay in the
receipt of absentee ballots during the
Wisconsin primary election to:
(1) the
different service standards depending on the
class of mail; and (2) the date upon which a
voter requested a ballot. N.T. 28, 29.
11. Mr. Stroman testified about the July 29, 2020,
letter that General Counsel and Executive
Vice President of the USPS, Thomas J.
Marshall, sent to Secretary Boockvar. That
letter advised the Secretary that the
Commonwealth’s election law deadlines for
requesting and casting mail-in ballots are
incongruous with the USPS’ delivery
standards, and that this mismatch creates a
risk that ballots requested near the deadline
would not be returned in time to be counted
under the law. N.T. 34; Petitioners’ Ex. 6.
12. The July 29, 2020, letter further advised that
there are two main classes of mail used for
ballots: First-Class Mail and Marketing Mail,
the latter of which uses a nonprofit postage
rate. Petitioners’ Ex. 6.
13. Mr. Stroman agreed with Mr. Marshall’s
statement that voters must use First-Class
Mail (or an expedited service) to mail their

148a
ballots and ballot requests, while election
officials may generally use First-Class Mail or
Marketing Mail to mail ballots to voters. N.T.
37.
14. Domestic First-Class Mail has a nationwide
delivery standard of 2 to 5 days upon receipt
at the post office. N.T. 38, 75; Petitioners’
Ex. 6, 32, ¶18.
15. Marketing Mail has a nationwide delivery
standard of 3 to 10 days upon receipt at the
post office. N.T. 38, 75; Petitioners’ Exs. 6, 32,
¶18.
16. Mr. Stroman agreed that the July 29, 2020,
letter does not advocate for changes in
Pennsylvania’s election law to accommodate
the USPS’s delivery standards and was
intended to be educational.
17. According to Mr. Stroman, mail delivered
within the above-listed standards is
considered
timely
under
normal
circumstances. N.T. 38, 39.
18. Mr. Stroman identified three circumstances
that he does not consider normal at this time:
the COVID-19 pandemic, new initiatives by
the new Postmaster General and the increase
in the volume of mail-in ballots. N.T. 39, 45.
19. The pandemic has caused issues with USPS
employee availability, which in turn affects
the processing and delivery of mail in both the
primary location and secondary location to
which the mail is directed. N.T. 39, 40.

149a
20. In the Pennsylvania June 2, 2020, primary,
the pandemic affected the delivery of mail not
only in the Philadelphia region but also in the
entire mail-processing network. N.T. 43, 44.
21. Mr. Stroman
testified
that
the
new
Postmaster General, Louis DeJoy, issued a
new directive that mail transportation trucks
leave at the designated time. If the mail has
not been processed before the scheduled
departure, the truck leaves without all the
mail. In a cumulative fashion, this causes
delays and backups on the delivery side of the
process. N.T. 45–47, 55.
22. The third factor affecting the delivery
standards is the volume of ballots. States are
amending their election laws, which requires
the USPS to train its employees to process
election mail. N.T. 47.
23. The above factors will delay the USPS’ ability
to meet its delivery standards, according to
Mr. Stroman. N.T. 49.
24. Mr. Stroman testified about Petitioners’
Exhibit 9, which is a Score Break-down of
Presort First-Class Mail on a nationwide basis
and shows a decline in delivery times for three
weeks in July 2020.
He testified that
Petitioners’ Exhibit 9 was consistent with his
knowledge of the Postmaster General’s
testimony in recent U.S. House and Senate
Hearings. N.T. 49–51; Petitioners’ Ex. 9.
25. Exhibit 9 purports to show how close the
USPS came to meeting its performance
standards. The decline in the score indicates

150a
that the USPS did not meet its service
performance targets. N.T. 52–54.
26. Mr. Stroman opined that the USPS’ failure to
hit its performance targets has a
compounding effect and that delays in
delivery will get worse as time runs. N.T. 54,
55.
27. Mr. Stroman testified that all ballots returned
to the county boards of elections will be singlepiece mailings, which requires them to go
through the sorting process. This may cause
delays. N.T. 56, 85, 88.
28. Mr. Stroman testified regarding Petitioners’
Exhibit 28, which is an Areas Inspiring Mail
Chart.
The Chart uses a baseline
performance standard of 96%, meaning that
percentage of time the USPS meets its
delivery standard of 2 to 5 days for First-Class
Mail or 3 to 10 days for Mass Marketing Mail.
N.T. 58–63; Petitioners’ Ex. 28.
29. The Chart provides that in the 43rd week, the
USPS’ performance rates, when compared to
its intended performance standard of 96%,
was 72.86% for Central Pennsylvania; 85.68%
for the Philadelphia Metropolitan area; and
90.01% for Western Pennsylvania. N.T. 61;
Petitioners’ Ex. 28.
30. Mr. Stroman attributed the drop in the
performance to the Postmaster General’s
changes in operations. N.T. 60.
31. These numbers mean that the USPS is not
meeting its service target rates by a large

151a
margin, according to Mr. Stroman. N.T. 61,
62.
32. Mr. Stroman has a high degree of confidence
in the data used in Petitioners’ Exhibit 28
based on his personal knowledge of how the
USPS operates and how such data is retrieved
and compiled. N.T. 101–02.
33. Mr. Stroman opined that the USPS cannot
improve its performance before the November
2020 general election. It takes time to fix the
problems due to the integrated nature of the
USPS’ network and to clear backlogs. N.T.
62, 63.
34. Mr. Stroman opined that there is a significant
risk that the USPS will not meet its FirstClass Mail service delivery standards of 2 to 5
days during the November 2020 election. N.T.
66, 70.
35. Mr. Stroman further observed that not all
absentee ballots will be deposited in the mail
from within the Commonwealth. N.T. 71.
36. Mr. Stroman testified that the USPS’ delivery
standard is 2 to 5 days within the
Commonwealth,
which
includes
mail
deposited in the mail outside of the
Commonwealth. N.T. 76, 77.
37. Mr. Stroman did not know which class of mail
Pennsylvania election officials will use to mail
the ballots to voters or the class by which the
ballots will be returned to election officials.
He believed that Pennsylvania’s boards of
elections are not using uniform mailing. N.T.
78.

152a
38. Election mail is not separated from the
general mail but the USPS attempts to
prioritize it by tagging or coding election mail.
N.T. 83, 85.
39. Mr. Stroman agreed that the county boards of
elections play a very important role in getting
the ballots to voters on time and are
ultimately responsible for mailing ballots.
N.T. 107. The county boards of elections
should ensure that the envelopes used are
automation compatible, the proper weight and
properly addressed.
40. Mr. Stroman recommended that voters mail
their completed ballots to the county election
board at least 10 days prior to the election.
41. Mr. Stroman testified that it was possible but
highly unlikely that a voter who requested a
mail-in ballot the Tuesday before the election
could have that ballot mailed to the voter and
then received by the county board of elections
before the Election Day 8:00 p.m. deadline.
N.T. 120–22; Petitioners’ Ex. 32, ¶19.
2. Devon Laudenslager
1.

Devon Laudenslager is a resident of the City
of Philadelphia and has been registered to
vote for four years. N.T. 282.

2.

Due
to
the
COVID-19
pandemic,
Ms. Laudenslager applied for a mail-in ballot
from her county board of elections on May 5,
2020, and received a confirmation email the
next day that her application had been
received. N.T. 282.

153a
3.

On May 15, 2020, Ms. Laudenslager received
a second email indicating that her ballot had
been mailed on May 15, 2020, and if she did
not receive the ballot by May 22, 2020, she
should contact her board of elections. N.T.
283.

4.

When Ms. Laudenslager did not receive her
mail-in ballot by May 22, 2020, she attempted
to contact her board of elections. N.T. 283.
Initially, she received a busy signal and, when
the line was not busy, no one answered the
phone and there was no ability to leave a
message. N.T. 283–84.

5.

She attempted to locate an alternate phone
number to contact the board from its website,
but her attempts to reach the board through
alternate phone numbers were unsuccessful.
N.T. 284.

6.

As of May 26, 2020, the deadline to apply for
a mail-in ballot, Ms. Laudenslager had not
received her ballot. N.T. 283.

7.

Ms. Laudenslager
contacted
her
state
representative’s office, which told her that it
had been in touch with the City of
Philadelphia Commissioners Office, and had a
list of voters that needed replacement ballots.
N.T. 285–86.

8.

On June 2, 2020, Ms. Laudenslager went to
her polling place to vote because she had not
received her mail-in ballot. N.T. 286.

9.

Her vote was counted. N.T. 286.

154a
10. Ms. Laudenslager received a ballot by mail on
June 4, 2020. N.T. 286.
11. Ms. Laudenslager intends to vote in the
November 3, 2020, general election but doubts
she will attempt to use a mail-in ballot due to
her experience in the June 2020 primary and
her fears that she cannot be assured that her
county board of elections will receive her
ballot in time to be counted even if she
receives her ballot timely. N.T. 287–89.
12. Ms. Laudenslager gave two other examples of
issues she had with her mail. She expected a
follow-up letter from a graduate school and
she received a letter from the Department of
Transportation indicating her license would
be renewed but that she should expect a
follow-up letter. She never received either
follow-up letter. N.T. 287.
3. Dr. Joseph Eisenberg
1.

Joseph N.S. Eisenberg, PhD, MPH, is the
John G. Searle endowed Chair and Professor
of Epidemiology in the School of Public Health
at the University of Michigan. He also has an
adjunct appointment at the Universidad San
Francisco de Quito in Ecuador. He received
his PhD in Bioengineering in the joint
University of California, Berkeley/University
of California, San Francisco program, and an
MPH from the School of Public Health at the
University of California, Berkeley (focusing on
the science of infectious disease transmission).
Petitioners’ Ex. 30 at ¶2.

155a
2.

Dr. Eisenberg is an infectious disease
epidemiologist who researches how pathogens
move through the environment and society to
cause infectious diseases. Petitioners’ Ex. 30
at ¶¶3, 5.

3.

Since February 2020, Dr. Eisenberg has
provided expert advice on COVID-19 by
serving on advisory panels (Bipartisan Policy
Center,
Washington
D.C.);
presenting
Webinars (Alliance for Health Policy, Barsan
Research Forum, The University of Michigan
Club of Washington, D.C.); and participating
in media interviews (Detroit Fox News,
MSNBC, WXYX Detroit, New York Times,
Washington Post). During the initial phase of
the pandemic, Dr. Eisenberg was a member of
a subcommittee informing the Governor of
Michigan’s task force on opening the economy.
Dr. Eisenberg has consulted with companies
such as Ford Motor Company and Gemline on
best practices during the COVID-19
pandemic. Petitioners’ Ex. 30 at ¶6.

4.

The Court admitted Dr. Eisenberg as an
expert in the field of epidemiology. N.T. 295.

5.

Dr. Eisenberg observed that COVID-19 cases
in Pennsylvania have plateaued, but he
expects significant transmission to continue
in the fall. N.T. 297.

6.

The novel coronavirus that causes COVID-19
is spread from person to person through the
air and on environmental surfaces. The
higher the concentration of virus to which one
is exposed, the greater the chances of being

156a
infected. Additionally, being close to people
who are coughing, speaking with force, or
sneezing is riskier than those who are just
speaking
normally.
Transmissibility
increases when people are in enclosed, poorly
ventilated spaces, in crowded spaces and in
close proximity to other people.
Public
gatherings at polling places and ballot return
locations in municipal buildings may
contribute to the spread of the virus.
Petitioners’ Ex. 30 at ¶¶2, 14.
7.

Dr. Eisenberg acknowledged the [Centers for
Disease Control and Prevention] has adopted
“interim guidance for ensuring various voting
options, encouraging physical distancing,
personal prevention practices, and employing
environmental cleaning and disinfection to
lower
COVID-19
transmission
during
elections.” N.T. 307 (quoting Senate
Intervenors Ex.17 at 2).

8.

Allowing voters to vote by mail is consistent
with current public health guidelines to
minimize the spread of the virus and prevent
COVID-19 illness because it (1) decreases the
number of people who need to vote in person;
(2) allows high-risk individuals to avoid inperson voting; and (3) minimizes the chances
that indoor ballot return locations, such as
polling stations or county board of elections’
offices, will contribute to the spread of the
virus. Petitioners’ Ex. 30 at ¶¶2, 36.

157a
B. Respondents’ Witness
1. Kathy Boockvar, Secretary of the
Commonwealth
1.

Kathy Boockvar was appointed as Secretary of
the Commonwealth in January 2019 and
confirmed by the Pennsylvania Senate in
November 2019.

2.

Secretary Boockvar is the chief elections
official
for
the
Commonwealth
of
Pennsylvania
with
responsibility
for
assessing risks to the voting process,
including obstacles to the accessibility,
security and integrity of elections. She and
the Department of State engage in a “constant
assessment and evaluation” to ensure “the
highest level of accessibility, security, and
safety to the voters of Pennsylvania to make
sure that they can exercise their right to vote.”
N.T. 144.

3.

At the inception of this litigation in April
2020, Secretary Boockvar opposed a statewide
extension of the received-by deadline for mailin ballots, preferring instead to deal with
issues that would arise during the 2020
primary election on a county-by-county basis.
N.T. 132.

4.

The courts of common pleas in three counties
extended the received-by deadline in the 2020
primary election. N.T. 133. An executive
order by Governor Tom Wolf extended the
received-by deadline by seven days in six
counties due to civil unrest. Id. at 169.

158a
5.

On July 29, 2020, Secretary Boockvar received
a letter from Thomas J. Marshall, General
Counsel and Executive Vice President of the
USPS. Respondents’ Ex. 1.

6.

In his letter, Mr. Marshall advised Secretary
Boockvar that “most domestic First-Class
Mail is delivered 2 to 5 days after it is received
by the Postal Service, and most domestic
Marketing Mail is delivered 3 to 10 days after
it is received.” Respondents’ Ex. 1 at 1. Based
on
these
guidelines,
Mr. Marshall
recommended that (a) where voters will both
receive and send a ballot by mail, they should
request a ballot from their election officials at
least 15 days before Election Day; (b) election
officials should use First-Class Mail to
transmit blank ballots and allow one week for
delivery to voters; and (c) domestic voters
should mail their completed ballots at least
one week before the state’s due date. Id. at 1–
2.

7.

Observing that Pennsylvania’s election laws
require a ballot to be returned by Election Day
and that voters may request a mail-in ballot
as late as 7 days before Election Day,
Mr. Marshall opined that “to the extent that
the mail is used to transmit ballots to and
from voters, there is a significant risk that, at
least in certain circumstances, ballots may be
requested in a manner that is consistent with
your election rules and returned promptly,
and yet not be returned in time to be counted.”
Respondents’ Ex. 1 at 2.

159a
8.

Mr. Marshall sent the same letter to the
Secretary of State of North Carolina on July
30, 2020, noting that in North Carolina “a
voter may generally request a ballot as late as
7 days before the November general election,
and that a completed ballot must be
postmarked by Election Day and received by
election officials no later than 3 days after the
election.” Petitioners’ Ex. 7. Mr. Marshall’s
letter to North Carolina also described North
Carolina’s election law deadline for receipt of
absentee and mail-in ballots “incongruous”
and “incompatible” with the USPS nationwide
delivery standards for First-Class Mail and
Marketing Mail. Id. The letter went to 46
states. N.T. 135.

9.

Secretary
Boockvar
testified
that
Mr. Marshall’s estimate that most domestic
First-Class Mail is delivered 2 to 5 days after
it is received by the USPS differed from her
understanding that such mail typically has a
1 to 3 business day turnaround time, which is
what voters would have expected in previous
elections. N.T. 138.

10. A total of 1,462,254 ballots were cast by mail
in the 2020 primary election. Respondents’
Ex. 2. According to the Department of State’s
records, the mailed ballots were received by
the county boards of elections in the following
timeframes:
2/24/2020 – 3/31/2020:
4/1/2020 – 4/30/2020:
5/1/2020 – 5/19/2020:

278
51,743
292,412

160a
5/20/2020 – 5/26/2020:
5/27/2020 – 5/31/2020:
6/1/2020:
6/2/2020 (Election Day):
6/3/2020:
6/4/2020:
6/5/2020:
6/6/2020:
6/7/2020:
6/8/2020:
6/9/2020 – 6/24/2020:

320,032
436,701
173,869
89,018
31,183
14,177
15,973
3,966
84
10,240
22,578

Id.
11. The State of Washington conducts its elections
solely by mail and experienced “significant
mail delays and a huge increase in the number
of ballots received after election day” in the
2020 primary election. N.T. 141.
12. The Pennsylvania Department of State
predicts that approximately 3 million voters
will cast their votes by mail-in or absentee
ballot in the November 2020 general election.
N.T. 181. Based on voting patterns in the
2020 primary election, the Department
expects that approximately half of the mail-in
and absentee ballots will arrive in the last
week of voting. Id. at 150–51.
13. Based primarily upon Mr. Marshall’s letter,
Secretary Boockvar changed her position on a
statewide change to the received-by deadline.
In addition, she has had discussions with
other state election officials.
Secretary
Boockvar is concerned that Pennsylvania’s
deadlines for mail-in ballots are incompatible

161a
with the USPS’ current delivery timeframes,
which are applicable statewide.
She
recommends that mail-in ballots should be
counted if they are postmarked by Election
Day, November 3, 2020, and received by the
county boards of elections no later than 3 days
after the election, or by Friday, November 6,
2020. N.T. 134–136.
14. Secretary Boockvar opined that, in weighing
the contours of an extension, she considered
the balance between ensuring citizens can
exercise their right to vote and conducting
efficient election administration. Based on
voting patterns in the 2020 primary election,
the majority of late mail-in ballots arrived
within 3 days after the election. N.T. 154;
Respondents’ Ex. 2.
15. Secretary Boockvar opined that Petitioners’
requested 7-day extension of the received-by
deadline will adversely impact other
deadlines. N.T. 153. These deadlines include
the deadline by which certain voters using
mail-in or absentee ballots must provide
identification, which is on the sixth day after
the election;9 the deadline for defeated
candidates to give up any right to a recount or
recanvass, which is on the eighth day after the
election;10 and the deadline for the Secretary

Section 1308(h) of the Election Code, added by the Act of
March 6, 1951, P.L. 3, as amended, 25 P.S. §3146.8(h).

9

10

Section 1404(h) of the Election Code, 25 P.S. §3154(h).

162a
to order a recount or recanvass, which is on
the ninth day after the election.11
16. County boards of elections are increasing their
staffing in advance of the November 3, 2020,
election and will mail out ballots beginning in
September. Federal funds are available to the
boards for purchasing additional processing
equipment. N.T. 145.
17. The Department of State will reimburse
county boards of elections for the return
postage they affix to the mail-in ballot
envelopes, which will be done in different
ways depending on the county, i.e., business
return mail, a stamp or a meter marking. N.T.
158–59. “[A]n overwhelming majority of times
there’s going to be a postmark.” Id. at 159.
18. The Department of State is conducting major
efforts to educate voters about the process of
voting by mail and the importance of doing so
promptly. N.T. 146–47.
19. When impediments to voting arise in
individual counties, such as local emergencies
or delays in issuing ballots, a county may seek
relief from its own court of common pleas.
N.T. 132, 155–56.
C. Senate Intervenors’ Witness
1. Michael Plunkett
1.

11

Michael Plunkett is a retired 25-year
employee of the USPS. He holds a B.A. in
Economics from the Pennsylvania State

Section 1404(g)(2) of the Election Code, 25 P.S. §3154(g)(2).

163a
University, an M.B.A. from the Wharton
School, University of Pennsylvania, and a
second M.B.A. from the Massachusetts
Institute of Technology. N.T. 205.
2.

Mr. Plunkett worked for the USPS in various
staff and management positions, including
letter carrier and Associate Vice President of
Business Development. N.T. 193; Senate
Intervenors (SI) Ex. 1, ¶¶1–3. He retired from
the USPS in 2011 and since 2016 has served
as President and CEO of the Association for
Postal Commerce, which is a trade association
for companies that use the USPS in their
business. SI Ex. 1, ¶3.

3.

Mr. Plunkett was admitted as an expert
witness in USPS delivery performance
standards and practices on postmarks. N.T.
202, 211.

4.

Mr. Plunkett used the quarterly reports filed
by the USPS with the Postal Regulatory
Commission, the regulator for the USPS, as
the source of data for his expert testimony
about USPS operational performance in
Pennsylvania and in the Eastern Area. SI
Ex. 1, ¶7.

5.

Pennsylvania has 8.5 million registered
voters.
For purposes of his opinion,
Mr. Plunkett assumed that all voters would
vote by absentee or mail-in ballots in the
November 2020 general election over the 50day period permitted under the Election Code.
SI Ex. 1, ¶¶13, 15.

164a
6.

Most outbound First-Class Mail is sent in
batches known as “Presort First-Class Mail,”
which will be used to send ballots to voters by
county boards of elections. SI Ex.1, ¶¶8, 10.

7.

Election mail is treated differently than other
First-Class Mail because it is prioritized for
faster delivery. N.T. 267–268.

8.

Mr. Plunkett testified that USPS delivery
standards are zip code specific. The service
performance standard for First-Class Mail
within the 48 contiguous states is 2 to 3 days,
and 2 to 5 days for those states plus Alaska,
Hawaii and Puerto Rico. It is 6 days for
Guam. For mail within Pennsylvania, the
service performance standard is 2 days,
although it is 3 days for mail between Erie and
Philadelphia.
For intra-county mail in
Pennsylvania, the service performance
standard is 2 days but up to 3 days for some
counties. N.T. 213, 244.

9.

Mr. Plunkett testified about the USPS report
for the first quarter of 2020 covering the
Eastern Area, made up of four districts that
cover
Pennsylvania
identified
as
“Appalachian,”
“Central
Pennsylvania,”
“Philadelphia
Metro”
and
“Western
Pennsylvania.” N.T. 217. The report showed
that 99.5% of outbound Presort First-Class
Mail was delivered within 3 days. This
included mail originating within and outside
Pennsylvania.
Of that total, 98.3% was
delivered within 1 day. SI Ex. 1, ¶¶8, 10. The

165a
service standard is 2 days for mail originating
and ending in Pennsylvania. N.T. 219.
10. The USPS report for the first quarter of 2020
showed that in the Eastern Area, 97.0% of
First-Class Mail was delivered within 3 days.
Of that number, 92.5% of all First-Class Mail
was delivered within 1 day.
SI Ex. 1,
Attachment A.
11. The USPS report for the second quarter of
2020 in the Eastern Area showed that
approximately 99% of Presort First-Class
Mail in Pennsylvania was delivered within 3
days, with 97.4% being delivered within 1 day.
SI Ex. 4 at 2; N.T. 217.
12. The second quarter of 2020 included the
period of time the USPS experienced a
reduction in employee availability caused by
the COVID-19 pandemic. N.T. 225.
13. The volume of First-Class Mail declined
approximately 9% between 2019 and 2020,
which suggests that the USPS has capacity to
handle an increase in mail volume. SI Ex.1,
¶18.
14. During the first quarter of 2020, the USPS
processed approximately 700 million Presort
First-Class Mail letters and postcards in the
Eastern Area. SI Ex.1 ¶11. If all 8.5 million
registered voters in Pennsylvania request an
absentee or mail-in ballot for the November
2020 election, that would represent 1.2% of
USPS capacity in the Eastern service area.
N.T. 144. The Secretary anticipates that 3
million Pennsylvanians will vote by mail in

166a
2020, which represents 0.4% of USPS capacity
in the Eastern service area. N.T. 181.
15. Given the volume of First-Class Mail handled
by the USPS in the Eastern Area,
Mr. Plunkett testified that the addition of 8.5
million ballots would not create an operational
issue for the USPS. N.T. 181; SI Ex. 1, ¶15.
Mr. Plunkett opined that “adding outbound
and inbound election related mail in
Pennsylvania would not impact the USPS’
ability to provide reliable and timely mail
service.” SI Ex. 1, ¶24.
16. Mr. Plunkett is “unaware of any significant
disruptions to First-Class Mail service.” SI
Ex. 1, ¶19. Such disruptions would be known
to him given his 25-year employment with the
USPS and current employment with the
Association for Postal Commerce, which
continually monitors USPS performance.
N.T. 205.
17. Upon being shown Petitioners’ Exhibit 28,
Mr. Plunkett testified that the Postmaster
General acknowledged that policy changes
caused a temporary decline in service.
Because the Postmaster General has ended
the practice of trucks leaving a processing
center before all mail has been sorted, USPS
service should return to pre-decision levels.
N.T. 252–53.
18. “Postmarks” are applied to stamped mail to
prevent reuse of the stamp. N.T. 236; SI Ex. 1.
Commercial mail generally bears evidence of
payment, such as permit imprints, that are

167a
linked numerically to postage accounts. This
mail does not bear traditional “postmarks”
readable by the human eye. SI Ex. 1, ¶29.
19. The USPS has created specific service type
identification (STID) codes, which are encoded
in an intelligent mail barcode, for use on
election mail that will allow it to identify and
track ballots as they move through the USPS
network. SI Ex. 1, ¶35.
20. The marks imprinted by the USPS on this
type of mail are not readable by the human
eye and would require scanners and software
to decode. SI Ex. 1, ¶36. Mr. Plunkett
testified that the USPS “plans to isolate
election mail and to postmark even where
postmarks are not necessary.” N.T. 246, 261.
21. Mr. Plunkett testified that a voter who
requests a ballot on the last day in the general
election cycle, Tuesday, October 27, 2020,
would likely receive a ballot on Thursday or
Friday. If the voter mails her ballot on
Saturday, it would likely be received on
Monday or Tuesday, Election Day. N.T. 271,
272.
22. Mr. Plunkett testified that a 1-day delay in
service would not mean that ballots would not
be received on time. N.T. 267.
D. House Intervenors’ Witness
1. Torren Ecker
1.

Mr. Ecker is a member of the House of
Representatives and represents the 193rd
District. N.T. 331.

168a
2.

He ran in the May 15, 2018, primary as one of
four candidates for the office. N.T. 331.

3.

At 9:30 p.m. that day, the election results were
posted and it appeared that Mr. Ecker lost by
one vote. N.T. 332.

4.

Election officials learned that one precinct had
not counted its absentee ballots. When those
ballots were counted, Mr. Ecker gained an
additional vote. At that point, the election
was tied. N.T. 332–33.

5.

When the county board of elections
recanvassed its ballots, it found two
provisional ballots. An unqualified voter
submitted one ballot, and the other voter cast
a ballot in favor of Mr. Ecker. N.T. 334.

6.

The losing candidate petitioned the court of
common pleas for a recount, but after the
recount Mr. Ecker remained the winner of the
primary election. N.T. 335.

7.

Starting on May 15, 2018, the entire process
took approximately one month. N.T. 335.

8.

As a candidate, Mr. Ecker agreed that he
wanted constituents of the 193rd District to
vote. N.T. 338.
III. Findings of Fact

1.

All witnesses testified credibly. To the extent
that the opinions of Mr. Stroman and the
Secretary differ from the opinions of
Mr. Plunkett, the Court finds Mr. Plunkett’s
opinions more credible and persuasive than
those of Mr. Stroman and the Secretary, in
light of his experience in statistical and

169a
financial analysis of USPS data both as a 25year employee of the USPS and as current
president of the Association for Postal
Commerce.
2.

The USPS has a standard delivery
performance of 2 to 3 days for First-Class Mail
in the contiguous United States; 5 days for
First-Class Mail sent to Alaska, Hawaii, and
Puerto Rico; and 6 days for mail sent to Guam.

3.

Marketing mail has a nationwide standard
delivery performance of 3 to 10 days.

4.

For First-Class Mail within Pennsylvania, the
standard delivery performance is 2 to 3 days
after collection by the USPS. However, mail
may take 3 days to be delivered from one end
of the Commonwealth to the other (for
example, from Philadelphia to Erie).

5.

These above-described standards for delivery
performance have been in place for a long time
and not been adjusted since the enactment of
Act 77.

6.

For intra-county mail, the standard delivery
performance is 2 days after collection by the
USPS and, with limited exceptions, may take
3 days within some counties.

7.

Petitioners’ Exhibit 9, entitled “USPS Service
Performance Measurement, PMG Briefing,
August 12, 2020,” shows the percentage of
time that the USPS met its performance
target of 96% nationwide for the period of
March 14, 2020, through August 1, 2020, for
various classes of mail. Relevantly, the graph
shows a downturn in the USPS’ performance

170a
for the period of July 4, 2020, through July 18,
2020, for Presort First-Class Mail. The Court
declines to draw an inference from this exhibit
that there is a general decline in standard
delivery performance because the graph is
based upon a snapshot of three weeks of
experience.
Mr. Stroman attributed the
downturn to the Postmaster General’s new
policy directive on transportation, and this
policy directive has been terminated.
8.

Petitioners’ Exhibit 28, which is a graph
produced by Areas Inspiring Mail, shows that
for the 41st through 43rd weeks there was a
drop in the USPS’s performance against the
target of 96%. The graph shows that during
those three weeks the USPS met its standard
delivery target 72.86% of the time for Central
Pennsylvania; 85.68% of the time for the
Philadelphia Metro Area; 84.96% of the time
for the Appalachian region; and 90.01% of the
time for Western Pennsylvania. The Court
declines to assign Exhibit 28 any weight.
First, the document appears undated or the
date is obscured. It does not show the year
and month of the activity depicted. Second,
Mr. Stroman testified that Exhibit 28
compares the USPS’ performance for 2019 to
that of 2020 and that the graph shows a sharp
decline in the USPS’ performance targets
between the 41st and 43rd weeks. N.T. 59.
However, it is not clear that the weeks
identified in the graph correspond directly to
weeks of the calendar year. We have not
reached the 41st through 43rd weeks of

171a
calendar year 2020. Third, the graph depicts
a snapshot of three weeks and does not predict
what the data will show for the 12-week
period from June 1, 2020, to September 30,
2020.
9.

Mail for deposit with the USPS may be
handed directly to a postal carrier or collected
by a carrier from a voter’s residential mail
receptacle.

10. There is no separate delivery performance
standard for election-related First-Class Mail.
The USPS prioritizes First-Class Mail
identified as election-related.
11. Although there was testimony and argument
regarding USPS “delivery delays,” there was
no evidence to define a delay. The USPS
delivery standards are set in ranges, i.e., 2 to
3 days in Pennsylvania. There is no evidence
that USPS performance in Pennsylvania
extends beyond that range. To the contrary,
the USPS performance in Pennsylvania falls
within the range over 98% of the time.
12. Pennsylvania’s USPS performance exceeds
the national average. In the first quarter of
2020 for Pennsylvania, 99.5% of USPS
outbound Presort First-Class Mail was
delivered within 3 days. More than 98% was
delivered within 1 day. In the second quarter
of 2020 for Pennsylvania, 99.4% of USPS
outbound Presort First-Class Mail was
delivered within 3 days. More than 98% was
delivered within 1 day.

172a
13. If all 8.5 million registered voters in
Pennsylvania elect to vote by absentee or
mail-in ballot, the quantity of mail generated
will represent only 1.2% of USPS’ capacity in
the Eastern service area and will not
overwhelm the system.
14. A voter may cast a ballot in person at a polling
location any time between 7:00 a.m. and
before 8:00 p.m. on Election Day. If the voter
has applied for an absentee or mail-in ballot,
she may personally return the ballot to the
county board of elections by 8:00 p.m. on
Election Day or mail the ballot to the county
board in such time that the board receives the
ballot no later than 8:00 p.m., Election Day
(the “received-by deadline”).
15. A voter may elect to return the ballot by using
a prepaid postage envelope if one is provided
by the county board of elections, by placing a
First-Class stamp on the return envelope or by
purchasing expedited delivery from the USPS
or other private delivery service.
16. If a voter applies for an absentee or mail-in
ballot but cannot return it to the county board
of elections before the received-by deadline,
the voter may cast a provisional ballot in
person
at
her
polling
place,
as
Ms. Laudenslager did.
17. There was no evidence that the county boards
of elections anticipate consolidating polling
places as they did in the primary election, that
the county boards anticipate insufficient
staffing or that the health and safety

173a
procedures used by the county boards during
the June 2020 primary were ineffective.
18. Section 1206 of the Election Code, 25 P.S.
§3046, provides a remedy for emergencies
arising on election day; that is, an individual
or county may bring a controversy before the
court of common pleas and have the matter
decided expeditiously. This was done in three
counties during the 2020 primary election.
Where an individual is seeking a judicial order
to vote, the court must inform the individual
of the provisional ballot process set forth in
Section 1206 of the Election Code, 25 P.S.
§3046.
19. Secretary’s Exhibit 2, a chart identifying the
number of mail-in ballots received by each
county and the date of receipt, does not
support a finding that the received-by
deadline should be extended by three days, to
Friday, November 6, 2020. The exhibit does
not explain when the voters applied for their
absentee or mail-in ballots, when the county
boards of elections mailed the ballots to the
voters or when the voters deposited the ballots
in the return mail.
Secretary’s Exhibit 2 showed that 61,333
votes were received by county boards of
elections during the three days that followed
the primary election day. Of that total, 52,761
were received in counties where the Governor
had extended the received-by deadline
because of civil unrest or where the court of
common pleas had extended the received-by

174a
deadline for receipt of absentee and mail-in
ballots. Accordingly, all 52,761 were counted.
Secretary’s Exhibit 2 does not predict how
many mail-in ballots will be received after
8:00 p.m. on Election Day because it is not
known whether the mailing of ballots in the
primary election was affected by the
announced extension of the received-by
deadline.
20. The Secretary is working with the county
boards of elections and the USPS to design
election-related mail envelopes.
The
Secretary is undertaking a public education
campaign to inform voters of the need to apply
for and return all mail ballots as early as
possible.
21. Ms. Laudenslager was not disenfranchised
because she voted at a polling place and her
vote was counted.
22. Petitioners presented no evidence to support
their request for third-party assistance in the
delivery of ballots to either the USPS or the
county boards of election or for their request
for prepaid postage on all absentee and mailin ballots.
23. Petitioners’ claim for prepaid postage is moot
in light of the Secretary’s announcement that
the Department of State will provide funding
to the county boards of elections for postage.
24. There was no clear evidence presented on
whether prepaid postage envelopes, which
may be provided by the county boards of
elections to voters for mailing their completed

175a
ballots, will be postmarked. A postmark
would evidence the date the voter placed the
ballot in the mail.
25. There was no evidence showing that COVID19 was transmitted to an individual who
appeared at a polling place in Pennsylvania
during the primary election on June 2, 2020.
26. There was no evidence presented to address
how an extension of the statutory deadline
could be implemented without causing
confusion among the 67 county boards of
elections that are preparing to conduct the
general election in accordance with the
received-by deadline which has been in effect
for all elections in Pennsylvania since 1964,
and among the voting public.
IV. Conclusions of Law
1.

The deadline for receipt of absentee and mailin ballots by 8:00 p.m. on Election Day
represents a policy choice made by the
legislative and executive branches in the
enactment of Act 77. This deadline was first
adopted for absentee ballots. See Section 22 of
the Act of August 13, 1963, P.L. 707 (effective
January 1, 1964). The same deadline was
adopted in Act 77 for mail-in ballots. See
Section 1306-D(c) of the Election Code, 25 P.S.
§3150.16(c).

2.

Petitioners’ evidence did not prove that
disruptions to USPS operations are likely to
occur in November 2020 that will cause timely
mailed ballots to go uncounted in the general
election. Petitioners offered no evidence that

176a
a single mail-in ballot in the primary election
was received by a county board of elections
after the June 2, 2020, deadline because of a
delay in delivery by the USPS. Petitioners
offered no evidence upon which the Court can
find, as fact, that the USPS will not be able to
deliver absentee and mail-in ballots within 2
to 3 days of their being posted. The credible
evidence shows just the opposite, i.e., the
USPS is unlikely to be overwhelmed in
November.
3.

If the current deadlines remain in place for
the November general election and significant
delays develop in certain counties with the
processing of ballot applications or in the
USPS delivery of mail, the county courts of
common pleas are empowered to provide
targeted relief.
Petitioners have not
demonstrated that such county-specific relief
will be inadequate and that an immediate
statewide remedy is necessary.

4.

As Justice Wecht wrote in support of the
Pennsylvania
Supreme
Court’s
recent
decision dismissing a similar COVID-19related challenge to the Commonwealth’s
administration of the 2020 primary election,
“the instant request … is predicated upon
mere speculation about what may or may not
occur with delivery operations within the
Commonwealth in several weeks’ time. While
circumstances may change, the possibility
that votes may be suppressed due to late
ballot delivery, as presently alleged, is too
remote at this time to constitute a cognizable

177a
injury.” Disability Rights Pennsylvania v.
Boockvar, (Pa., No. 83 MM 2020, filed May 15,
2020) (Wecht, J., Concurring Statement at 1–
2).
5.

Petitioners’ evidentiary case did not address
the alleged injury occasioned by the
prohibition against third-party assistance in
casting and delivering absentee and mail-in
ballots or the need for prepaid postage on all
absentee and mail-in ballots.

6.

The Court concludes that it is not necessary to
address the outstanding legal objections
raised by Respondents, by Senate Intervenors
or by House Intervenors.

7.

Petitioners have not made a “clear, palpable
and plain demonstration” that the received-by
deadline for absentee and mail-in ballots in
Act 77 is unconstitutional for any election
during the COVID-19 pandemic. Yocum v.
Commonwealth of Pennsylvania Gaming
Control Board, 161 A.3d 228, 238 (Pa. 2017).
The received-by deadline for mail-in ballots is
a valid election administration regulation,
and the opportunity to vote by mail-in ballot
accommodates those voters who do not wish to
vote in person during the COVID-19
pandemic.
V. Discussion

Constitutional challenges to any legislation,
including election laws, are cognizable only where the
injury is concrete. “There is a presumption that
lawfully enacted legislation is constitutional. Should
the constitutionality of legislation be challenged, the

178a
challenger must meet the burden of rebutting the
presumption of constitutionality by a clear, palpable
and plain demonstration that the statute violates a
constitutional provision.” Yocum, 161 A.3d at 238
(emphasis added). Where a court determines that a
law is unconstitutional, it is not the court’s role to
design an alternative scheme that passes
constitutional muster; rather, the court must grant
the legislature sufficient time to consider and enact
remedial legislation. See generally In re Fortieth
Statewide Investigation Grand Jury, 197 A.3d 712,
721 (Pa. 2018) (courts may not usurp the province of
the legislature by rewriting legislation and adding
hearing and evidentiary requirements that the
participants must follow in grand jury proceedings);
League of Women Voters v. Commonwealth, 178 A.3d
737, 821 (Pa. 2018) (providing timeframe for
legislative and executive branches to enact remedial
redistricting plan).
Moreover, “‘[i]t is a mistake to suppose[] that a court
of equity is amenable to no law, either common or
statute, and assumes the rule of an arbitrary legislator
in every particular case.’ When the rights of a party
are clearly established by defined principles of law,
equity should not change or unsettle those rights.
Equity follows the law.” Piper v. Tax Claim Bureau of
Westmoreland County, 910 A.2d 162, 165 (Pa. Cmwlth.
2006) (quoting First Federal Savings and Loan
Association v. Swift, 321 A.2d 895, 897 (Pa. 1974)).
The United States Constitution provides that “[t]he
Times, Places and Manner of holding Elections for
Senators and Representatives, shall be prescribed in
each State by the Legislature thereof; but the
Congress may at any time by Law make or alter such

179a
Regulations, except as to the Places of chusing [sic]
Senators.” U.S. CONST. art. I, §4, cl.1. Article I, Section
5 of the Pennsylvania Constitution further states:
“Elections shall be free and equal; and no power, civil
or military, shall at any time interfere to prevent the
free exercise of the right of suffrage.” PA. CONST. art.
I, §5.
Each state’s election code, “whether it governs the
registration and qualifications of voters, the selection
and eligibility of candidates, or the voting process
itself, inevitably affects -- to least some degree -- the
individual’s right to vote ….” Burdick v. Takushi, 504
U.S. 428, 433 (1992) (quoting Anderson v. Celebrezze,
460 U.S. 780, 788 (1983)). “A court considering a
challenge to a state election law must weigh ‘the
character and magnitude of the asserted injury to the
rights protected by the First and the Fourteenth
Amendments that the plaintiff seeks to vindicate’
against ‘the precise interests put forward by the State
as justifications for the burden imposed by its rule,’
taking into consideration ‘the extent to which those
interests make it necessary to burden the plaintiff’s
rights.” Burdick, 504 U.S. at 434 (quoting Anderson,
460 U.S. at 789).
Although Petitioners seek to add new provisions to
the existing Election Code, rather than expressly
challenging the validity of a particular provision, the
premise of Yocum applies with equal force. This Court
has explained that “[a] statute is cloaked with a strong
presumption of constitutionality and one who attacks
it bears the burden of demonstrating that the
legislation ‘clearly, palpably and plainly violates the
constitution.’”
Ketterer
v.
Department
of

180a
Transportation, 574 A.2d 735, 736 (Pa. Cmwlth. 1990)
(quotation omitted).
Petitioners premise their claims on different
provisions of the Pennsylvania Constitution, but the
alleged injury in each instance is at bottom the same:
if the legislative and executive branches do not
implement the responsive measures to the ongoing
COVID-19 pandemic favored by Petitioners, some
voters will be burdened in the exercise of their vote.
They believe this warrants declaratory and injunctive
relief.
Petitioners allege that counties could (1) face
shortages of poll workers and may have to contend
with social-distancing guidelines in processing ballots,
see Amended Petition ¶6; (2) fall behind on processing
mail-in and absentee ballots applications, id., see also
¶53; and (3) the USPS may not be able to deliver
election ballots in a timely manner, id. ¶54.
Petitioners allege that it is “anyone’s guess whether
voters who timely request mail ballots will receive
them in time to complete the [ballots] and mail them
back to county officials such that they arrive by 8:00
p.m. on Election Day.” Id. ¶55.
Petitioners allege that without third-party
assistance with delivery of mail-in and absentee
ballots, “[v]oters … who have struggled with delayed
mail delivery will be forced to deliver their ballots for
the general election in-person this year to ensure their
votes are counted[.]” Id. ¶63. Similarly, Petitioners
assert that without prepaid postage on absentee and
mail-in ballots, voters will have to shoulder the
“unnecessary expense” of stamps, which “could be cost
prohibitive,” and will also risk a “trip to the post office

181a
or any other establishment that sells stamps, at a time
when individuals have been instructed to maintain
social distancing guidelines to stem the spread of
COVID-19[.]” Id. ¶¶66–67. Some of the reforms for
which Petitioners advocate are under consideration by
the General Assembly. If they are not enacted,
Petitioners believe these reforms must be ordered by
the Supreme Court of Pennsylvania.
The Amended Petition states that in the days before
the June primary election, some counties took
targeted measures to address COVID-19-specific
challenges. See Amended Petition ¶25 n.4, ¶57 (citing
In re Extension of Time for Absentee and Mail-In
Ballots to be Received by Mail and Counted in the 2020
Primary Election, (C.C.P. Del. Cty. No. 2020-003416)).
However, Petitioners believe these county-specific
judicial orders (and executive orders) will not suffice
in November 2020.
In her preliminary objections filed with the
Supreme Court, the Secretary stated that “nothing in
the Amended Petition gives any specifics on what
exactly will go wrong, where it will go wrong, or, -- just
as importantly -- why the statewide remedy
Petitioners seek will be necessary to correct the
problem. Nor could the Amended Petition supply
these specifics; in a fast-changing situation, and with
the November general election months away, such
predications are necessarily conjectural at best.”
Secretary Preliminary Objections, at 16 ¶21.
Considering the above, Petitioners did not carry
their burden of showing that the Election Code’s
deadline for returning absentee and mail-in ballots is
plainly and palpably unconstitutional. One year ago,

182a
the former Election Code required that all mail-in
ballots, which were limited to absentee ballots, had to
be returned to the county boards of elections by 5:00
p.m. on the Friday before Election Day in order to be
counted. Former Section 1306(a) of the Election Code,
25 P.S. §3146.69(a). The General Assembly, which
determines the time, place and manner of
Pennsylvania’s elections, extended the former
received-by deadline by four days in Act 77. It is for
the General Assembly to decide what further changes
should be made to all the statutory deadlines, which
may include advancing the deadline for requesting an
absentee or mail-in ballot.
Presently, voters in Pennsylvania have 50 days to
request and cast a mail-in ballot. Section 1302.1 – D
of the Election Code, 25 P.S. §3150.12a. Voters have
the option to request a ballot early in the process and
to return it early in the process. They also have the
option to wait until one week before the election to
request a ballot from the county board of elections,
which has 48 hours to respond. If the voter receives
the ballot one day before Election Day, she can
purchase overnight mailing from the USPS to ensure
its timely receipt. If the voter receives the ballot on
Election Day, she can personally deliver the ballot to
the county board of elections. If the requested ballot
is not received by Election Day, the voter can vote in
person at her designated polling place, as did
Ms. Laudenslager. And, of course, voters have the
option to appear at their polling place and vote in
person before 8:00 p.m. on Election Day.
Section 1206 of the Election Code provides that
where significant problems develop in a precinct or
county, our courts of court of common pleas can order

183a
relief. 25 P.S. §3046. This was done in several counties
in the 2020 primary election, which extended the
deadline for receipt of absentee and mail-in ballots.
As the Secretary noted, there must be deadlines in
order for a free and equal election to take place. And
every deadline will mean that some voters will not be
able to participate in an election. A voter may arrive
at the polling place at 8:05 p.m. on Election Day, or a
voter’s mail-in ballot may arrive at the county board of
elections at 8:05 p.m. on Election Day. Neither vote
will be counted.
In her original preliminary objections, the Secretary
argued that Petitioners’ pleading did not present a
controversy ripe for judicial review.
Nor did
Petitioners’ evidence.
Whatever delays may be
occasioned in the November 2020 general election with
respect to the receipt of mail-in ballots by county
boards of elections, they are not likely to be caused by
the USPS. The evidence demonstrated that USPS
performance in Pennsylvania exceeds the national
average.
There are an infinite number of considerations that
go into setting the rules for a free and equal election.
It is the job of the legislature, not the judiciary, to
make these policy choices.
The 8:00 p.m. Election Day deadline for returning
absentee and mail-in ballots has been in existence
since 1964.12 For a court to order a new statewide
Pennsylvania’s received-by deadline is consistent with other
state election laws. See ARIZ. REV. STAT. ANN. §16-558.01 (West
2015) (requiring the return of a mail-in ballot by 7:00 p.m. on the
day of the election); GA. CODE ANN. §21-2-386(a)(1)(f) (West 2019)
(requiring the destruction of absentee ballots received after the
12

184a
deadline may create widespread confusion among
voters and the county boards of elections, the parties
that actually conduct the election. This militates
against intervention by a court sitting in equity,
assuming grounds for relief were demonstrated, and
here they were not.
Even if that hurdle were crossed, an order enjoining
enforcement of the received-by deadline would have to
be issued to the county boards of elections. They are
the persons that process and qualify ballots. Because
they are not parties to this case, they cannot be
enjoined from enforcing the received-by deadline in
the Election Code.
In sum, the Election Code provides meaningful
responses for conducting an election during the
COVID-19 pandemic. Voters may cast their vote by
mail if they conclude their polling place will not meet
their standards of safety. That voters have the
responsibility to obtain a ballot and return it by 8:00
p.m. Election Day does not impose an unlawful
burden on the free exercise of the right to vote. At the
next level, county boards of elections may seek relief
from their courts of common pleas should the
circumstances require that step appropriate. Finally,
the General Assembly can enact appropriate measures

polls close); ME. REV. STAT. ANN. tit. 21-a, §755 (1991) (requiring
the return of an absentee ballot before the close of the polls on
election day); MICH. COMP. LAWS ANN. §168.764a (West 2012)
(requiring receipt of absentee ballot before the close of polls on
election day); WIS. STAT. ANN §7.52(1)(a) (West 2018) (requiring
the canvas of all absentee ballots received by 8:00 p.m. on election
day).

185a
should it determine that the COVID-19 pandemic
requires a statewide response.
VI. Conclusion
For these reasons, the Court recommends that the
Supreme Court deny Petitioners’ Prayer for Relief.
Respectfully submitted,
s/Mary Hannah Leavitt
MARY HANNAH LEAVITT,
President Judge

Filed: September 4, 2020

186a
Exhibits Admitted into Evidence at Evidentiary
Hearing
Exhibit No.
Petitioners
Petitioners’ Ex. 4

Petitioners’ Ex. 6

Petitioners’ Ex. 7

Petitioners’ Ex. 9

Petitioners’ Ex. 28
Petitioners’ Ex. 30
Petitioners’ Ex. 32

Respondents
Respondents’ Ex. 1

Description
USPS Office of Inspector
General Management Alert
(July 7, 2020)
USPS
General
Counsel
Thomas J. Marshall Letter to
the Hon. Kathy Boockvar
(July 29, 2020)
USPS
General
Counsel
Thomas J. Marshall Letter to
the Hon. Elaine Marshall
(July 30, 2020)
USPS PMG Briefing, Service
Performance
Measurement
(Aug. 12, 2020)
Eastern Areas Inspiring Mail
Service Update
Preliminary Report of Joseph
Eisenberg
Preliminary Report of Ronald
Strohman

Letter dated July 29, 2020,
from Thomas J. Marshall,
General
Counsel
and
Executive Vice President of
the United States Postal
Service, to Kathy Boockvar,
Secretary
of
the

187a

Respondents’ Ex. 2
Respondents’ Ex. 4

Senate
Intrevenors
Senate Intervenors’
Ex. 1

Senate Intervenors’
Ex. 2

Senate Intervenors’
Ex. 3

Senate Intervenors’
Ex. 4

Senate Intervenors’
Ex. 6

Commonwealth
of
Pennsylvania
Chart of County Absentee or
Mail-in Ballots
Postal Bulletin: Your 2020
Election and Political Mail
Guide (Feb. 13, 2020)

Mr. Plunkett’s
Declaration
that as filed on May 18, 2020
as Ex. A to Legislative
Intervenors’ Opposition to the
Petitioners’ Application for
Special Relief in the Nature of
a Preliminary Injunction
Attachment A from Plunkett’s
Report,
Quarterly
Performance for First-Class
Flats: Service Variance
Attachment B from Plunkett’s
Report,
Quarterly
Performance Aggregation for
First-Class Flats: Service
Variance
Quarterly Performance for
Presort First-Class Mail®
Service Variance, USPS, FY
2020 Quarter III
In
the
Matter
of:
Investigation
of
Election
Irregularities
Affecting
Counties Within the 9th
Congressional District

188a
Senate Intervenors’
Ex. 7

Senate Intervenors’
Ex. 10
Senate Intervenors’
Ex. 11
Senate Intervenors’
Ex. 16
Senate Intervenors’
Ex. 17

House
Intervenors
House Intervenors’
Ex. 1

Final Report of the MiamiDade County Grand Jury,
Spring Term A.D. 2012,
available
USPS Service Alert, Aug. 28,
2020
Postmaster General Louis
DeJoy Statement, USPS, Aug.
18, 2020
Dhaval M. Dave, et al. Black
Lives Matter Protests, Social
Distancing, and COVID-19
U.S. Department of Health
and Human Services and
Centers for Disease Control
and Prevention, Morbidity
and Mortality Weekly Report,
Notes from the Field, July 31,
2020

Statement of Postmaster
General and Chief Executive
Office Louis DeJoy (Aug. 21,
2020)

189a

APPENDIX H
IN THE SUPREME COURT OF
PENNSYLVANIA
Pennsylvania Democratic
Party et al.,
Petitioners,
No. 133 MM
2020

v.
Kathy Boockvar et al.,
Respondents.

AFFIDAVIT OF VONNE ANDRING
COMMONWEALTH OF PENNSYLVANIA
COUNTY OF ARMSTRONG

)
) SS:
)

Vonne Andring who having been first duly sworn,
deposes and states as follows:
1.

I am an adult over the age of 18.

2. I am currently the Executive Director of the
Republican Party of Pennsylvania (the “RPP”).
3. The RPP is a major political party, 25 P.S.
§ 283l(a), and the “State committee” for the
Republican Party in Pennsylvania, 25 P.S. § 2834, as
well as a federally registered “State Committee” of the
Republican Party as defined by 52 U.S.C. § 30101(15).
4.

Section 1.2 of RPP’s Bylaws provides:

190a
Rule 1.2: The Republican Party of the
Commonwealth of Pennsylvania, which
is a political party as defined in § 2831 of
the Election Code, shall consist of the
following bodies:
a. The State Party (i.e., the Republican
State Committee under § 2834 of the
Election Code);
b. The Leadership Committee of the State
Party;
c. The State Party Finance Committee;
d. Republican County Committees, as
defined in § 2837 of the Election Code
(the “County Committees”), and such
subordinate committees of a County
Committee as the rules of a County
Committee shall provide;
e. Such Committees of the State Party as
may from time to time be recognized by
the State Party Chairman;
f. The six (6) Regional Republican
Caucuses of the State Party as defined in
Rule 9.1, below; and
g. All validly registered Republican electors
in the Commonwealth of Pennsylvania.
5. The RPP supports and seeks to uphold free and
fair elections for all Pennsylvanians.
6. The RPP has a substantial and particularized
interest in ensuring that Pennsylvania carries out free
and fair elections consistently throughout the
Commonwealth.

191a
7. The RPP, on behalf of itself and its members,
including its voters, nominates, promotes, and assists
Republican
candidates
seeking
election
or
appointment to federal, state, and local office in
Pennsylvania.
8. Additionally, the RPP devotes substantial
resources toward educating, mobilizing, assisting, and
turning out voters in Pennsylvania.
9. In conjunction with its Election Day Operations
(“EDO”), the RPP devotes substantial time and
resources toward the recruitment and training of poll
workers, poll watchers, and volunteers throughout the
67 counties of the Commonwealth to assist voters on
election day.
10. As part of its EDO, the RPP also devotes
substantial time and resources toward the
recruitment and training of a “ground team” of
lawyers throughout the Commonwealth who stand
ready on Election Day to assist poll workers, poll
watchers, and volunteers should questions arise as to
elections laws or the voting process within the
Commonwealth.
11. The RPP has devoted substantial time and
resources in mobilizing and educating voters in
Pennsylvania in the past many election cycles and
continues to do so again in 2020. In this regard, the
RPP, among other things, routinely publishes a
newsletter entitled “PA GOP Morning.”
12. Each of the RPP’s EDO, training programs, and
voter education efforts relies upon, utilizes, and is
built upon the clear language of the Election Code.
13. The recent enactment of Act 77, which
fundamentally changes the manner in which

192a
Pennsylvania are permitted to vote, most notably by
providing a new universal mail-in voting regime, has
required the RPP to significantly update and alter its
EDO, training programs, and voter education
programs.
14. In particular, the RPP has substantially
increased the amount of its time and resources
dedicated to educating voters, poll workers, poll
watchers, volunteers, and its legal teams throughout
Pennsylvania’s 67 counties regarding the provision of
Act 77.
15. I am aware of the relief sought by Petitioners in
this litigation as well as guidances promulgated by
Secretary Boockvar regarding Act 77 ( the “Boockvar
Guidances”). Copies of the Boockvar Guidances are
collectively attached hereto as Exhibit 1.
16. I understand that the Boockvar Guidances are
intended to advise each of the Commonwealth’s 67
County Boards of Elections as to the manner in which
each may conduct elections in each county. Because
the Boockvar Guidances purport to grant discretion to
County Boards of Elections on certain election
administration issues, the manner of voting in
Pennsylvania may vary from county to county if the
Boockvar Guidances are upheld and implemented.
17. Both the relief sought in this litigation and the
Boockvar Guidances differ and depart from the
statutory language of Act 77 as well as the clear
dictates of Article VII, Section 4 of the Pennsylvania
Constitution, upon which the RPP has relied in
undertaking its EDO, training programs, and voter
education programs.

193a
18. Should this Court grant the relief sought in this
litigation or should the Secretary be permitted to
implement changes to Act 77 via the Boockvar
Guidances, the resources and efforts which the RPP
have expended on its EDO, training programs, and
voter education programs will have been wasted.
19. Indeed, should this Court grant the relief
sought in this litigation or should the Secretary be
permitted to implement changes to Act 77 via the
Boockvar Guidances, the RPP will be required to
expend substantial new additional resources and
effort on overhauling its EDO, training programs, and
voter education programs to reflect the changes in
Pennsylvania’s
election
laws
and
election
administration scheme.
20. Moreover, if Act 77’s received-by deadline for
absentee and mail-in ballots is extended, the RPP will
need to devote significant new resources to recruiting,
organizing, and training additional poll workers, poll
watchers, lawyers, and volunteers to attend and
observe the expanded number of days on which
election officials will receive, open, and count absentee
and mail-in ballots.
21. Furthermore, should the Boockvar Guidances
be permitted to become effective, the manner in which
Pennsylvanians will vote may differ from county to
county.
Such an outcome would significantly
complicate, and require the RPP to devote even more
substantial new additional resources to, its EDO,
training programs, and voter education efforts.
22. I declare under penalty of perjury that the
foregoing is true and correct.
Affiant sayeth nothing further.

194a
Executed on September 8, 2020
/s/ Vonne Andring
Vonne Andring

COMMONWEALTH OF PENNSYLVANIA
COUNTY OF ARMSTRONG

)
) SS:
)

Before me, a notary public, in and for said county
and state personally appeared Vonne Andring, who
swore that the information contained in the foregoing
Affidavit is true and correct based upon her personal
knowledge.
IN WITNESS WHEREOF, I have hereto set my
hand and seal on this 8th day of September, 2020
/s/ Elizabeth A. Gribik
Notary Public

195a

APPENDIX I
IN THE SUPREME COURT OF
PENNSYLVANIA
Pennsylvania Democratic
Party et al.,
Petitioners,
No. 133 MM
2020

v.
Kathy Boockvar et al.,
Respondents.

AFFIDAVIT OF MELANIE STRINGHILL
PATTERSON
COMMONWEALTH OF PENNSYLVANIA
COUNTY OF ALLEGHENY

)
) SS:
)

Melanie Stringhill Patterson, who having been first
duly sworn, deposes and states as follows:
1. I am an adult individual over the age of
eighteen (18).
2. I reside in Belle Vernon, Fayette County,
Pennsylvania.
3. I am a qualified registered elector in the
Commonwealth of Pennsylvania and registered
member of the Republican Party of Pennsylvania.

196a
4. As a Pennsylvania qualified registered elector,
I have always voted in person at primary and general
elections, and I intend to vote in-person at the
upcoming November 3, 2020 General Election.
5. As a Pennsylvania qualified registered elector
who votes in-person, I do not want my vote diluted or
cancelled by votes that are cast in a manner contrary
to the requirements enacted by the Pennsylvania
General Assembly.
6. I believe that, to ensure the integrity of
elections, all voters in Pennsylvania must follow the
rules established by the General Assembly in the
Election Code. For voters who cast absentee or mailin ballots, this includes, without limitation, using an
inner secrecy envelope without any marks, text, or
symbols which identify the person who voted the
ballots, and filling in, signing, and dating the
declaration on the outside envelope. Also, voters who
cast absentee or mail-in ballots must mail or
personally deliver their own ballots to the county
election board office rather than depositing them in
unmonitored and unsecured drop-boxes. Further,
non-disabled voters should not be allowed to have
third-parties deliver their absentee or mail-in ballots.
7. I declare under penalty of perjury that the
foregoing 1s true and correct.
Affiant sayeth nothing better.
Executed on September 8th, 2020
/s/ Melanie Stringhill Patterson
Melanie Stringhill Patterson

197a
ACKNOWLEDGEMENT
COMMONWEALTH OF PENNSYLVANIA
COUNTY OF ALLEGHENY

)
) SS:
)

On this 8th day of September, 2020, before me, a
Notary Public, the undersigned officer, personally
appeared MELANIE STRINGHILL PATTERSON,
known to me (or satisfactorily proven) to be the
persons whose name is subscribed to the within
Affidavit and who swore that the information
contained in the foregoing Affidavit is true and correct
based upon her personal knowledge and acknowledged
that she executed the same for the purpose therein
contained.
IN WITNESS WHEREOF, I hereunto set my hand
and official seal the day and year first above written.
/s/ Tracie S. Turoczy
Notary Public

198a

APPENDIX J

CONSTITUTIONAL AND STATUTORY
PROVISIONS
The Electors Clause provides:
Each State shall appoint, in such Manner as the
Legislature thereof may direct, a Number of
Electors, equal to the whole Number of Senators
and Representatives to which the State may be
entitled in Congress; but no Senator or
Representative, or Person holding an Office of
Trust or Profit under the United States, shall be
appointed an Elector.
U.S. Const. art. II, § 1, cl. 2.

***
The Elections Clause provides:
The Times, Places, and Manner of holding
Elections for Senators and Representatives, shall
be prescribed in each State by the Legislature
thereof; but the Congress may at any time by Law
make or alter such Regulations, except as to the
Places of choosing Senators.
U.S. Const. art. I, § 4 cl. 1.

***

199a
2 U.S.C. § 1 provides:
At the regular election held in any State next
preceding the expiration of any term for which
any Senator was elected to represent such State
in Congress, at which election a Representative to
Congress is regularly by law to be chosen, a
United States Senator from said State shall be
elected by the people thereof for the term
commencing on the 3d day of January next
thereafter.
2 U.S.C. § 1.

***
2 U.S.C. § 7 provides:
The Tuesday next after the 1st Monday in
November, in every even numbered year, is
established as the day for election, in each of the
States and Territories of the United States, of
Representatives and Delegates to the Congress
commencing on the 3d day of January next
thereafter.
2 U.S.C. § 7.

***
3 U.S.C. § 1 provides:
The electors of President and Vice President shall
be appointed, in each State, on the Tuesday next
after the first Monday in November, in every

200a
fourth year succeeding every election of a
President and Vice President.
3 U.S.C. § 1.

